<html>
<title> - THE NATIONAL NANOTECHNOLOGY INITIATIVE AMENDMENTS ACT OF 2008</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                 THE NATIONAL NANOTECHNOLOGY INITIATIVE
                         AMENDMENTS ACT OF 2008

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 16, 2008

                               __________

                           Serial No. 110-93

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______
                     U.S. GOVERNMENT PRINTING OFFICE
41-672 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           TOM FEENEY, Florida
LAURA RICHARDSON, California         RANDY NEUGEBAUER, Texas
PAUL KANJORSKI, Pennsylvania         BOB INGLIS, South Carolina
DARLENE HOOLEY, Oregon               DAVID G. REICHERT, Washington
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. MCCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
BEN CHANDLER, Kentucky               BRIAN P. BILBRAY, California
RUSS CARNAHAN, Missouri              ADRIAN SMITH, Nebraska
CHARLIE MELANCON, Louisiana          PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               VACANCY
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                            C O N T E N T S

                             April 16, 2008

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........     9
    Written Statement............................................    11

Prepared Statement by Representative Ralph M. Hall, Minority 
  Ranking Member, Committee on Science and Technology, U.S. House 
  of Representatives.............................................    13

Statement by Representative Vernon J. Ehlers, Minority Ranking 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    14

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    14

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    15

                               Witnesses:

Mr. E. Floyd Kvamme, Co-Chair, President's Council of Advisors on 
  Science and Technology
    Oral Statement...............................................    15
    Written Statement............................................    17
    Biography....................................................    24

Mr. Sean Murdock, Executive Director, NanoBusiness Alliance
    Oral Statement...............................................    24
    Written Statement............................................    27
    Biography....................................................    29

Dr. Joseph S. Krajcik, Professor of Science Education; Associate 
  Dean of Research, University of Michigan
    Oral Statement...............................................    30
    Written Statement............................................    31
    Biography....................................................    36

Dr. Andrew D. Maynard, Chief Science Advisor, Project on Emerging 
  Nanotechnologies, Woodrow Wilson International Center for 
  Scholars
    Oral Statement...............................................    37
    Written Statement............................................    38
    Biography....................................................    61

Dr. Raymond David, Manager of Toxicology for Industrial 
  Chemicals, BASF Corporation
    Oral Statement...............................................    61
    Written Statement............................................    63
    Biography....................................................    64

Dr. Robert R. Doering, Senior Fellow and Research Strategy 
  Manager, Texas Instruments
    Oral Statement...............................................    64
    Written Statement............................................    66
    Biography....................................................    69

Discussion.......................................................    70

              Appendix: Answers to Post-Hearing Questions

Mr. E. Floyd Kvamme, Co-Chair, President's Council of Advisors on 
  Science and Technology.........................................    90

Mr. Sean Murdock, Executive Director, NanoBusiness Alliance......    93

Dr. Joseph S. Krajcik, Professor of Science Education; Associate 
  Dean of Research, University of Michigan.......................    95

Dr. Andrew D. Maynard, Chief Science Advisor, Project on Emerging 
  Nanotechnologies, Woodrow Wilson International Center for 
  Scholars.......................................................    99

Dr. Raymond David, Manager of Toxicology for Industrial 
  Chemicals, BASF Corporation....................................   103

Dr. Robert R. Doering, Senior Fellow and Research Strategy 
  Manager, Texas Instruments.....................................   105


     THE NATIONAL NANOTECHNOLOGY INITIATIVE AMENDMENTS ACT OF 2008

                              ----------                              


                       WEDNESDAY, APRIL 16, 2008

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                 The National Nanotechnology Initiative

                         Amendments Act of 2008

                       wednesday, april 16, 2008
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, April 16, 2008, the Committee on Science and 
Technology will hold a hearing to review legislation that proposes 
changes to various aspects of the planning and implementation 
mechanisms for and to the content of the National Nanotechnology 
Initiative (NNI). The legislation includes changes to strengthen the 
planning and implementation of the environment, health, & safety (EHS) 
component of NNI; to increase emphasis on nanomanufacturing research, 
technology transfer, and commercialization of research results flowing 
from the program; to create a new NNI component of focused, large-scale 
research and development projects in areas of national importance; and 
to enhance support for K-16 nanotechnology-related education programs.
    The legislation is based on findings and recommendations from 
formal reviews in 2002 and 2006 of the NNI by the National Academy of 
Sciences and in 2005 by the President's Council of Advisors for Science 
and Technology, which currently serves as the advisory committee for 
the NNI; witness testimony from NNI hearings from this and the past 
Congress; and recommendations resulting from staff discussions with 
various stakeholder groups.
    A section-by-section summary of the bill is attached as an appendix 
to this memo.

2. Witnesses

Mr. Floyd E. Kvamme, Co-Chair, President's Council of Advisors on 
Science and Technology

Mr. Sean Murdock, Executive Director, NanoBusiness Alliance

Dr. Joseph Krajcik, Associate Dean for Research and Professor of 
Education, University of Michigan

Dr. Andrew Maynard, Chief Science Advisor, Project on Emerging 
Nanotechnologies, Woodrow Wilson Center

Dr. Raymond David, Manager of Toxicology, BASF Corporation on behalf of 
the American Chemistry Council

Dr. Robert R. Doering, Senior Fellow and Research Strategy Manager, 
Texas Instruments and on behalf of the Semiconductor Industry 
Association.

3. Overarching Questions

        <bullet>  Does the legislation address key issues for improving 
        the way the NNI is planned and implemented and for ensuring 
        that the program is positioned to help maintain U.S. leadership 
        in nanotechnology?

        <bullet>  Are the changes proposed in the legislation to 
        strengthen the planning, coordination, and prioritization 
        process for research to address concerns about environmental 
        and safety ramifications of nanotechnology likely to be 
        effective? Is the requirement for a minimum funding level for 
        this aspect of the program reasonable and necessary?

        <bullet>  Will the bill assist in overcoming the barriers to 
        commercialization of nanotechnologies, help enhance NNI support 
        for research in areas relevant to the needs of industry, and 
        make user facilities supported under the NNI more welcoming to 
        industrial users, thereby assisting with the transfer of 
        research results to usable products that benefit the public?

        <bullet>  Is there a need for resources under the NNI to be 
        readjusted to include a component for support of large-scale 
        research and development projects focused on specific problems 
        of national importance?

        <bullet>  Does the proposed legislation adequately address 
        support for nanotechnology education under the NNI?

4. Background

Summary of Past NNI Hearings

    During the 110th Congress, the Committee has held three NNI related 
hearings. The first, Nanotechnology Education [Serial No. 110-60], was 
held October 2nd, 2007 by the Subcommittee on Research and Science 
Education. The witnesses, who represented the Federal Government, 
industry, and educational institutions and science educators at all 
levels, agreed that nanotechnology education is an important component 
of a strategy to capitalize on the promise of this advancing field. 
Several witnesses discussed the importance of early nanotechnology 
education, including informal education, for generating awareness, 
information and excitement about nanotechnology among young students 
and the general public. Witnesses were unanimous in expressing support 
for increasing formal education in nanotechnology beginning at the 
undergraduate level, including at two-year colleges because of their 
important role in supplying much of the 21st Century skilled workforce. 
A representative from the National Science Foundation provided an 
overview of the many activities in formal and informal nanotechnology 
education at all levels already supported by the Federal Government.
    A second hearing, Research on Environmental and Safety Impacts of 
Nanotechnology: Current Status of Planning and Implementation under the 
National Nanotechnology Initiative [Serial No. 110-69], was held on 
October 31, 2007. This hearing addressed the need and motivation for 
research on the environmental, health and safety (EHS) aspects of 
nanotechnology. In addition, the hearing sought to determine the 
current state of planning and implementation of EHS research under the 
National Nanotechnology Initiative (NNI), and explore whether changes 
are needed to the current mechanisms for planning and implementing EHS 
research. Witnesses included the representatives from the organizations 
charged with the development of the EHS plan as well as non-
governmental organizations focused on the societal implications of 
nanotechnology. The hearing highlighted the unanimous position by all 
witnesses regarding the importance of EHS research for the development 
of nanotechnology and the necessity of a well designed and adequately 
funded EHS research component of the NNI. However, there was concern 
that the interagency planning for and implementation of the EHS 
research component of NNI was not moving with the urgency it deserved. 
While the organizations responsible for plan development and 
implementation claimed that the current process is effective and that 
the participating agencies believe the process is working well, the 
non-governmental organizations were unanimous in their recommendations 
for changes in the planning process as well as increases in the 
priority of EHS in the overall NNI basic research funding.
    A third hearing, The Transfer of National Nanotechnology Initiative 
Research Outcomes for Commercial and Public Benefit [Serial No. 110-82] 
was held on March 11, 2008 by the Subcommittee on Research and Science 
Education. Witnesses included representatives of State- and federally-
funded nanotechnology research and user facilities, industry, and a 
state-based technology transfer and funding organization. The witnesses 
stressed the importance of basic research in nanomanufacturing and 
adequate funding of geographically diverse user facilities. The 
witnesses were clear that basic research funding should be broad to 
allow for new discoveries and pioneering research; however, they 
indicated that it would be wise to focus some funding and planning 
toward commercialization. They suggested that this might be 
accomplished through demonstration projects or by defining areas of 
global competitiveness. Many of the witnesses testified that the SBIR 
and ATP/TIP programs are very important for the development of 
innovative technologies and felt that the program should emphasize the 
funding of nanotechnology projects.

NNI Organization and Funding

    The National Nanotechnology Initiative was authorized by the 21st 
Century Nanotechnology Research and Development Act of 2003 (P.L. 108-
153). In accordance with the Act, the National Science and Technology 
Council (NSTC) through the Nanoscale Science, Engineering, and 
Technology (NSET) Subcommittee plans and coordinates the NNI. The Act 
authorized the National Nanotechnology Coordination Office (NNCO) to 
provide technical and administrative support to the NSET for this 
coordination. There are currently twenty-six federal agencies that 
participate in the National Nanotechnology Initiative, with 13 of those 
agencies reporting a research and development budget. Research related 
to the NNI is organized into eight program component areas including: 
Fundamental Nanoscale Phenomena and Processes; Nanomaterials; Nanoscale 
Devices and Systems; Instrumentation Research, Metrology, and 
Standards; Nanomanufacturing; Major Research Facilities and Instrument 
Acquisition; Environment, Health, and Safety; and Education and 
Societal Dimensions. More information on the organization and structure 
of the NNI can be found in the Congressional Research Service Report, 
The National Nanotechnology Initiative: Overview, Reauthorization, and 
Appropriations Issues at http://www.congress.gov/erp/rl/pdf/
RL34401.pdf.
    The total estimated NNI budget for FY 2008 was $1.49 billion. Total 
planned funding for the NNI in FY 2009 is $1.53 billion. More 
information on the NNI program content and budget can be found at 
http://www.nano.gov/
NNI<INF>-</INF>FY09<INF>-</INF>budget<INF>-</INF>summary.pdf and http:/
/www.nano.gov/NNI<INF>-</INF>08Budget.pdf.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Spending on EHS, Nanomanufacturing, and Education

EHS: The President's FY 2009 budget requests $1.5 billion for the NNI. 
Of this amount, the budget proposes $76.4 million (five percent of the 
overall program) for research on EHS research. This is a 30 percent 
increase over the FY08 funding level. More than 40 percent of this 
funding would go to NSF.

Nanomanufacturing and Commercialization: The FY 2008 estimated budget 
for nanomanufacturing research (a component that is closely tied to 
bridging the gap between basic research and the development of 
commercial products) was $50.2 million dollars which is 3.3 percent of 
the total budget. The NNI planned investment in nanomanufacturing 
research for FY 2009 is $62.1 million, a 24 percent increase. This 
amount is four percent of the total FY 2009 proposed budget. In 
addition, $161.3 million is planned for major facilities and instrument 
acquisition, which can be utilized towards production of prototypes 
leading to commercialization.

Education: As part of its contribution to the NNI, NSF supports a 
number of educational activities designed to teach K-16 students, 
science teachers, faculty members, and the general public about 
nanotechnology. Major education programs include the National Center 
for Learning and Teaching (NCLT) in Nanoscale Science and Engineering 
and the Nanoscale Informal Science Education (NISE) Network. NCLT is a 
consortium of five universities with a mission to foster the Nation's 
talent in nanoscale science and engineering (NSSE) by developing 
methods for learning and teaching through inquiry and design of 
nanoscale materials and applications. They perform research and serve 
as a clearinghouse for information regarding NSSE curriculum, teaching 
methodologies, and professional development for the undergraduate and 
K-12 levels. NCLT is operating in the last year of a five-year 
$15,000,000 million grant. The NISE network received a $12.4 million 
dollar grant from NSF in 2005 to develop methods of introducing the 
nanotechnology to the public and to draw students to careers in NSSE.
    NSF also has a Nanotechnology Undergraduate Education Program 
funded at $42.7 million since 2003. The grants in this program have 
gone to develop curriculum and purchase equipment for undergraduate 
students in different science and engineering disciplines. As part of 
the Advanced Technology Education Centers program, NSF has provided 
$2.68 million since 2004 to develop nanotechnology related technician 
education programs at community colleges.

Environment, Health, & Safety Planning

    In October 2003, the NSET organized an interagency Nanotechnology 
Environmental and Health Implications (NEHI) Working Group to 
coordinate environmental and safety research carried out under the NNI. 
One of the NEHI Working Group's initial tasks was developing a 
prioritized plan for EHS research. In March 2006, the Administration 
informed the Science Committee that this report would be completed that 
spring, but the document that was finally released in September 2006 
was a non-prioritized list of EHS research areas. A further iteration 
of the EHS research plan, which was released for public comment in 
August 2007, presented a rationale for the process of defining EHS 
research priorities and provided a reduced set of priorities based on 
the previous report. Finally, in February 2008, the Strategy for 
Nanotechnology-Related Environmental, Health, and Safety Research\2\ 
document was released. This document provided a more in depth 
assessment of current research needs and priorities; however, it failed 
to provide a schedule and timelines for meeting objectives and the 
proposed funding levels by topic and by agency.
---------------------------------------------------------------------------
    \2\ Available at http://www.nano.gov/
NNI<INF>-</INF>EHS<INF>-</INF>Research<INF>-</INF>Strategy.pdf

Commercialization and Technology Transfer of Nanotechnology

User Facilities
    The NNI funding agencies support nanotechnology user facilities to 
assist researchers (academic, government, and industry) in fabricating 
and studying nanoscale materials and devices. The facilities may also 
be used by companies for developing ideas into prototypes and 
investigating proof of concept. The National Science Foundation 
supports 17 facilities under its National Nanotechnology Infrastructure 
Network (NNIN), four of which are focused on nanomanufacturing. The 
Department of Energy maintains five Nanoscale Science Research Centers, 
each focused on and specific to a different area of nanoscale research. 
The National Institutes of Health has a Nanotechnology Characterization 
Laboratory in Frederick, MD and the National Institute of Standards and 
Technology maintains a user facility in Gaithersburg, MD. The 
application processes for each facility varies; however, all are open 
to academic, government, or industry users. In addition to the user 
facilities, the NNI is carried out in over 70 centers and institutes\3\ 
throughout the country mostly on university campuses, many of which 
have user facilities that are open to all applicants.
---------------------------------------------------------------------------
    \3\ Information of NNI related user facilities and centers and 
institutes can be found at www.nano.gov.

SBIR/STTR Programs
    P.L. 108-153 encourages support for nanotechnology related projects 
through the Small Business Innovation Research (SBIR) and Small 
Business Technology Transfer Research (STTR) programs by requiring the 
National Science and Technology Council to ``develop a plan to utilize 
federal programs, such as the Small Business Innovation Research 
Program and the Small Business Technology Transfer Research Program, in 
support of the [NNI activities]. . ..'' Despite the lack of a formal 
plan, the SBIR and STTR programs have been used as a vehicle to bring 
nanotechnology research developed by small business concerns closer to 
commercialization. The total SBIR and STTR program spending in all 
technology areas in FY 2006 was nearly $2.2 billion, of that budget 
$79.7 million was identified as nanotechnology related research.\4\ 
This was 3.7 percent of the total SBIR/STTR spending in FY 2006 and 
included nine federal agencies. SBIR/STTR funding is allowable for 
development of technologies from concept to prototype; however, funding 
of scale-up to manufacturing does not fall within the SBIR/STTR scope 
of funding.
---------------------------------------------------------------------------
    \4\ The National Nanotechnology Initiative Supplement to the 
President's FY 2008 Budget. July 2007, p. 24.

5. Witness Questions

    All witnesses were asked to give their views on the provisions of 
the bill, including any recommendations for ways to improve it. The 
list of overarching questions (item 3 above) was included in the 
invitation letters.

Appendix

Section-by-Section Summary of Draft National Nanotechnology Initiative 
                         (NNI) Amendments Bill

SEC. 1. Short Title

    National Nanotechnology Initiative Amendments Act of 2008.

SEC. 2. Amendments to the 2003 Act

    Modifies the NNI strategic plan to require specification of (1) 
both near and long-term objectives, (2) the timeframe for achieving 
near-term objectives, (3) the metrics for measuring progress toward 
objectives, and (4) multi-agency funded projects in areas of 
significant economic and societal impacts (see SEC. 5).
    Authorizes agencies participating in the NNI to support travel 
expenses for scientists to participate in standards setting activities 
related to nanotechnology.
    Provides an explicit funding source for the National Nanotechnology 
Coordination Office (NNCO)--each participating agency provides funds in 
proportion to the agency's fraction of the overall NNI budget--and 
requires the NNCO to report annually on its current and future budget 
requirements, including funding needed to create and maintain new 
public databases (see following provision) and to fulfill the public 
input and outreach requirements specified in the 2003 Act.
    Requires the NNCO to (1) develop a public database for projects 
funded under the Environmental, Health and Safety (EHS), Education and 
Societal Dimensions, and Nanomanufacturing program component areas, 
with sub-breakouts for education and ELSI projects; and (2) develop, 
maintain and publicize information about nanotechnology facilities 
available for use by academia and industry.
    Specifies that the NNI Advisory Panel must be a stand-alone 
advisory committee (at present the President's Council of Advisors for 
Science and Technology is assigned this role).
    Requires the NNI Advisory Panel to establish a sub-panel with 
members having qualifications tailored to assessing the societal, 
ethical, legal, environmental, and workforce activities supported by 
the NNI.
    Revises the charge to the National Research Council (NRC) for the 
content and scope of the triennial reviews of the NNI.
    Provides an explicit funding authorization to OSTP of $500K/year 
for FY09-11 for the NRC triennial reviews.

SEC. 3. Societal Dimensions of Nanotechnology

    Assigns responsibility to an OSTP associate director (to be 
determined by the OSTP Director) to fulfill the role of Coordinator for 
the societal dimensions component of NNI. The coordinator is (1) 
responsible for ensuring the strategic plan for EHS is completed and 
implemented; (2) serves as the focal point for encouraging and 
advocating buy-in by the agencies, and monitoring their compliance, in 
providing the resources and management attention necessary; and (3) is 
responsible for encouraging the agencies to explore suitable mechanisms 
for establishing public-private partnerships for support of EHS 
research.
    Requires the Coordinator to convene and chair a panel of 
representatives from agencies supporting research under the EHS program 
component area to develop, annually update, and coordinate the 
implementation of a research plan for this program component. The plan, 
which is to be appended to the statutorily required NNI annual report, 
must contain near- and long-term research goals and milestones, include 
multi-year funding requirements by agency and by goal, and take into 
consideration the recommendations of the NNI Advisory Panel and the 
agencies responsible for environmental and safety regulations. The plan 
must include standards development activities related to nomenclature, 
standard reference materials, and testing methods and procedures.
    Requires that at least 10 percent of the total NNI budget be 
allocated to the EHS program component area.
    Establishes Nanotechnology Education Partnerships as part of the 
NSF Math and Science Partnership (MSP) program to recruit and help 
prepare secondary school students to pursue post-secondary education in 
nanotechnology. These partnerships are similar to other MSPs, but must 
include one or more businesses engaged in nanotechnology and focus the 
educational activities on curriculum development, teacher professional 
development, and student enrichment (including access by student to 
nanotechnology facilities and equipment) in areas related to 
nanotechnology.
    Requires the Program to include within the Education and Societal 
Dimensions program component area activities to support nanotechnology 
undergraduate education, including support for course development, 
faculty professional development, and acquisition of equipment and 
instrumentation. To carry out these activities, the bill authorizes an 
additional $5M per year for FY 2009 and FY 2010 for the NSF Course, 
Curriculum, and Laboratory Improvement program (undergraduate STEM 
education program open to all institutions of higher education) and an 
additional $5M per year for FY 2009 and FY 2010 for the NSF Advanced 
Technological Education program (open only to two-year institutions).
    Requires formation of an Education Working Group to coordinate, 
prioritize, and plan the educational activities funded under NNI.

SEC. 4. Technology Transfer

    Requires agencies supporting nanotechnology research facilities 
under NNI to allow, and encourage, use of these facilities to assist 
companies in developing prototype products, devices, or processes for 
determining proof of concept. The agencies are required to publicize 
the availability of these facilities and provide descriptions of the 
capabilities of the facilities and the procedures and rules for their 
use.
    Requires agencies to encourage applications for support of 
nanotechnology projects under SBIR and STTR programs, requires 
publication of the plan to encourage this within six months (plan 
originally required under the 2003 Act), and requires a report that 
will track the success of the programs in attracting and supporting 
nanotechnology projects.
    Requires NIST to encourage submission of proposals under the 
Technology Innovation Program (TIP) for support of nanotechnology 
related projects and to report to Congress on how this is to be 
accomplished and on the outcome of the effort over time. Requires the 
TIP Advisory Board to provide advice to the program on ways to increase 
the number of nanotechnology related proposals and to assess the 
adequacy of funding provided for such proposals.
    Encourages the creation of industry liaison groups in all relevant 
industry sectors (four currently exist) and specifically suggests 
establishing one focused on companies that produce and use composite 
materials.
    Adds to the activities enumerated by the 2003 Act that are required 
to be carried out under the NNI the coordination and leveraging of 
federal investments with nanotechnology research, development, and 
technology transition initiatives supported by the states.

SEC. 5. Research in Areas of National Importance

    Requires the NNI to include support for large-scale research and 
development projects involving collaborations among universities, 
industry, federal labs, and non-profit research organizations to 
accelerate development of promising nanotechnology research discoveries 
toward near-term solutions to problems in areas of national importance, 
such as electronics, energy efficiency, health care, and water 
remediation.
    Requires that the competitive, merit based selection process for 
awards and the funding of these awards be carried out through a 
collaboration between at least two agencies and that the award 
selection process take into favorable consideration the availability of 
cost sharing from non-federal sources.
    Project awards may be for support of interdisciplinary research 
centers, and all must include a plan for transferring technology 
developed under the projects to industry.

SEC. 6. Nanomanufacturing Research

    Specifies inclusion of research under the Nanomanufacturing program 
component area to include projects to develop instrumentation/tools for 
rapid characterization and monitoring for nanoscale manufacturing and 
to develop techniques for scaling nanomaterial synthesis to industrial-
level production rates.
    Requires that centers established under the NNI on 
nanomanufacturing and on applications in areas of national importance 
(SEC. 5) include support for interdisciplinary research and education 
on methods and approaches to develop environmentally benign nanoscale 
products and nanoscale manufacturing processes.
    Requires a public meeting and subsequent review by the NNI Advisory 
Panel of the adequacy of the funding level and the relevance to 
industry's needs of research under the Nanomanufacturing program 
component area.

SEC. 7. Definitions
    Chairman Gordon. Good morning. This hearing will come to 
order, and I want to welcome everyone to today's hearing to 
review a draft Committee bill on the amendment in order to 
amend and strengthen the National Nanotechnology Initiative. I 
think this is one of the most important hearings that we're 
going to have this year. I know that we have a busy day for 
Members in other committees, but we have a lot of staff 
watching this on TV; and so there will be a lot of information 
that will be communicated from the hearing, and I appreciate 
you again being here.
    The term revolutionary technology has become a cliche, but 
nanotechnology truly is revolutionary. We stand at the 
threshold of an age in which materials and devices can be 
fashioned atom-by-atom to satisfy specified design 
requirements. Nanotechnology-based applications are arising 
that were not even imagined a decade ago.
    Nanotechnology is not a single technology, but rather is a 
collection of tools and concepts for observing, controlling, 
and manipulating matter at the atomic scale.
    The range of potential applications is broad and will have 
enormous consequences for electronics, energy transformation 
and storage, materials, and medicine and health, to name just a 
few. Indeed, the scope of this technology is so broad as to 
leave virtually no product untouched.
    The Science and Technology Committee recognized the promise 
of nanotechnology early on, holding our first hearing a decade 
ago to review federal activities in the field. The Committee 
was subsequently instrumental in the development and enactment 
of a statute in 2003 that authorized the interagency National 
Nanotechnology Initiative, or the NNI. The 2003 statute put in 
place formal interagency planning, budgeting, and coordinating 
mechanisms for NNI. It now receives funding from 13 agencies 
and has a budget of $1.5 billion for fiscal year 2008, which 
represents a doubling of the budget over the last five years.
    The NNI statute also provides for formal reviews of the 
content and management of the program by the National Academies 
and by a designated advisory committees of non-government 
experts. Their assessments of NNI have been generally positive.
    The cooperation and planning processes among the 
participating agencies in the NNI have been also largely 
effective. The NNI has led to productive, cooperative research 
efforts across a spectrum of disciplines. It has established a 
network of national facilities for support of nanoscale 
research and development.
    Therefore, the NNI does not require extensive renovation. 
The draft bill leaves its major features unchanged but does 
adjust some important priorities and strengthen some specific 
aspects of the program. I would like to highlight two key 
features of the bill.
    The first area is risk reduction. Nanotechnology is 
advancing rapidly. At least 600 products have entered commerce 
that contain nanoscale materials, including aerosols and 
cosmetics.
    It is important for the successful development of 
nanotechnology that potential downsides of the technology be 
addressed from the beginning in a straightforward and open way.
    We know too well that negative public perceptions about the 
safety of technology can have serious consequences for its 
acceptance and use. This has been the case with nuclear power, 
genetically modified foods, and stem cell therapies.
    The science base is not now available to pin down what 
types of engineered nanomaterials may be dangerous, although 
early studies show some are potentially harmful. We don't yet 
know what characteristics of these materials are most 
significant to determine their effect on living things or the 
environment, nor do we even have the instruments for 
effectively monitoring the presence of such materials in the 
air or water.
    Although the NNI has from its beginning realized the need 
to include activities for increasing understanding of the 
environmental and safety aspects of nanotechnology, it has been 
slow to put in place a well-designed, adequately-funded, and 
effectively executed research program.
    The environmental and safety component of NNI must be 
improved by quickly developing and implementing a strategic 
research plan that specifies near-term and long-term goals, 
sets milestones and timeframes for meeting near-term goals, 
clarifies agencies' roles in implementing the plan, and 
allocates sufficient resources to accomplish the goals.
    This is the essential first step for the development of 
nanotechnology to ensure that sound science guides the 
formulation of regulatory rules and requirements. It will 
reduce the current uncertainty that inhibits commercial 
development of nanotechnology and will provide a sound basis 
for future rule-making.
    I am interested in hearing the views of our witnesses on 
the provisions of the bill relevant to the development and 
implementation of an effective environmental, health and safety 
research component of the NNI, and particularly, on whether it 
would be beneficial to specifically set aside a portion of the 
overall NNI budget for this purpose as is proposed in this 
bill.
    The second area of the legislation I want to highlight 
involves capturing the economic benefits of nanotechnology.
    Too often the U.S. has led in the basic research on the 
frontiers of science and technology but has failed to 
capitalize on the commercial developments flowing from new 
discoveries.
    The NNI has so far invested approximately $7 billion over 
seven years in basic research that is providing new tools for 
the manipulation of matter at the nanoscale and is increasing 
our understanding of the behavior of engineered nanoscale 
materials and devices. Increased consideration should now be 
given to support efforts to foster the transfer of new 
discoveries to commercial products and processes.
    The draft bill includes provisions to encourage use of 
nanotechnology facilities by companies for prototyping and 
proof of concept studies, and it specifies steps for increasing 
the number of nanotechnology-related projects supported under 
the Small Business Innovation Research Program and by the 
Technology Innovation Program, established under the COMPETES 
Act.
    To increase the relevance and value of the NNI, the draft 
bill also authorizes large-scale, focused, multi-agency 
research and development initiatives in areas of national need.
    For example, such efforts could be organized around 
developing a replacement for the silicon-based transistor, 
developing new nanotechnology-based devices for harvesting 
solar energy, or nanoscale sensors for detecting cancer.
    The draft NNI Amendments Act was developed on the basis of 
recommendations from the formal reviews of the NNI by the 
National Academy of Sciences and by the President's Council of 
Advisors for Science and Technology, which currently acts as 
the external advisory committee to NNI. It also incorporates 
recommendations from witnesses' testimony from NNI hearings 
during this and the previous Congress and from comments and 
recommendations resulting from staff discussions with various 
stakeholder groups.
    This legislation is still a work in progress. Today I look 
forward to the observations of our witnesses and invite them to 
give the Committee their recommendations for ways to improve 
the bill.
    I want to thank our witnesses for their attention at this 
hearing and look forward to our discussion.
    [The prepared statement of Chairman Gordon follows:]

               Prepared Statement of Chairman Bart Gordon

    I want to welcome everyone to this morning's hearing to review a 
draft Committee bill to amend and strengthen the National 
Nanotechnology Initiative.
    The term ``revolutionary technology'' has become a cliche, but 
nanotechnology truly is revolutionary. We stand at the threshold of an 
age in which materials and devices can be fashioned atom-by-atom to 
satisfy specified design requirements. Nanotechnology-based 
applications are arising that were not even imagined a decade ago.
    Nanotechnology is not a single technology, but is rather is a 
collection of tools and concepts for observing, controlling, and 
manipulating matter at the atomic scale.
    The range of potential applications is broad and will have enormous 
consequences for electronics, energy transformation and storage, 
materials, and medicine and health, to name a few examples. Indeed, the 
scope of this technology is so broad as to leave virtually no product 
untouched.
    The Science and Technology Committee recognized the promise of 
nanotechnology early on, holding our first hearing a decade ago to 
review federal activities in the field. The Committee was subsequently 
instrumental in the development and enactment of a statute in 2003 that 
authorized the interagency National Nanotechnology Initiative--the NNI.
    The 2003 statute put in place formal interagency planning, 
budgeting, and coordinating mechanisms for NNI. It now receives funding 
from 13 agencies and has a budget of $1.5 billion for fiscal year 2008, 
which represents a doubling of the budget over five years.
    The NNI statute also provides for formal reviews of the content and 
management of the program by the National Academies and by a designated 
advisory committee of non-government experts. Their assessments of NNI 
have been generally positive.
    The cooperation and planning processes among the participating 
agencies in the NNI have been largely effective. The NNI has led to 
productive, cooperative research efforts across a spectrum of 
disciplines, and it has established a network of national facilities 
for support of nanoscale research and development.
    Therefore, the NNI does not require extensive renovation. The draft 
bill leaves its major features unchanged, but does adjust some 
important priorities and strengthen some specific aspects of the 
program. I would like to highlight two key features of the bill.
    The first area is risk reduction. Nanotechnology is advancing 
rapidly, and at least 600 products have entered commerce that contain 
nanoscale materials, including aerosols and cosmetics.
    It is important for the successful development of nanotechnology 
that potential downsides of the technology be addressed from the 
beginning in a straightforward and open way.
    We know too well that negative public perceptions about the safety 
of a technology can have serious consequences for its acceptance and 
use. This has been the case with nuclear power, genetically modified 
foods, and stem cell therapies.
    The science base is not now available to pin down what types of 
engineered nanomaterials may be dangerous, although early studies show 
some are potentially harmful. We don't yet know what characteristics of 
these materials are most significant to determine their effects on 
living things or on the environment.
    Nor do we even have the instruments for effectively monitoring the 
presence of such materials in air or water.
    Although the NNI has from its beginnings realized the need to 
include activities for increasing understanding of the environmental 
and safety aspects of nanotechnology, it has been slow to put in place 
a well designed, adequately funded, and effectively executed research 
program.
    The environmental and safety component of NNI must be improved by 
quickly developing and implementing a strategic research plan that 
specifies near-term and long-term goals, sets milestones and timeframes 
for meeting near-term goals, clarifies agencies' roles in implementing 
the plan, and allocates sufficient resources to accomplish the goals.
    This is the essential first step for the development of 
nanotechnology to ensure that sound science guides the formulation of 
regulatory rules and requirements. It will reduce the current 
uncertainty that inhibits commercial development of nanotechnology and 
will provide a sound basis for future rule-making.
    I am interested in hearing the views of our witnesses on the 
provisions of the bill relevant to the development and implementation 
of an effective environmental, health and safety research component for 
the NNI, and particularly, on whether it would be beneficial to 
specifically set aside a portion of the overall NNI budget for this 
purpose, as is proposed in the draft bill.
    The second area of the legislation I want to highlight involves 
capturing the economic benefits of nanotechnology.
    Too often the U.S. has led in the basic research on the frontiers 
of science and technology but has failed to capitalize on the 
commercial developments flowing from new discoveries.
    The NNI has so far invested approximately $7 billion over seven 
years in basic research that is providing new tools for the 
manipulation of matter at the nanoscale and is increasing our 
understanding of the behavior of engineered nanoscale materials and 
devices. Increased consideration should now be given to support of 
efforts to foster the transfer of new discoveries to commercial 
products and processes.
    The draft bill includes provisions to encourage use of 
nanotechnology facilities by companies for prototyping and proof of 
concert studies, and it specifies steps for increasing the number of 
nanotechnology related projects supported under the Small Business 
Innovation Research Program and by the Technology Innovation Program, 
established under the COMPETES Act.
    To increase the relevance and value of the NNI, the draft bill also 
authorizes large-scale, focused, multi-agency research and development 
initiatives in areas of national need.
    For example, such efforts could be organized around developing a 
replacement for the silicon-based transistor, developing new 
nanotechnology-based devices for harvesting solar energy, or nanoscale 
sensors for detecting cancer.
    The draft NNI Amendments Act was developed on the basis of 
recommendations from formal reviews of the NNI by the National Academy 
of Sciences and by the President's Council of Advisors for Science and 
Technology, which currently acts as the external advisory committee for 
NNI. It also incorporates recommendations from witness testimony from 
NNI hearings during this and the previous Congress and from comments 
and recommendations resulting from staff discussions with various 
stakeholder groups.
    This legislation is still a work in progress. Today I look forward 
to the observations of our witnesses and invite them to give the 
Committee their recommendations for ways to improve the bill.
    I want to thank our witnesses for their attendance at this hearing 
and look forward to our discussion.

    Chairman Gordon. The Chair now recognizes Mr. Ehlers for an 
opening statement.
    Mr. Ehlers. Thank you, Mr. Chairman, but first I must 
mention that Ranking Member Ralph Hall is indisposed today 
which means he is sick, and it takes quite a bit to keep a 
Texan down. So he sends his regrets, and Mr. Chairman, I ask 
unanimous consent that Mr. Hall's statement be entered into the 
record, and I will proceed with my own statement.
    I am pleased the Committee is holding this important 
hearing today. The purpose of this hearing is to discuss draft 
reauthorization legislation designed to improve the management 
and coordination of the cross-agency National Nanotechnology 
Initiative, better known as NNI. Of particular interest to this 
committee is the prioritization of environmental, health, and 
safety research and communication of that research to the 
public.
    Since the original Act was put in place in 2003, we have 
heard from a number of witnesses that EHS research may need to 
be increased to ensure a steady pathway for both the nano 
industry success and public acceptance of new technologies. 
Consequently, I am pleased that the draft legislation elevates 
the environmental, health, and safety component of the NNI. At 
the same time, I want to make sure we craft policy which allows 
for EHS research to be embedded into product development. We 
know that each nano product and process may behave differently, 
and therefore, independent EHS research may not always inform a 
seemingly parallel project.
    I am also interested in hearing from our witnesses about 
some of the proposed changes to nanotechnology education, 
particularly the changes to existing education programs at the 
National Science Foundation. Given the challenging funding 
environment for these programs, I want to make sure such 
changes would benefit students and classroom teachers and not 
eat away at other important programs.
    I look forward to hearing the insights of our witnesses on 
how we can strengthen the National Nanotechnology Initiative so 
that the United States can remain a leader in nanotechnology.
    Mr. Chairman, with that, I yield back the balance of my 
time.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    Thank you Chairman Gordon. I was pleased to be an original co-
sponsor of the 21st Century Nanotechnology Research and Development 
Act, which established our national nanotechnology program in 2003. It 
was the right thing to do, and thus far, has proven to be successful. I 
hope that we can continue to work together to ensure that the 
reauthorization of this vital program before us can move forward in a 
bipartisan fashion and with bipartisan support.
    This committee has spent some time focusing on various aspects of 
nanotechnology at the Subcommittee level, much of which has been 
incorporated into the draft legislation before us today. I do not need 
to spend a lot of time talking about the potential benefits and 
challenges of nanotechnology to our society. Mr. Chairman, you and I, 
as Co-Chairs of the Nanotechnology Caucus and as Members of this 
committee for many years, are well aware of them, and I am certain our 
witnesses may have a point or two to make about them as well. Suffice 
it to say, despite its name, this is no small issue. Our scientists are 
using nanotechnology to help create clean, secure affordable energy; 
low-cost filters to provide clean drinking water; medical devices and 
drugs; sensors to detect and identify harmful chemical and biological 
agents; and techniques to clean up hazardous chemicals in the 
environment. And this is just the beginning of the list.
    I recognize that as these nanotechnologies are being developed, we 
have a responsibility to mitigate potential environmental, health and 
safety (EHS) risks, as we do with any new technology. This work is 
currently being done and as long as the need is there, agencies should 
continue to fund EHS research, but it should not necessarily take 
precedence over or be funded at the expense of the other component 
areas identified in the strategic plan. My main interest, as we move 
forward with this bill, is to make sure that we are careful to allow a 
multi-agency program, which seems to be working well, to continue to 
have the flexibility needed to do its work without being too 
prescriptive. We can tweak it a bit, but we certainly do not need to 
fix something that is not broken and, in fact, serves as a good model 
for how an interagency program should work.
    We have before us a well-rounded and esteemed panel of experts with 
different interests in nanotechnology, and I look forward to hearing 
their views on this bill and on ways that we can work to make 
improvements to it.

    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    Thank you Chairman Gordon. I am pleased that the Committee is 
holding this important hearing today.
    The purpose of this hearing is to discuss draft reauthorization 
legislation designed to improve the management and coordination of the 
cross-agency National Nanotechnology Initiative (NNI). Of particular 
interest to this committee is the prioritization of environmental, 
health and safety (EHS) research and communication of that research to 
the public.
    Since the original Act was put in place in 2003, we have heard from 
a number of witnesses that EHS research may need to be increased to 
ensure a steady pathway for both the nano-industry success and public 
acceptance of new technologies. Consequently, I am pleased that the 
draft legislation elevates the EHS component of the NNI. At the same 
time, I want to make sure we craft policy which allows for EHS research 
to be embedded into product development. We know that each nano-product 
and process may behave differently, and therefore independent EHS 
research may not always inform a seemingly parallel project.
    I am also interested in hearing from our witnesses about some of 
the proposed changes to nanotechnology education, particularly the 
changes to existing education programs at the National Science 
Foundation. Given the challenging funding environment for these 
programs, I want to make sure such changes would benefit students and 
classroom teachers and not eat away at other important programs.
    I look forward to hearing the insights of our witnesses on how we 
can strengthen the National Nanotechnology Initiative so that the 
United States can remain a leader in nanotechnology. Mr. Chairman, I 
yield back the balance of my time.

    Chairman Gordon. Thank you, Dr. Ehlers. It has come to my 
attention that Mr. Honda, former and valued Member of the 
Science Committee, is in the audience; and I would ask 
unanimous consent that Mr. Honda be allowed to join this 
hearing if he so chooses, and you're welcome to take a seat 
here. I would also remind Mr. Honda as he remembers from being 
a Member of the Committee that the current Members will have 
precedence in terms of asking questions, but we certainly want 
his expertise and we are glad that he is here to join us. If 
there is no objection, Mr. Honda will join us.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman. I want to extend a special, warm welcome 
to Dr. Robert R. Doering, who is with Texas Instruments.
    T.I. is a power player in Texas and throughout the Nation.
    In addition to their nanotechnology research and semiconductor 
industry prominence, T.I. is a good neighbor.
    The company has worked hard to reach out to schools in Dallas. By 
providing extra attention to students in under-served areas, T.I. has 
brought up test scores and generated interest in high-tech careers 
among our young people.
    That's good citizenship.
    So, I want to commend industry for its role in educating tomorrow's 
high-tech workforce.
    During previous hearings held by this committee, the witnesses, who 
represented the Federal Government, industry, and educational 
institutions and science educators at all levels, agreed that 
nanotechnology education is an important component of a strategy to 
capitalize on the promise of this advancing field.
    Witnesses discussed the importance of early nanotechnology 
education for generating enthusiasm among young students and the 
general public.
    They were unanimous in their support for increasing formal 
education in nanotechnology beginning at the undergraduate level, 
including at two-year colleges because of their important role in 
developing a skilled workforce.
    I will be interested to hear how best to allocate our resources, as 
this committee works to reauthorize the National Nanotechnology 
Initiative.
    To me, it seems that the priority should be to ensure that we have 
the domestic workforce in place. That, Mr. Chairman, begins with 
educational activities.
    Again, I want to welcome today's witnesses and thank the Chairman 
and Ranking Member for holding today's hearing.
    I yield back the balance of my time.

    [The prepared statement of Mr. Mitchell follows:]

         Prepared Statement of Representative Harry E. Mitchell

    Thank you, Mr. Chairman.
    The advanced development of nanoscale technology has the potential 
to impact virtually every sector of our economy as well as our daily 
lives.
    Here in the United States, we are currently the leader in 
nanotechnology research and development. However, we must continue to 
protect and ensure U.S. leadership in nanotechnology R&D.
    The National Nanotechnology Initiative (NNI) has played a vital 
role in supporting nanotechnology activities in 25 federal agencies.
    However, as this committee has found, it is essential to ensure 
that the NNI continues to focus on modern issues facing nanotechnology 
development today.
    As a former teacher for almost 30 years, I strongly support 
enhancing K-16 nanotechnology-related education programs. As we 
addressed in the America COMPETES Act, it is critical to ensure that 
our workforce is educated and prepared to continue to lead in 
nanotechnology R&D.
    I look forward to hearing more from our witnesses.
    I yield back.

    Chairman Gordon. At this time, I would like to introduce 
our witnesses. First, Mr. Floyd Kvamme is the Co-Chair of the 
President's Council of Advisors on Science and Technology. Mr. 
Sean Murdock is the Executive Director for the NanoBusiness 
Alliance. Dr. Joseph Krajcik is the Associate Dean of Research 
and Professor of Education at the University of Michigan. Mr. 
Ehlers, I hope you will be happy about that. Dr. Andrew Maynard 
is the Chief Science Advisor for the Project of Emerging 
Nanotechnologies at the Woodrow Wilson Center for Scholars. Dr. 
Raymond David is the Manager of Toxicology at BASF Corporation 
and is also representing the American Chemistry Council. 
Finally, Dr. Robert Doering. Dr. Doering is a Senior Fellow and 
Research Strategy Manager at Texas Instruments and is also 
representing the Semiconductor Industry Association. Thank you 
for joining us today, and we have a very distinguished panel at 
this point. We will open our first round of questions--excuse 
me. I guess we should hear from our witnesses, shouldn't we? 
Let us begin.

STATEMENT OF MR. E. FLOYD KVAMME, CO-CHAIR, PRESIDENT'S COUNCIL 
             OF ADVISORS ON SCIENCE AND TECHNOLOGY

    Mr. Kvamme. My name is Floyd Kvamme. I am Co-Chair of the 
President's Council of Advisors on Science and Technology, a 
high-level group from academia, industry, and other entities 
experienced in leading successful science and technology 
enterprises. My remarks today are my own, but I am confident 
that my fellow PCAST members feel similarly on the issues under 
discussion.
    Last week, PCAST released its second review of the National 
Nanotechnology Initiative, or NNI, and I'd like to reference 
that report in full for this hearing's record, as it includes a 
detailed assessment of NNI program activities and coordination 
developed through extensive review over the last 18 months.
    We are here today to talk about the NNI and the Committee's 
draft legislation to reauthorize this important program. What 
is nanotechnology? If one drops the nano part of the word, we 
are talking about technology. Technology today invades every 
part of our economy, not only computers and communications, but 
health care, energy, transportation, education, and in a word, 
everything. As a result, a technology initiative is about a 
very wide and varied range of industries and applications. 
Nanotechnology is simply the continuing development of 
technology to applications which take advantage of the unique 
properties of some materials and is being applied in all of the 
applications mentioned above and will, undoubtedly, make many 
of the products in these applications better, either in 
performance, cost or both.
    Establishment of the NNI was a very good idea. I commend 
the Congress and this committee for authorizing this initiative 
in 2003. In both our first report in 2005 and now our second 
one, we have had to deal not only with the diversity that is 
nanotechnology but also a wide range of federal agencies 
involved in supporting and/or conducting nano R&D. The 
initiative did not set up a new agency with a specific budget; 
rather, it set up coordination, planning, and review mechanisms 
intended to ensure individual agency activities in 
nanotechnology are effectively supporting program and 
government-wide goals. The legislation formally established the 
coordinating office which raises its budget through 
contributions from the various agencies with nanotechnology R&D 
budgets. Agencies with primarily regulatory missions have also 
taken an active role in the initiative and have contributed to 
its activities. This strong and interagency coordination, a 
premier example of any such Federal R&D initiative, has been 
central to the success to date of the NNI.
    Appropriate and informed support for environmental, health 
and safety (EHS), research within the NNI is an important 
responsibility that demands strong coordination. With respect 
to EHS, PCAST has found that the NNI's approach has been sound; 
the interagency coordination process identified EHS research 
needs, mapped those needs to current activities to identify 
potential research opportunities, and then prioritized those 
opportunities to inform budget and planning activities.
    The provision of the draft reauthorizing legislation that 
the NNI collectively allocate a minimum of 10 percent of its 
nanotechnology R&D to EHS-related research is, however, 
problematic in both practice and principle. In practice the 
funding of each agency is independent of the NNI. The NSET 
subcommittee provides the base for coordinating member agency 
activities and planning efforts, but it does not direct NNI 
funding. Further, it is not reasonable to exclusively designate 
projects or portions of projects as exclusively EHS or not. The 
reporting structure of the NNI by PCAs enables characterization 
and analysis of the research portfolio that is sufficient for 
policy and planning purposes. The current funding mechanisms 
and structure makes it difficult for me to see how this minimum 
funding across the program is practical. In principle, the set-
aside appears to be arbitrary and not based on a sound 
scientific analysis of the NNI portfolio of relevant research, 
including extensive relevant research not reported in the EHS 
component area and what is strategically needed. Instead, 
support should be guided by the identified gaps in sequential 
priorities identified in the EHS research strategy. Like all 
other aspects of the NNI, EHS research funding decisions should 
be determined by identified R&D directives as is currently the 
approach of the agencies within the NNI. Scientifically 
determined, strategically planned priorities, not arbitrary 
percentages, should guide funding for all nanotechnology 
research.
    With respect to the oversight provisions, the breadth and 
depth of the high-level experience of the PCAST and its role as 
the National Nanotechnology Advisory Panel, combined with a 
detailed expertise of the ad hoc technology advisory group, has 
worked quite well the last five years in providing functional 
oversight for the NNI and directly advising the President on 
nanotechnology. The proposed bill should maximize the 
flexibility for the next Administration in establishing its own 
advisory structure. As the current PCAST prepares to pass the 
baton to the next administration, we will suggest they 
incorporate a similar approach to oversight, leveraging the 
expertise of a large technical advisory group, whether they be 
within PCAST or separate.
    In summary, the NNI as currently structured is a productive 
and effective program and a model of interagency coordination. 
Our newly released report makes recommendations for improvement 
but finds the program basically sound. Industry is benefiting 
from its research. A clear strategy has been developed for 
nanotechnology-related EHS research, and EHS guidelines are 
being presented to guide industry. International cooperation is 
happening. The Coordinating Office and NNI participating 
agencies have responded to past recommendations from PCAST as 
well as the National Academies and have strengthened the 
program. Agencies participate voluntarily because they derive 
benefit from doing so. A reauthorization that avoids overly 
prescriptive guidance, like an arbitrary EHS funding floor, and 
bureaucratic micro-management, such as costly database 
requirements, will further strengthen and promote interagency 
coordination that has been vital to the success of the NNI to 
date. This approach would confirm the goals as presented in the 
original legislation and commend the agencies for their 
coordinated efforts to maintain the leadership and 
competitiveness of the U.S. in nanotechnology.
    Thank you.
    [The prepared statement of Mr. Kvamme follows:]

                 Prepared Statement of E. Floyd Kvamme

    Mr. Chairman and Members of the Committee, I am pleased to testify 
today. My name is Floyd Kvamme. I am Co-Chair of the President's 
Council of Advisors on Science and Technology (or PCAST). PCAST 
comprises a high-level group from academia, industry, and other 
entities with experience in leading successful science and technology 
enterprises. My remarks today are my own, but based on our recent 
review, I am confident that my fellow PCAST members feel similarly on 
the issues under discussion today.
    Last week, PCAST released its second review of the National 
Nanotechnology Initiative (or the NNI), and I'd like to reference that 
report in full for this hearing's record. That review, required by 
Congress as the primary external advisory mechanism for the NNI, 
includes a detailed assessment of NNI program activities and 
coordination developed through extensive review and consultation by 
PCAST members over the last 18 months. The executive summary of the 
report is attached to this testimony and I recommend it for your review 
(full report available at: http://www.ostp.gov/galleries/PCAST/
PCAST<INF>-</INF>NNAP<INF>-</INF>NNI<INF>-</INF>Assessment<INF>-</INF>20
08.pdf).
    We are here today to talk about the NNI and the Committee's draft 
legislation to reauthorize this important interagency research and 
development (R&D) program. Let me begin by giving you my view of what 
nanotechnology is. If one drops the `nano' part of the word, we are 
talking about `technology.' Technology today invades virtually every 
part of our economy. It's not only computers and communications, but 
health care, energy, transportation, education, and--in a word--
everything. As a result, in talking about a ``technology initiative,'' 
we are talking about a very wide and varied range of industries and 
applications. Nanotechnology is simply the continuing development of 
technology to applications which take advantage of the unique 
properties of some materials engineered at the nanoscale. 
Nanotechnology is being applied in virtually all of the applications 
mentioned above and will, undoubtedly, make many of the products in 
these applications better--either in performance, cost or both. We 
should not think of some narrow range of applications for 
nanotechnology, but rather a vast array of potential uses.
    Establishment of the NNI was a very good idea. I commend the great 
work of Congress and this committee for formally authorizing this 
initiative in 2003. In both our first report in 2005 and now our second 
one released last week, we have had to deal not only with the diversity 
that is nanotechnology but also a wide range of federal agencies 
involved in supporting and/or conducting nano R&D. Appropriately, the 
initiative did not set up a new agency with a specific budget; rather, 
it set up coordination, planning, and review mechanisms intended to 
ensure individual agency activities in nanotechnology are effectively 
supporting program- and government-wide goals. I believe recognizing 
this is important and instructive with respect to the draft 
legislation, and I'll get to that in a few moments. The legislation did 
formally establish the coordinating office which raises its budget 
through contributions from the various agencies with nanotechnology R&D 
budgets. Agencies with primarily regulatory missions have also taken an 
active role in the initiative and have contributed to its activities. 
This strong and deep interagency coordination--a premier example of any 
such Federal R&D initiative--has been central to the success to date of 
the NNI.
    At the same time, the agencies have specific missions and objective 
to address. For example, appropriate and informed support for 
environmental, health and safety (EHS) research within the NNI is an 
important responsibility that demands strong coordination. With respect 
to this issue PCAST has found that the NNI's approach has been sound; 
the interagency coordination process identified EHS research needs, 
mapped those needs to current activities to identify potential research 
opportunities, and then prioritized those opportunities to inform 
budget and planning activities. For example, I refer you to page 49 of 
the recently-released NNI Strategy for Nanotechnology-Related 
Environmental, Health, and Safety Research (full report available at 
http://www.nano.gov/
NNI<INF>-</INF>EHS<INF>-</INF>Research<INF>-</INF>Strategy.pdf):

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In this document the Nanoscale Science, Engineering, and Technology 
Subcommittee's working group on Nanotechnology Environmental and Health 
Implications (or NEHI) has developed five critical areas for EHS 
research. The agencies agreed to cooperate such that while there was a 
lead agency for each task, the other agencies contribute to the overall 
goals agreed to within the NNI. These efforts do not take away from the 
other work within the agencies to perform their mission-oriented 
functions but, in our view, lead to more effective activity within the 
lead agency. I point specifically to the reports and activities of 
NIOSH, EPA, FDA, and NIST (detailed on page 27 in our PCAST report) as 
examples of agency specific activity:

        <bullet>  The OSTP and the Council on Environmental Quality 
        (CEQ) issued in November 2007 a memorandum identifying 
        principles for nanotechnology environmental health and safety 
        oversight based on interagency consensus.\1\
---------------------------------------------------------------------------
    \1\ http://www.ostp.gov/galleries/default-file/
Nano%20EHS%20Principles%20Memo<INF>-</INF>OSTP-CEQ<INF>-</INF>FINAL.pdf

        <bullet>  The National Institute of Occupational Safety and 
        Health (NIOSH) issued a call in July 2006 for information in 
        Approaches to Safe Nanotechnology\2\ inviting expert feedback 
        from private industry and other government entities, and in 
        June 2007 it issued the report Progress Toward Safe 
        Nanotechnology in the Workplace.\3\
---------------------------------------------------------------------------
    \2\ http://www.cdc.gov/niosh/topics/nanotech/safenano/
    \3\ http://www.cdc.gov/niosh/docs/2007-123/

        <bullet>  The Environmental Protection Agency (EPA) produced in 
        February 2007 a white paper\4\ summarizing the agency's 
        anticipated approach to nanotechnology EHS research, followed 
        in February 2008 by a nanomaterial research strategy.\5\ The 
        agency also has launched a Voluntary Nanoscale Materials 
        stewardship program.
---------------------------------------------------------------------------
    \4\ http://es.epa.gov/ncer/nano/publications/whitepaper12022005.pdf
    \5\ http://es.epa.gov/ncer/nano/publications/
nano<INF>-</INF>strategy<INF>-</INF>012408.pdf

        <bullet>  The Food and Drug Administration (FDA) released in 
        July 2007 the report\6\ of its Nanotechnology Task Force's 
        efforts to clarify a predictable pathway for application of 
        existing regulatory approaches on a case-by-case basis for 
        developers of nanotechnology-enabled products under its 
        jurisdiction.
---------------------------------------------------------------------------
    \6\ http://www.fda.gov/nanotechnology/taskforce/report2007.pdf

        <bullet>  NIST is producing standard reference materials for 
---------------------------------------------------------------------------
        nanoscale gold and carbon nanotubes.

    The provision in the draft reauthorizing legislation that the NNI 
collectively allocate a minimum of 10 percent of its nanotechnology R&D 
to EHS-related research is problematic in both practice and principle:

        <bullet>  In practice, the funding of each agency is 
        fundamentally independent of the NNI. The NSET Subcommittee of 
        the National Science and Technology Council provides the base 
        for coordinating NNI member agencies activities and planning 
        efforts, but it does not direct NNI funding. Furthermore, it is 
        not feasible or reasonable to exclusively designate projects 
        (or portions of projects) as exclusively ``EHS'' or not. The 
        current reporting structure of the NNI by Program Component 
        Areas or PCAs enables characterization and analysis of the 
        research portfolio that is sufficient for policy and planning 
        purposes. The current funding mechanisms and structure of the 
        NNI makes it difficult for me to see how this ``minimum 
        funding'' across the program is either reasonable, necessary, 
        or, indeed, practical.

        <bullet>  In principle, this set-aside appears to be arbitrary 
        and not based on a sound scientific analysis of the current NNI 
        portfolio of relevant research (including extensive relevant 
        research not reported under the EHS program component area) and 
        what is strategically needed. Instead, support should be guided 
        by the identified gaps and sequential priorities identified in 
        the NNI's nanotechnology EHS research strategy. Like all other 
        aspects of the NNI, EHS research funding decisions should be 
        determined by identified R&D objectives, as is currently the 
        approach of the agencies within the NNI. Scientifically-
        determined, strategically-planned priorities--not arbitrary 
        percentages--should guide funding for all nanotechnology 
        research, including research relevant to EHS.

    It is important to note that funding for nano-related EHS research 
has doubled since 2005. As industry picks up more applications 
research, the Federal Government's role will change and is already 
changing to work more in the EHS and regulatory areas. EHS funding will 
probably continue to increase. The one area where funding is 
accelerating--perhaps tied to our recommendations--is in worker safety 
where we will propose in our upcoming letter on the EHS report that 
NIOSH spending accelerate. The reason worker spending is so critical is 
that in many instances, nanomaterials--while in nano form in the 
workplace--stop being nanomaterials after production and become a 
tightly, chemically bound part of a larger system.
    With respect to the oversight provisions in the proposed 
reauthorization, the breadth and depth of high-level expertise of the 
PCAST in its role as the National Nanotechnology Advisory Panel 
combined with the detailed expertise of the ad hoc Technical Advisory 
Group has worked quite well the past five years in providing functional 
oversight for the NNI and directly advising the President on 
nanotechnology. The proposed bill should maximize the flexibility for 
the next Administration in establishing its own advisory structure. As 
the current PCAST prepares to pass the baton to the next 
administration, we will suggest they incorporate a similar approach to 
oversight, leveraging the expertise of a large technical advisory 
group, whether they be within PCAST or separate.
    With respect to overcoming barriers to commercialization and 
facilitating tech transfer, again I refer to the report of the PCAST 
review of the NNI. The NNI's unparalleled infrastructure of centers, 
networks, and user facilities is working very well, geographically 
distributed and with a wide array of expertise. These facilities are 
serving their purposes well based on all inputs we have received from 
both our TAG members and personal experience. Furthermore, the NNI 
already supports ``large-scale research and development projects'' on 
problems of national importance, for example, in energy and 
biomedicine. The National Cancer Institute, for example, supports a 
five-year, $144 million program developing nanotechnology for cancer 
diagnostics and therapeutics that involves eight centers and over 400 
investigators.
    With respect to overall funding, the NNI seems well funded in 
balance to other programs in the S&T budget. PCAST had hoped that the 
America COMPETES Act funding would have been passed and will continue 
to support those priorities of this Congress.
    In summary, the NNI as currently structured is a very productive 
and effective program and a model of interagency coordination. Our 
newly released report makes recommendations for improvement but finds 
the program basically sound. Industry is benefiting from its research. 
A clear strategy has been developed for nanotechnology-related EHS 
research, and EHS guidelines are being presented to guide industry. 
International cooperation is happening. The National Nanotechnology 
Coordinating Office and NNI participating agencies have responded to 
past recommendations from PCAST as well as the Academies and have 
strengthened the program. Agencies participate voluntarily because they 
derive benefit from doing so. A heavy-handed reauthorization with 
overly prescriptive guidance (like an arbitrary EHS funding floor) and 
bureaucratic micro-management (such as costly database requirements) 
will weaken and inhibit the interagency coordination that is vital to 
the success of the NNI to date. Rather, this reauthorization should be 
an opportunity to strengthen and support the interagency coordination 
founding the NNI, confirming the goals as presented in the original 
legislation and commending the agencies for their coordinated efforts 
to maintain the leadership and competitiveness of the U.S. in 
nanotechnology.

Appendix:

                         Executive Summary of6

     The National Nanotechnology Initiative: Second Assessment and 
     Recommendations of the National Nanotechnology Advisory Panel

                              (April 2008)
    The 21st Century Nanotechnology Research and Development Act of 
2003 (Public Law 108-153) calls for a National Nanotechnology Advisory 
Panel (NNAP) to periodically review the federal nanotechnology research 
and development (R&D) program known as the National Nanotechnology 
Initiative (NNI). The President's Council of Advisors on Science and 
Technology (PCAST) is designated by Executive Order to serve as the 
NNAP. This report is the second NNAP review of the NNI, updating the 
first assessment published in 2005.
    Including the NNI budget request for fiscal year (FY) 2009 of $1.5 
billion, the total NNI investment since its inception in 2001 is nearly 
$10 billion. The total annual global investment in nanotechnology is an 
estimated $13.9 billion, divided roughly equally among the United 
States, Europe, and Asia. Industry analysis suggests that private 
investment has been out-pacing that of government since about 2006. The 
activities, balance, and management of the NNI among the 25 
participating U.S. agencies and the efforts to coordinate with 
stakeholders from outside the Federal Government, including industry 
and other governments, are the subject of this report.
    The first report answered four questions: How are we doing? Is the 
money well spent and the program well managed? Are we addressing 
societal concerns and potential risks? How can we do better? That 
report was generally positive in its conclusions but provided 
recommendations for improving or strengthening efforts in the following 
areas: technology transfer; environmental, health, and safety (EHS) 
research and its coordination; education and workforce preparation; and 
societal dimensions.
    Since the first report, increasing attention has been focused on 
the potential risks of nanotechnology, especially the possible harm to 
human health and the environment from nanomaterials. In this second 
assessment, the NNAP paid special attention to the NNI efforts in these 
areas. During its review, the NNAP obtained input from various sources. 
It convened a number of expert panels and consulted its nanotechnology 
Technical Advisory Group (nTAG) and the President's Council on 
Bioethics. NNI member agencies and the National Nanotechnology 
Coordination Office (NNCO) also provided valuable information.

The NNAP finds that the United States remains a leader in 
nanotechnology based on various metrics, including R&D expenditures and 
outputs such as publications, citations, and patents. However, taken as 
a region, the European Union has more publications, and China's output 
is increasing. There are many examples of NNI-funded research results 
that are moving into commercial applications. However, measures of 
technology transfer and the commercial impact of nanotechnology as a 
whole are not readily available, in part because of the difficulty in 
defining what is, and is not, a ``nanotechnology-based product.''

The NNAP commends and encourages the ongoing NNI investment in 
infrastructure and instrumentation. Leading-edge nanoscale research 
often requires advanced equipment and facilities. The NNI investment in 
over 81 centers and user facilities across the country that provide 
broad access to costly instrumentation, state-of-the-art facilities, 
and technical expertise has been enormously important and successful. 
These facilities, which have been funded by many different agencies in 
order to address a variety of missions, support a diverse range of 
academic, industry, and government research. In addition, the NNI 
investment has been used to leverage additional support by 
universities, State governments, and the private sector.

Advances in nanotechnology are embodied in a growing number of 
applications and products in various industries. Many early 
applications have been more evolutionary than revolutionary. However, 
research funded by the NNI today has the potential for innovations that 
are paradigm shifting, for example in energy and medicine. As with any 
emerging technology, there is potential for unintended consequences or 
uses that may prove harmful to health or the environment or that may 
have other societal implications. The NNAP notes that existing 
regulations apply to nanotechnology-based products, and those who make 
or sell such products have responsibilities regarding workplace and 
product safety. As in 2005, the NNAP believes that the greatest risk of 
exposure to nanomaterials at present is to workers who manufacture or 
handle such materials. However, environmental, health, and safety risks 
in a wide range of settings must be identified and the necessary 
research performed so that real risks can be appropriately addressed.

The NNAP views the approach for addressing EHS research under the NNI 
as sound. The recent reports by the interagency Nanotechnology 
Environmental and Health Implications (NEHI) Working Group are good 
steps by the NNI to prioritize needed EHS research and to coordinate 
EHS activity across the Federal Government. The NNAP feels that calls 
for a separate agency or office devoted to nanotechnology EHS research 
or to set aside a fixed percentage of the budget for EHS research are 
misguided and may have the unintended consequence of reducing research 
on beneficial applications and on risk.

In addition to EHS implications, the NNAP considered ethical and other 
societal aspects of nanotechnology. In consultation with the 
President's Council on Bioethics, the panel concluded that at present, 
nanotechnology does not raise ethical concerns that are unique to the 
field. Rather, concerns over implications for privacy and for equality 
of access to benefits are similar to concerns over technological 
advances in general. This finding does not diminish the importance of 
continued dialogue and research on the societal aspects of 
nanotechnology.

Overall, the members of the NNAP feel that the NNI continues to be a 
highly successful model for an interagency program; it is well 
organized and well managed. The structure of the interagency Nanoscale 
Science, Engineering, and Technology (NSET) Subcommittee of the 
National Science and Technology Council effectively coordinates the 
breadth of nanotechnology activities across the Federal Government. The 
NSET working groups target functional areas in which additional focus 
is required. The NNCO provides important support that is a key to the 
success of the program. The Strategic Plan updated in 2007 clearly 
communicates the goals and priorities for the initiative and includes 
actions for achieving progress. With the separation in the updated plan 
of EHS research from that on other societal dimensions, the NNAP finds 
the Program Component Areas (PCAs) that are defined for purposes of 
tracking programs and investments serve the NNI well.

    The NNAP has a number of recommendations for strengthening the NNI, 
which are grouped into six areas.

1. Infrastructure, management, and coordination. The NNAP feels that 
the substantial infrastructure of multi-disciplinary centers, user 
facilities, along with instrumentation, equipment, and technical 
expertise, is vital to continued U.S. competitiveness in nanotechnology 
and should be maintained. Whereas the NNAP finds the coordination and 
management among the NNI participating agencies to be generally strong, 
intra-agency coordination should be improved, especially in large, 
segmented agencies. The NNI member agencies should continue to support 
international coordination through effective international forums, such 
as the Organization for Economic Co-operation and Development (OECD). 
Such efforts will aid in the development of information related to 
health and safety, as well as addressing economic barriers and impacts. 
Implementing and monitoring this recommendation should lead to more 
effective use of agency resources.

2. Standards development. Nanotechnology standards are necessary for 
activities ranging from research and development to commerce and 
regulation. Federal agencies should continue to engage in national and 
international standards development activities. The NNI should maintain 
a strong U.S. representation in international forums and seek to avoid 
duplicative standards development work. Where appropriate, NIST and 
other NNI agencies should develop reference materials, test methods, 
and other standards that provide broad support for industry production 
of safe nanotechnology-based products.

3. Technology transfer and commercialization. The NNI should continue 
to fund world-class research to promote technology transfer. Strong 
research programs produce top-notch nanoscale scientists, engineers, 
and entrepreneurs, who graduate with knowledge, skills, and innovative 
ideas. Such programs also have the potential to attract more U.S. 
students to related fields. NNI-funded centers should be structured to 
spur partnering with industry, which enhances technology transfer. The 
NNI should seek means to assess more accurately nanotechnology-related 
innovation and commercialization of NNI research results. These efforts 
should be coordinated with those of the OECD to assess economic impact 
of nanotechnology internationally.

4. Environmental, health, and safety implications. The NNAP feels that 
the NNI has made considerable progress since its last review in the 
level and coordination of EHS research for nanomaterials. Such efforts 
should be continued and should be coordinated with those taking place 
in industry and with programs funded by other governments to avoid gaps 
and unnecessary duplication of work. Moreover, EHS research should be 
coordinated with, not segregated from, applications research to promote 
risk and benefit being considered together. This is particularly 
important when development and risk assessment research are taking 
place in parallel, as they are for nanotechnology today. The NNI should 
take steps to make widely available nonproprietary information about 
the properties of nanomaterials and methods for risk/benefit analysis.

5. Societal and ethical implications. Research on the societal and 
ethical aspects of nanotechnology should be integrated with technical 
R&D and take place in the context of broader societal and ethical 
scholarship. The NNAP feels that this approach will broaden the range 
of perspectives and increase exchange of views on topics that affect 
society at large.

6. Communication and outreach. The NNAP is concerned that public 
opinion is susceptible to hype and exaggerated statements--both 
positive and negative. The NNI should be a trusted source of 
information about nanotechnology that is accessible to a range of 
stakeholders, including the public. The NNI should expand outreach and 
communication activities by the NNCO and the Nanotechnology Public 
Engagement and Communications Working Group and by coordinating 
existing agency communication efforts. To enhance effectiveness, the 
information should be developed with broad input and through processes 
that incorporate two-way communication with the intended audiences.

    This review complements an assessment by the National Research 
Council (NRC) of the National Academies. The NNAP agrees with many of 
the NRC recommendations. However, the NNAP questions the recommendation 
for a formal, independent advisory panel. The panel feels that the 
current arrangement-whereby the NRC panels of technical experts, the 
high-level science and technology management leaders of PCAST, and the 
nanotechnology experts on the nTAG each provide distinct and useful 
input to the NNI review process--provides a broader perspective than 
would a single group consisting of a smaller number of advisors.

                     Biography for E. Floyd Kvamme
    E. Floyd Kvamme is a Partner Emeritus at Kleiner Perkins Caufield & 
Byers, a high-technology venture capital firm and, presently, serves on 
six high tech company boards including National Semiconductor, 
Harmonic, and Power Integrations. Since 2001, Kvamme has served as Co-
Chair of President Bush's Council of Advisors in Science and 
Technology, (PCAST). He helped found National in 1967, serving as 
general manager of Semiconductor Operations. In 1982, he became 
Executive Vice President of Sales and Marketing for Apple Computer. He 
holds a BSEE from the University of California, Berkeley, and an MSE in 
semiconductor electronics from Syracuse University.

    Chairman Gordon. Thank you. Mr. Murdock, you're recognized.

STATEMENT OF MR. SEAN MURDOCK, EXECUTIVE DIRECTOR, NANOBUSINESS 
                            ALLIANCE

    Mr. Murdock. Thank you, Chairman Gordon. Chairman Gordon, 
Ranking Member Hall, and Members of the House Committee on 
Science and Technology, I would like to thank you for the 
opportunity to testify on the National Nanotechnology 
Initiative Amendments Act of 2008.
    My name is Sean Murdock, and I am the Executive Director of 
the NanoBusiness Alliance. The NanoBusiness Alliance is the 
premier nanotechnology policy and commercialization advocacy 
group in the United States. Members span multiple stakeholder 
groups and traditional industrial sectors, including newly 
formed start-ups, Fortune 500 companies, academic research 
institutions, and public-private partnerships working to derive 
economic development and growth through nanotechnology.
    This wide group of stakeholders has come together because 
we believe that nanotechnology will be one of the key drivers 
of quality-of-life improvements, economic growth, and business 
success in the 21st century. The Alliance provides a collective 
voice and a vehicle for efforts to advance the benefits of 
nanotechnology across our economy and society.
    The NanoBusiness Alliance strongly supports the National 
Nanotechnology Initiative Amendments Act of 2008 as drafted.
    This committee has long recognized that nanotechnology is 
one of the most important frontiers of science and technology, 
and that nanotechnology has the potential to dramatically 
improve our quality of life, our health, our environment, and 
our economy. The National Nanotechnology Initiative, which this 
committee led Congress in authorizing in 2003, provided the 
framework for coordinated federal research and development. 
That authorization bill, the 21st Century Nanotech R&D Act, 
focused on fundamental nanotechnology research.
    Now, five years later, it is time to reauthorize and update 
this legislation. Much has changed in the past half-decade; 
nanotechnology is beginning to move from the laboratory to the 
store shelf.
    American nanotechnology companies are beginning to shift 
from prototype development to large-scale manufacturing. 
Employers are beginning to look for nanotechnology-qualified 
workers. And the public is beginning to take notice of 
nanotechnology, with its many benefits and some potential 
risks, which need to be examined and managed.
    That the landscape has changed so much in five years is in 
no small part due to the success of the National Nanotechnology 
Initiative itself. But its success at jump-starting the 
Nation's nanotechnology development means that the Initiative 
now needs to be updated to reflect five years of growth.
    We are pleased that the Committee has thought carefully 
about how best to bring the National Nanotechnology Initiative 
up to date. The draft legislation will improve the Initiative's 
capabilities in several key areas, including translational 
research and development for commercialization, nanotechnology 
education, and environmental, health, and safety research.
    As the Members of this committee know, America faces 
intense global competition in every field. But nowhere is this 
competition more intense than in the field of nanotechnology. 
Its economic development potential has led countries across 
Europe and Asia to make large and strategic investments in 
nanotechnology research and development. The stated goal of 
many of these countries is to dominate one or more sectors and 
change their geopolitical position. Russia has announced a $7 
billion nanotechnology initiative that will spend nearly $750 
million more on nanotechnology research each year than the 
United States. China is investing, on a purchasing power parity 
basis, approximately $1 billion and growing rapidly.
    The United States continues to lead the world in 
fundamental nanotechnology research, but over the last five 
years we have seen our foreign competitors demonstrate that 
they are becoming equally capable of commercializing 
nanotechnology. We must reverse this trend. While we cannot and 
should not adopt our competitors' model of direct state 
investment in private companies, we can and should take steps 
to ensure that innovative American companies have unfettered 
access to American research and that they are able to 
commercialize that research efficiently and effectively. We 
should encourage programs such as the SBIR, the STTR program, 
and the Technology Innovation Program. We should focus our 
efforts on goal-oriented research in areas of national 
importance. And we should do everything we can to see that 
federal, state, and private resources are working together to 
bring these technologies to market.
    The draft legislation does this. It retools the National 
Nanotechnology Initiative to focus more on applied research 
while maintaining a commitment to fundamental research. It 
supports large-scale collaborative efforts to develop 
nanotechnology solutions to key public policy challenges such 
as energy efficiency, environmental cleanup, and health care. 
And it updates the Initiative to include databases and other 
information-sharing mechanisms that actually help companies and 
the public understand what resources and opportunities to 
engage in are available.
    The NanoBusiness Alliance is firmly committed to advancing 
nanotechnology education. We cannot expect to compete in the 
global economy if we are not generating nanotechnology-literate 
students who will go on to become leaders and workers in the 
nanotechnology economy of the future. We need to inspire 
American students to choose science tracks in high school and 
then provide them with hands-on nanotechnology opportunities in 
colleges and technical colleges.
    As it stands, we are educating foreign students and then 
sending them home to compete against us. According to the NSF, 
foreign students on temporary visas earned 32 percent of all 
science and engineering doctorates awarded in the United States 
in the last year for which data is available. Foreign students 
earned 55 percent of engineering doctorates. Many of these 
students will ultimately return home. We must develop more 
domestic scientific talent if we are to lead in nanotechnology 
commercialization over the long haul. We believe that 
inspiration and inquiry-driven learning are key to 
accomplishing that.
    The Alliance supports putting nanotechnology tools in the 
hands of students in community colleges and campuses so that 
they can see first-hand what nanotechnology is and why it is 
important. The Alliance also supports integrating local 
nanotechnology businesses into the program, and many of our 
members are already reaching out to schools to do that.
    In terms of environmental health and safety research, 
nanotechnology has tremendous potential benefits for the 
environment, health and safety. But as we develop 
nanotechnology applications, we must do so responsibly, 
identifying and addressing any risks or hazards associated with 
nanotechnology before it causes environmental, health, or 
safety problems. The Alliance has called for the National 
Nanotechnology Initiative to include a comprehensive, fully 
funded environmental, health, and safety research program, and 
this legislation does that.
    The NanoBusiness Alliance believes that the environmental, 
health, and safety research should be fully funded and based on 
a clear, carefully-constructed research strategy. While we 
believe that 10 percent of the total funding for nanotechnology 
research and development is a reasonable estimate of the 
resources that will be required to execute the plan, we also 
believe that actual resource levels should be driven by the 
strategic plan, as they will vary significantly across 
agencies.
    The Alliance appreciates the Committee's commitment to 
developing a broader understanding of nanotechnology before 
erecting an extensive new regulatory structure. We hope that 
Congress will see the wisdom of the Committee's approach and 
will use the research authorized by this bill as a basis for 
deciding what, if anything, is needed.
    I would like to thank the Committee once again for the 
opportunity to testify and its leadership on this issue. Thank 
you very much.
    [The prepared statement of Mr. Murdock follows:]

                   Prepared Statement of Sean Murdock

    Chairman Gordon, Ranking Member Hall, and Members of the House 
Committee on Science and Technology, I would like to thank you for the 
opportunity to testify on the National Nanotechnology Initiative 
Amendments Act of 2008.
    My name is Sean Murdock, and I am the Executive Director of the 
NanoBusiness Alliance. The NanoBusiness Alliance is the nanotechnology 
industry association and the premier nanotechnology policy and 
commercialization advocacy group in the United States.
    NanoBusiness Alliance members span multiple stakeholder groups and 
traditional industrial sectors, including newly formed start-ups, 
Fortune 500 companies, academic research institutions, and public-
private partnerships working to derive economic development and growth 
through nanotechnology.
    This wide group of stakeholders has come together because we 
believe that nanotechnology will be one of the key drivers of quality-
of-life improvements, economic growth and business success in the 21st 
century. The Alliance provides a collective voice and a vehicle for 
efforts to advance the benefits of nanotechnology across our economy 
and society.
    The NanoBusiness Alliance strongly supports the National 
Nanotechnology Initiative Amendments Act of 2008 as drafted.

The Need for This Legislation

    This committee has long recognized that nanotechnology is one of 
the most important frontiers of science and technology, and that 
nanotechnology has the potential to dramatically improve our quality of 
life, our health, our environment, and our economy. The National 
Nanotechnology Initiative, which this committee led Congress in 
authorizing in 2003, provided the framework for coordinated federal 
research and development. That authorization bill, the 21st Century 
Nanotechnology Research and Development Act, focused on fundamental 
nanotechnology research.
    Now, five years later, it is time to reauthorize and update this 
legislation. Much has changed in the past half-decade; nanotechnology 
is beginning to move from the laboratory to the store shelf. American 
nanotechnology companies are beginning to shift from prototype 
development to large-scale manufacturing. Employers are beginning to 
look for a nanotechnology-qualified workforce. And the public is 
beginning to notice nanotechnology, with its many benefits--and some 
potential risks, which need to be examined and managed.
    That the nanotechnology landscape has changed so much in five years 
is in no small part due to the success of the National Nanotechnology 
Initiative. But its success at jump-starting the Nation's 
nanotechnology economy means that the Initiative now needs to be 
updated to reflect five years of growth.
    We are pleased that the Committee has thought carefully about how 
best to bring the National Nanotechnology Initiative up to date. The 
draft legislation will improve the Initiative's capabilities in several 
key areas, including translational research and commercialization; 
nanotechnology education; and environmental, health, and safety 
research.

Translational Research and Commercialization

    As the Members of this committee know, America faces intense global 
competition in every field. But nowhere is this competition more 
intense than in the field of nanotechnology. Nanotechnology's economic 
potential has led countries across Europe and Asia to make large 
strategic investments in nanotechnology research and development. The 
stated goal of many of these countries is to dominate one or more 
sectors of the nanotechnology economy. Russia has announced a $7 
billion nanotechnology initiative that will spend nearly $750 million 
more on nanotechnology research each year than the United States will. 
China already is on par with the United States, when purchasing power 
is taken into account.
    The United States continues to lead the world in fundamental 
nanotechnology research, but over the last five years we have seen our 
foreign competitors demonstrate that they are becoming equally capable 
of commercializing nanotechnology. By leveraging our research, these 
foreign governments and foreign companies are skipping the hard work 
and reaping the economic benefits.
    We must reverse this trend. While we cannot and should not adopt 
our competitors' model of direct state investment in private companies, 
we can and should take steps to ensure that innovative American 
companies have unfettered access to American research, and that they 
are able to commercialize that research efficiently and effectively. We 
should encourage programs such as Small Business Innovation Research 
(SBIR), Small Business Technology Transfer (STTR), and the Technology 
Innovation Program (TIP). We should focus our efforts on goal-oriented 
research in areas of national importance. And we should do everything 
we can to see that federal, State, and private resources are working 
together toward the goal of bringing as much nanotechnology to market 
in the United States as possible.
    The draft legislation does all of this. It retools the National 
Nanotechnology Initiative to focus more on goal oriented research, 
while maintaining a commitment to fundamental research. It gives the 
SBIR, STTR, and TIP programs a leading role. It supports large-scale 
collaborative efforts to develop nanotechnology solutions to key public 
policy challenges such as energy efficiency, environmental cleanup, and 
health care. And it updates the Initiative to include databases and 
other information-sharing mechanisms to help companies and researchers 
understand what resources are available.

Nanotechnology Education

    The NanoBusiness Alliance is firmly committed to advancing 
nanotechnology education. We cannot expect to compete in the global 
economy if we are not generating nanotechnology-literate students who 
will go on to become leaders and workers in the nanotechnology economy. 
We need to inspire American students to choose science tracks in high 
school, and then provide them with hands-on nanotechnology 
opportunities in colleges and technical colleges.
    As it stands, we are educating foreign students, and then sending 
them home to compete against us. According to the NSF, foreign students 
on temporary visas earned 32 percent of all science and engineering 
doctorates awarded in the United States in 2003, the last year for 
which data is available. Foreign students earned 55 percent of 
engineering doctorates. Many of these students expressed an intent to 
return to their country of origin after completing their studies.
    The Alliance strongly supported the Nanotechnology in the Schools 
Act, and we are pleased to see that the current legislation reflects 
the goals of that bill. In particular, the Alliance supports putting 
nanotechnology tools in the hands of students, so that they can see 
first-hand what nanotechnology is and why it is important (and 
exciting). The Alliance also supports integrating local nanotechnology 
businesses into the program; many of our members are already reaching 
out to schools in their areas to help introduce students to 
nanotechnology.

Environmental, Health, and Safety Research

    Nanotechnology has tremendous potential benefits for the 
environment, health, and safety (EHS). But as we develop nanotechnology 
applications, we must do so responsibly--identifying and addressing any 
risks or hazards associated with nanotechnology before they cause 
environmental, health, or safety problems. The Alliance has called for 
the National Nanotechnology Initiative to include a comprehensive, 
fully funded environmental, health, and safety research program, and 
this legislation does just that. We strongly support this EHS research.
    Americans need to know that the products they use are safe, or else 
they will not purchase or use them and the market for those products 
will collapse. The way to reassure consumers is not by ignoring any 
problems but by finding and dealing with any problems that may exist. A 
clear understanding of the environmental, health, and safety impacts of 
various kinds of nanoparticles is necessary, and that understanding 
must expand as new nanoparticles are developed.
    The NanoBusiness Alliance believes that environmental, health, and 
safety research should be fully funded and based on a clear, carefully-
constructed research strategy. While we believe that 10 percent of the 
total funding for nanotechnology research and development is a 
reasonable estimate of the resources that will be required to execute 
the strategic plan, we also believe that actual resource levels should 
be driven by the strategic plan as they will vary significantly across 
agencies.
    The Alliance appreciates the Committee's commitment to developing a 
broader understanding of nanotechnology before erecting an extensive 
new regulatory structure. We hope that Congress will see the wisdom of 
the Committee's approach, and will use the research authorized by this 
bill as a basis for the decision of what, if any, new regulation is 
needed.

Conclusion

    I would like to thank the Committee once again for the invitation 
to testify today, and for its leadership in working to ensure that 
America maintains its nanotechnology preeminence in the midst of 
intense global competition. The NanoBusiness Alliance commends this 
committee and its staff for the careful research and extensive 
collaboration that have led to this proposed legislation. We strongly 
support the National Nanotechnology Initiative Amendments Act of 2008 
as drafted.

                       Biography for Sean Murdock

    Sean Murdock is the Executive Director of the NanoBusiness 
Alliance, the nanotechnology industry association and the premier 
nanotechnology policy and commercialization advocacy group in the 
United States.
    Prior to becoming the Executive Director of the NanoBusiness 
Alliance, Sean was the Executive Director and a founding board member 
of AtomWorks, an initiative formed to foster nanotechnology in Illinois 
and more broadly throughout the Midwest.
    Sean has established himself as a leading thinker in the areas of 
nanotechnology commercialization and economic development. He has 
delivered keynote speeches on the commercialization of nanotechnology 
at nanotechnology conferences throughout the world. Sean has been 
quoted extensively on the subject in many leading publications 
including Fortune, The Economist, and the New York Times. He has also 
appeared on CNBC to discuss nanotechnology trends.
    Sean has been very active in nanotechnology trade and economic 
development issues. He helped to organize and execute the first 
Nanotechnology Trade Mission to Europe in conjunction with the 
NanoBusiness Alliance and the U.S. Department of Commerce. He has also 
been engaged with senior officials of the U.S. Department of Commerce's 
Technology Administration on the potential impact of export control 
issues on nanotechnology development and commercialization.
    Sean had more than seven years experience in management consulting, 
most recently as Engagement Manager at McKinsey & Company. Sean served 
a variety of Fortune 500 companies, focusing primarily upon the 
industrial and chemicals sectors. While there, he developed some of the 
firm's early perspective on the business opportunities created by the 
nanotech revolution, publishing the first two internal documents on the 
subject.
    Sean received his Master's in Business Administration and Master's 
in Engineering Management from Northwestern University. He holds a BA 
in Economics from the University of Notre Dame.

    Chairman Gordon. Thank you. Dr. Krajcik, you are 
recognized.

   STATEMENT OF DR. JOSEPH S. KRAJCIK, PROFESSOR OF SCIENCE 
 EDUCATION; ASSOCIATE DEAN OF RESEARCH, UNIVERSITY OF MICHIGAN

    Dr. Krajcik. Chairman Gordon, Mr. Ehlers, and Members of 
the Committee, I am honored to present testimony on the 
National Nanotechnology Initiative Amendments Act of 2008. My 
name is Joe Krajcik, and I have been involved in science 
education for the last 34 years, first as a high school science 
teacher and now as professor of science education at the 
University of Michigan. I am currently co-PI in a National 
Science Foundation Center for Teaching and Learning in 
Nanoscale Science and Engineering; and because of this, I will 
speak primarily about the educational components of the Act.
    Let me begin by stating that we live in a very exciting 
time with respect to advances in science and technology. We 
also live in a very exciting time with respect to education 
because we now know more about how people learn than ever 
before. The advances of nanoscale science and the global 
economy in which we live challenge the educational community to 
help all children develop deeper and more useful understanding 
of core science ideas that underlie nanoscience. Unfortunately, 
despite what we know about learning, the current education 
system is failing to produce a populace scientifically literate 
enough to understand the advances of nanoscience and to prepare 
a workforce for the new jobs and professions that are emerging 
from this field. Children in our country continue to lag behind 
in science and mathematics on international assessments. 
Perhaps most unfortunately, the most under-served children are 
in locations where typically children do not succeed in 
science: our nation's larger urban cities and rural areas.
    As a nation, as we become more diverse, the challenge of 
how to provide quality science instruction is amplified. Our 
children will grow up in a world where they will need to apply 
and communicate scientific ideas, make sound decisions based 
upon this understanding, and collaborate with other people to 
solve important problems.
    The Nanotechnology Research and Development Act provides 
important support to improve the education of children in this 
country. Although this is an important first step, I question 
whether this Act will provide sufficient resources to make a 
difference for all children. The advances in nanoscience 
requires a commensurate response from the educational 
community. As such, the financial resources needed to make this 
response possible must be provided by the national government 
with the private sector sharing in this responsibility.
    To provide world-class science education so that all 
children learn ideas about nanoscience, our country needs to 
invest in several important initiatives. First, we need to 
invest in sustained professional development to support sixth 
through 12th grade teachers in learning content in the 
interdisciplinary way of thinking that is pervasive in 
nanoscience. Many teachers studied science when nanoscience 
ideas and the phenomena they explained had not emerged. Without 
providing teachers the opportunity to learn new content in this 
interdisciplinary way of thinking, they will not be able to 
instruct our children in these emerging science areas.
    Sustained professional development is also needed to help 
teachers learn new pedagogical strategies and teaching 
techniques. We have learned much in the last 10 years about how 
to promote science learning. But unfortunately, many of these 
practices are not seen in science classrooms.
    Second, our country needs to develop new standards and 
assessments that focus on the core ideas of science including 
those central to nanoscience. Although the National Science 
Education Standards moved this country forward in promoting 
standard-based reform, the standards are now at a stage for 
renovation, as they do not include ideas related to nanoscience 
and still cover too many ideas that prevent learners from 
developing useful understanding.
    We also need to provide incentives to align all states in 
this country with this new shared vision of science teaching 
and learning.
    Third, this country needs to develop new instructional 
resources including new learning technologies. Most instruction 
materials used in classrooms today do not include emerging 
science ideas and do not include the latest ideas about how 
children learn.
    Fourth, we need to ensure that 6th through 12th grade 
science classrooms have appropriate equipment and facilities to 
allow all students to experience and explore doing science. 
When not feasible, partnerships with private sectors and 
universities need to provide this equipment.
    Fifth, we need to redesign undergraduate education, 
including science teacher preparation programs, so that new 
ideas in science and learning and the interdisciplinary manner 
of thinking that nanoscience incorporates are included. It is 
only through revamping undergraduate education, including 
teacher preparation, that we will make lasting changes in 
science education. We need teachers who understand emerging 
ideas in science and the new ideas in teaching and learning. As 
such, we need to provide incentives to attract the very best 
science majors to teaching careers.
    Finally, we need to build partnerships with the private 
sector in sharing in the cost of this effort.
    In summary, to ensure all children in this country have 
access to world-class science education that will help them 
understand nanoscience and prepare them for fruitful lives in 
the future economy, we need to provide sustained professional 
development, renovate science education standards, develop and 
test new instructional materials, provide for appropriate 
equipment and resources, and redesign undergraduate education 
and build partnerships with the private sector.
    Thank you for the opportunity to express my professional 
view.
    [The prepared statement of Dr. Krajcik follows:]

                Prepared Statement of Joseph S. Krajcik

Dear Chairperson and Members of the Committee,

    I am honored to present testimony on the ``National Nanotechnology 
Initiative Amendments Act of 2008.'' My name is Joe Krajcik, and I have 
been involved in science education for the last 34 years, first as a 
high school science teacher and now as a Professor of Science 
Education. As a Professor of Science Education, I have focused my work 
on improving the teaching and learning of science at the middle and 
high school levels. I am co-PI on an NSF-funded center, the National 
Center for Teaching and Learning in Nanoscale Science and Engineering, 
whose primary goal is to enhance the teaching and learning of 
nanoscience in grades 7-16 through learning research.
    Let me begin by stating that we live in an exciting time with 
respect to the advances in science and technology, and that we know 
more about how people learn than ever before. Rapid advances in 
nanoscience have provided us with new products that have enhanced the 
quality of our lives ranging from diagnosing disease to improving the 
clothes we wear. At the same time, these new advances have also raised 
potential new dangers, because we have now created products that can 
penetrate the protective layer of skin that covers our bodies.
    Nanoscale science and engineering are at the core of these changes 
and advancements. These new advances in nanoscience also have the 
potential to make the teaching of science more exciting and to build 
student engagement. Unfortunately, this promise has not been realized 
in most of our 7-12th grade science classrooms. These breakthroughs in 
science have brought new challenges to science teaching and learning. 
The advances of nanoscale science and the global economy in which we 
live challenge the educational community to help students develop 
deeper and more useful understanding of core science ideas that 
underlie nanoscience. Unfortunately, the current education system is 
failing to produce a populace scientifically literate enough to 
understand the scientific advances of nanoscience. It is also failing 
to prepare a workforce for the new jobs and professions that are 
emerging from nanoscience. Children in our country continue to lag 
behind in science and mathematics on international assessments; yet 
understanding science and mathematics is critical both for informed 
citizenship and for global competitiveness. To remedy these problems 
our country needs to invest in 1) professional development to support 
6-12 science teachers in learning content related to nanoscience and 
new pedagogical ideas that are supported by learning research; 2) 
develop new standards and assessment that focus on the core ideas in 
science, including those central to nanoscience; 3) develop new 
instructional resources, including new learning technologies, that 
focus on nanoscience; 4) redesign undergraduate education, including 
science teacher preparation programs, so that new ideas in science and 
learning are incorporated into them; and 5) incentives to attract 
science majors and people who currently hold science majors into 
teaching careers.
    We are also living in an exciting time because of the breakthroughs 
in understanding how to promote learning in science in general. 
Learning scientists and science educators are making important 
discoveries about ways to support learners in various aspects of 
inquiry, including the use of evidence and the construction of 
scientific explanations (Bransford, J.D., Brown, A.L., & Cocking, R.R., 
1999; Duschl, Schweingruber, Shouse, 2007). The science standards on 
inquiry, described in the National Science Education Standards (1996) 
and the habits of mind articulated in Benchmarks for Science Literacy 
(American Association for the Advancement of Society, 1993), provide 
guidelines for how teachers should teach science. The science standards 
and benchmarks provide direction on the content ideas that children 
should know and the scientific practices they should be able to apply 
in order to be scientifically literate. New breakthroughs in 
technologies allow scientists and learners to explore the nanoworld and 
visualize data in new ways. Yet, even with these fascinating 
breakthroughs, many science classrooms in the United States still 
resemble classrooms of the early 1950s, with outdated equipment and 
pedagogical strategies that lack support for most learners. Perhaps 
most unfortunate, many of these classrooms are in locations where, 
typically, children do not succeed in science--our nation's large urban 
cities and rural areas. As our nation becomes even more diverse, with 
growing populations of Hispanics, African-Americans and other cultures, 
the challenge of how to provide quality science instruction is 
amplified. These children will grow up in a world where they will need 
to apply ideas, communicate ideas, make sound decisions based on 
evidence, and collaborate with others to solve important problems. Many 
of the new discoveries are in the area of nanoscience, and our children 
need to be prepared to enter this world. Yet most of our schools are 
not providing our students with the opportunities to develop the level 
of science understanding they will need to grasp emerging ideas of the 
nanoscale. Our science curriculum still concentrates on covering too 
much content without focusing enough on developing deep, meaningful 
understanding that learners will need to grasp these new areas or that 
they will need to make personal and professional decisions. Research 
has shown that students lack fundamental understanding of science in 
general and in particular the ideas that will help them understand 
nanoscience. What content should be taught? How should new ideas about 
nanoscience be introduced into 7-12 classrooms?
    Through the Nanotechnology Research and Development Act (15 U.S.C. 
7501(d) ), the National Nanotechnology Initiative Amendments Act of 
2008 provides for the establishment of Nanoscience Education 
Partnerships. This Act will help provide important support to improve 
the education of all children in this country with respect to 
nanoscience education. The Act calls for 1) professional development 
activities to support secondary school teachers to use curricular 
materials incorporating nanotechnology and to inform teachers about 
career possibilities in nanotechnology; 2) enrichment activities for 
students, and 3) the identification of appropriate nanotechnology 
educational materials and incorporation of nanotechnology into the 
curriculum of schools participating in a Partnership. Although 
important first steps, I question whether this Act through the 
formation of Partnerships will provide sufficient resources that will 
make a difference for all children throughout the country. The advance 
in nanoscience requires a commensurate response from the educational 
community to prepare our youth. As such, the financial resources needed 
to make this response must be provided by the national government with 
help from the private sector. In particular, we need to ensure that all 
children in our country have access to first-rate science education 
that will help them understand the ideas of nanoscience and other 
emerging ideas.
    The Nanotechnology Research and Development Act calls for providing 
support for professional development of teachers in nanotechnology. 
Yet, we need to make sure that this professional development is 
grounded in the science that teachers teach, focuses on teachers' 
practices and provides long-term, standards-based support (Garet, 
Porter, Desimone, Birman, & Yoon, 2001). The short-term professional 
development that most teacher experience will not provide enough or the 
type of support needed for most teachers to understand many of the new 
ideas and the changing ways of thinking about science at the nanoscale. 
The ideas of nanoscience were not in textbooks when many of our current 
teaching force attended college. As such, professional development will 
be needed that focuses on helping teachers understand the new ideas of 
nanoscience. Moreover, sustained professional development must provide 
science teachers support to use pedagogical strategies and techniques 
that will help students understand ideas behind nanoscience. One 
critical area that professional development needs to focus on is how to 
help teachers support students to generate, use, and evaluate evidence 
to create scientific explanations (Duschl, Schweingruber, Shouse, 
2007). Another critical area includes support in using new learning 
technologies to engage students in visualizing the nanoworld; there are 
some good resources (see the Concord Consortium Web site, Concord.org, 
and the NCLT web site, NCLT.US) available to teachers already. Use of 
these new resources and instructional strategies will require sustained 
professional development.
    Nanoscience is also an interdisciplinary field. Advances in science 
and technology are blurring the lines between the individual scientific 
disciplines. As science becomes more interdisciplinary, we can no 
longer rely on the traditional ways of teaching science as a set of 
well-understood, clearly depicted, stand-alone disciplines. However, 
how to teach in this fashion is not easy, particularly when teachers 
themselves did not experience education in this manner and pre-service 
programs preparing science teachers require science majors in specific 
science disciplines rather than providing interdisciplinary education. 
These present realities further the cycle of thinking within 
disciplines rather than between disciplines. We need to provide 
professional development and universities need to prepare teachers to 
teach in this interdisciplinary manner. Moreover, our nation needs to 
have learning research to support models of how to support teachers 
teaching in this manner.
    Once teachers develop the content knowledge and pedagogical skills 
to teach nanoscience, they still will still face challenges teaching 
these new ideas to children unless they have appropriate classroom 
materials and resources. Some good instructional materials are 
beginning to appear, but more development and research is necessary to 
understand how they promote student learning. Although some teachers 
can develop curriculum materials, teachers modify curriculum to their 
local needs. If teachers can start with coherent materials that are 
known to promote learning, there is a great chance that students will 
learn important ideas (Kesidou, & Roseman, 2002).
    Although the national science education standards in this country 
helped to bring about a focus on standards-based reform and coherent 
educational materials and assessments, the standards are now outdated 
and need revamping. New standards that focus on the big ideas of 
nanoscience (Stevens, Sutherland, Shank, & Krajcik, 2008) and other 
knowledge essential for the 21st century need to be developed and 
adapted by schools. Important ideas in nanoscience are not currently 
incorporated in the national standards. Nanoscience education 
introduces students to emerging ideas of science and supports 
understanding of the interconnections between the traditional 
scientific domains by providing compelling, real-world 
interdisciplinary examples of science in action. However, standards-
based teaching with an interdisciplinary focus will also require 
extensive and sustained professional development.
    The national science education standards also need renovation 
because there are too many standards. We know from successes in other 
countries and from research studies that attempting to cover too many 
ideas leads students to develop superficial knowledge that they cannot 
use to solve problems, make decisions, and understand phenomena. Hence, 
our national science education standards need reworking, updating and 
consolidating.
    Renovating the standards is critical because assessments are driven 
by standards. If we develop standards that include the content 
understandings and scientific practices that we cherish for our 
children to develop, then more appropriate assessments will follow. Our 
current testing practices, however, put stress on classroom teachers, 
particularly when the testing practices do not align with important 
learning goals. Assessment, particularly assessment that challenges 
learners to use ideas and inform their development, is a good thing. We 
know that learners need to experience science in engaging contexts and 
apply ideas in order to learn; yet with so many standards, teachers 
feel as if they must cover topics in fear that students will not 
succeed on high stakes examinations rather than focus on helping 
students develop understanding. The national standards have allowed us 
to make headway in improving science instruction, but they still focus 
on too many content ideas and do not emphasis emerging ideas. Rather 
than focusing on covering too many ideas, our nation needs a long-term 
developmental approach to learning science that focuses on the ideas we 
most care about and takes into consideration learners' prior knowledge 
and how ideas build upon each other. The Act needs to include 
provisions that take into account this development and research work to 
develop new standards that can drive development of appropriate 
assessments, and new instructional materials and resources.
    As our country now exists, each state has different standards, in 
addition to the national standards. This is not a workable system. We 
need to make certain that states buy into any new national standards 
and assessments by providing appropriate incentives. We need to find 
ways to ensure that states align themselves with these renovated 
national standards.
    Learning nanoscience will not occur without appropriate resources 
for teaching these new ideas. The resources also need to include new 
laboratory equipment and technology equipment to teach nanoscience. 
Although the Nanotechnology Research and Development Act provides funds 
for course, curriculum and laboratory improvement for undergraduate 
education, the Act does not call for updating secondary science 
laboratories. The Act needs to provide support for improving secondary 
school science laboratory equipment. In order to learn science, 
students need to have essential firsthand experiences when possible and 
secondhand experiences to understand the complex ideas underlying 
nanoscience. Nanoscience cannot be taught and students will not develop 
understanding of the ideas underlying nanoscience without first- and 
secondhand experiences. Students need to experience and do science if 
they are going to learn with understanding. However, most U.S. high 
schools and middle school are ill-equipped for students to have these 
experiences. Budget cuts have caused schools to stop purchasing 
consumable science supplies and new materials, preventing students from 
experiencing phenomena. New laboratory equipment needs to allow 
learners to take part in inquiry experiences that will allow learners 
to put ideas together so that they can solve problems, make decisions, 
use and evaluate evidence, and explain phenomena.
    The Nanotechnology Research and Development Act includes funds to 
revamp undergraduate education. Because of new content and the 
interdisciplinary nature of nanoscience, a revamping of how science is 
taught at the undergraduate level needs to occur. Lasting change, 
however, will only occur in K-12 education if support is provided to 
revamp how we prepare new teachers to teach emerging sciences such as 
nanoscience. We need to provide incentives to attract college students 
who have a deep understanding of the science into the teaching 
profession by providing new models of how they can enter certification 
programs. A major recommendation of the Glenn Report is that we need to 
find ways to attract science and mathematics undergraduates into the 
field of teaching and provide viable ways for them to learn how to 
teach and obtain certification. Preparing science teachers to teach in 
schools so that they can help all learners develop the level of 
understanding of science they need requires the revamping of 
undergraduate science and mathematics courses so that they reflect more 
what it is like to do science and mathematics as well as new models of 
how to prepare teachers. The Act needs to provide funds for both of 
these critical efforts. We will not change K-12 schools in the long run 
unless we change undergraduate teacher education programs that better 
prepare teachers how to teach.
    To summarize, schools face pressing challenges with respect to 
resources, assessment and professional development. Many teachers did 
not experience science in which ideas built upon each other in a 
developmental approach, where evidence was used to support claims and 
where science ideas were used to explain important problems and 
phenomena; as such, we need models of professional development and the 
resources that can support teachers as life long learners to learn new 
pedagogical strategies and new assessment practices. New ideas that 
emerge in science, such as nanoscience, also present challenges for 
teachers with respect to integration into curriculum.
    For our children to live fruitful and fulfilled lives in an ever-
globalizing world, our nation needs a system of science education that 
can prepare a scientifically literate population and a competent 
scientific workforce that has a useful understanding of the big ideas 
of science, including those of nanoscience. We are at a moment in 
history in which we, as a nation, need to provide learners with the 
scientific experiences, skills, and habits of mind that will allow them 
to make important decisions regarding the environment, their health, 
and our social policies. We have a growing body of knowledge that can 
help bring about this reform to science education.
    We are at a crossroads in science education. We can continue to 
push and build upon the knowledge, resources and models of exemplary 
teachers who know how to engage students deeply to reform science 
education, or we can retreat to old pedagogical strategies that don't 
work. We need to build upon the strengths we have as a nation and 
resist yielding to testing pressures that focus on unimportant ideas 
and pedagogical strategies that we know do not work. Yet, we will only 
do so with leadership and support from our national government. We need 
funding to provide for and study the impacts of sustained professional 
development and the development of new science standards that take into 
consideration what we know about how children learn. We also need 
support to design curriculum resources and assessments that align with 
the new standards and to study the impact of these high quality 
resources on student learning. Finally we need support for the 
revamping of undergraduate education and developing new models of 
preparing teachers to teach. The National Nanotechnology Initiative 
Amendments Act of 2008 provides some support for these important 
initiatives, but to provide the education that all children, regardless 
of their backgrounds and culture, need to live in a technology-driven 
world will require more support for improving teaching and learning.
    I would like to thank you for the opportunity to present testimony 
to the House Committee on Science and Technology. I hope that you have 
found some of my remarks valuable.

References:

American Association for the Advancement of Society. (1993). Benchmarks 
        for Science Literacy. New York: Oxford Press.

Before It's Too Late: A Report to the Nation from the National 
        Commission on Mathematics and Science Teaching for the 21st 
        Century, 2000, www.ed.gov/inits/Math/glenn/report.pdf.

Bransford, J.D., Brown, A.L., & Cocking, R.R. (Eds.). (1999). How 
        People Learn: Brain, Mind, Experience and School. Washington, 
        D.C.: National Academy Press.

Duschl, R.A., Schweingruber, H.A., Shouse, A. (2007). Taking Science to 
        School: Learning and Teaching Science in Grades K-8. 
        Washington, D.C.: National Academies Press.

Garet, M.S., Porter, A.C., Desimone, L., Birman, B.F., & Yoon, K.S. 
        (2001). What makes professional development effective? Results 
        from a national sample of teachers. American Educational 
        Research Journal, 38(4), 915-945.

Kesidou, S., & Roseman, J.E. (2002). How well do middle school science 
        programs measure up? Findings from project 2061's curriculum 
        review. Journal of Research in Science Teaching, 39(6), 522-
        549. National Research Council. (1996).

National Science Education Standards. Washington, D.C.: National 
        Academy Press.

Stevens, S. Sutherland, L., Shank, P., Krajcik, J. (2008). Big Ideas in 
        Nanoscience. http://www.hice.org/projects/nano/index.html

                    Biography for Joseph S. Krajcik
    Joseph S. Krajcik, a Professor of Science Education and Associate 
Dean for Research in the School of Education at the University of 
Michigan, works with teachers in science classrooms to bring about 
sustained change by creating classroom environments in which students 
find solutions to important intellectual questions that subsume 
essential learning goals and use learning technologies as productivity 
tools. He seeks to discover the depth of student learning in such 
environments, as well as to explore and find solutions to challenges 
that teachers face in enacting such complex instruction. In 
collaboration with colleagues from Northwestern University, American 
Association of Science, and Michigan State, Joe, through funding from 
the NSF, is a principle investigator in a materials development project 
that aims to design, develop and test the next generation of middle 
school curriculum materials to engage students in obtaining deep 
understandings of science content and practices. Professor Krajcik has 
authored and co-authored over 100 manuscripts and makes frequent 
presentations at international, national and regional conferences that 
focus on his research as well as presentations that translate research 
findings into classroom practice. He is a fellow of the American 
Association for the Advancement of Science and served as President of 
the National Association for Research in Science Teaching in 1999. Joe 
co-directs the Center for Highly Interactive Classrooms, Curriculum and 
Computing in Education (hi-ce) at the University of Michigan and is a 
co-principle investigator in the Center for Curriculum Materials in 
Science and The National Center for Learning and Teaching Nanoscale 
Science and Engineering. In 2002, Professor Krajcik was honored to 
receive a Guest Professorship from Beijing Normal University in 
Beijing, China. In Winter 2005, Joe was the Weston Visiting Professor 
of Science Education at the Weizmann Institute of Science in Rehovot, 
Israel. Before obtaining his Ph.D. in Science Education, Joe taught 
high school chemistry for seven years in Milwaukee, Wisconsin. He 
received a Ph.D. in Science Education from the University of Iowa in 
1986. His home page is located at: http://www.umich.edu/krajcik. His 
project web sites include: http://hice.org and http://hice.org/IQWST.

Current Projects:

Longitudinal Student Outcomes in a Scaling Urban Inquiry-Based Science 
        Intervention (Co-PI with Phyllis Blumenfeld). Spencer 
        Foundation, $351,900, 7/1/2006 to 6/30/2008.

A Learning Progression for Scientific Modeling, PI, Brian J. Reiser, 
        Co-PIs: Joseph S. Krajcik, Elizabeth Davis, Christina Schwarz, 
        David Fortus. National Science Foundation, ESI-06281099, 
        $1,738,829, October 1, 2006 to September 30, 2008.

Education for Community Genomic Awareness, from the National Institutes 
        of Health (Co-PI with Toby Citrin from Public Health, #1 R25 
        RR022703-01, $1,341,329).

National Center for Teaching and Learning in Nanoscale Science and 
        Engineering. National Science Foundation Center for Teaching 
        and Learning (ESI-0426328), Co-PI (Robert Chang from 
        Northwestern University, PI).

Collaborative Research: Developing the Next Generation of Middle School 
        Science Materials--Investigating and Questioning our World 
        through Science and Technology. National Science Foundation. 
        Award Number--ESI-0439352. Krajcik, PI. Collaborative grant 
        with Northwestern (Brian Resier)--five years for $6,267,023.

    Chairman Gordon. Dr. Krajcik, I have some good news and bad 
news for you. The good news is that 99 percent of your 
recommendations were incorporated into a bill that we passed 
and the President signed last year called the America COMPETES 
Act. Amazingly, you recited the bill, basically. The bad news 
is that the tree doesn't fall if you don't hear it in that we 
have not been able to get the proper funding, or any funding 
really, for the bill yet. However, working with Dr. Ehlers, we 
are working in a bipartisan way to try to at least start that 
funding process. We have circulated a letter. Again, we have 
several Members on that. I see representatives from Texas 
Instruments here. They have been a part of bringing together I 
think 175 to 200 major industries and associations also 
recommending that the America COMPETES Act gets funded. So 
hopefully at least the good news there is we have the 
authorization, and we are working very hard to try to get the 
funding for your almost exact recommendation.
    Now, Dr. David, you and Dr. Ehlers, would you like to just 
say amen?
    Dr. Maynard, you are recognized.

  STATEMENT OF DR. ANDREW D. MAYNARD, CHIEF SCIENCE ADVISOR, 
     PROJECT ON EMERGING NANOTECHNOLOGIES, WOODROW WILSON 
               INTERNATIONAL CENTER FOR SCHOLARS

    Dr. Maynard. Thank you very much. I would like to thank 
you, Chairman Gordon, Mr. Ehlers, and the Members of this 
committee for holding today's hearing. My name is Dr. Andrew 
Maynard. I am the Chief Science Advisor to the Project on 
Emerging Nanotechnologies which is a partnership between the 
Woodrow Wilson International Center for Scholars and the Pew 
Charitable Trusts. But of course, the views I express here are 
my own.
    Nanotechnology is counter-intuitive. It involves a world 
where materials just don't play by the rules as we know them 
but demonstrate many strange and wonderful behaviors. Metals 
change color, inert materials become highly reactive, what was 
once weak becomes strong. For instance, if you take a material 
like this, this is nanoscale titanium dioxide, it looks like a 
mundane, white powder. But this material's superfine structure 
which is invisible to the naked eye allows this particular 
material to be used to kill microbes, make self-cleaning 
windows, and ensure that mineral-based sunscreens go onto the 
skin transparently.
    Because nanotechnology is counter-intuitive, safe 
nanotechnolo-gies will not just happen. We will need leadership 
and guidance to help overcome our human scale perspective and 
ensure the rule book for safe nanotechnology is built on sound 
science.
    In this context, I want to highlight five areas I believe 
are essential to underpinning the development of safe and 
therefore successful nanotechnologies.
    First and foremost, I believe we need a top-level research 
strategy that identifies the goals of nanotechnology research 
across the Federal Government and provides a roadmap for 
achieving these goals.
    Secondly, I strongly believe a minimum of 10 percent of the 
Federal Government's nanotechnology R&D budget should be 
dedicated to goal-oriented environmental, health, and safety 
research. Any less than this will risk compromising the success 
of emerging nanotechnologies.
    Thirdly, a coordinator should be appointed with 
responsibility for overseeing and implementing a nanotechnology 
environmental, health, and safety research strategy across the 
government.
    Fourthly, public-private partnerships are needed that 
leverage government and industry funds to address critical 
nanotechnology oversight issues in an independent, transparent, 
and timely manner.
    And finally, government actions to support the development 
of safe nanotechnologies must be transparent. Without 
transparency, there is no clear foundation for enabling 
strategic planning or engendering trust within industry or the 
public.
    I think it is fair to say that transparency has been an 
issue for safety research so far within the NNI. Recently the 
National Nanotechnology Initiative announced that $68 million 
was spent on nanotech risk-related research in Fiscal Year 
2006. But as has happened many times now, no clear supporting 
data were given for this figure.
    Sifting through the research claiming to be relevant to 
nanotechnology safety, I could only find $13 million that was 
invested in research that is highly relevant to addressing the 
health and environmental impacts of nanotechnology for 2006. 
The same analysis, and this is somewhat interesting, for 
research in Europe over the same period reveals an investment 
of $24 million in nanotech safety research over the same 
period.
    Unlike the NNI, the information that this analysis is based 
on is freely available on the web for anyone to see and anyone 
to verify. The bottom line here is that without supporting 
evidence, any assessment of what the government is doing to 
address nanotechnology impacts is quite simply not worth the 
paper it is written on.
    Nanotechnology will not succeed through wishful thinking. 
Instead, it will depend on clear and authoritative leadership 
from the top. The proposed National Nanotechnology Initiative 
Amendments Act of 2008 addresses each of the areas I have just 
highlighted and in my personal opinion supports the leadership 
necessary for the successful development of safe 
nanotechnologies.
    I personally commend the Committee for promoting 
transparency through a public database of research. This will 
complement the International Public Database on Environmental, 
Health and Safety Research to be launched by the Organization 
for Economic Cooperation and Development in June of this year.
    I also believe the proposed Act takes an important step in 
assigning to a single coordinator the responsibility for 
ensuring that an adequately funded and leveraged top-down 
strategic plan for nanotechnology EHS research is developed and 
implemented.
    When I look back on the origins of the NNI, I am impressed 
by the foresight and quality of leadership exerted by the 
Congressional visionaries on both sides of the aisle, together 
with the President and the Executive Branch, scientists and 
engineers, business people, and educators. But perhaps because 
the tremendous success achieved in the laboratory since its 
creation, we do risk losing sight of the challenges involved in 
taking the NNI to the next level of research, education, 
governance, and commercialization. It is my belief that with 
the proposed Act and with a continued vigilance of this 
committee, this will not happen. Thank you.
    [The prepared statement of Dr. Maynard follows:]
                Prepared Statement of Andrew D. Maynard

Executive Summary

    Nanotechnology has vast potential to address some of the greatest 
challenges facing society, including global climate change, poverty and 
disease. And with this potential comes the possibility of stimulating 
sustainable economic growth and job creation. The success of 
nanotechnology however is not a foregone conclusion. Alongside the 
challenges of developing the underlying science are broader issues that 
will influence its success or failure:

        -  How can we learn to use such a powerful technology wisely?

        -  Who will decide how it is used, and who will pay the cost?

        <bullet>  How can innovative science be translated into 
        successful products?

        -  And in an increasingly crowded and connected world, how will 
        the supposed- beneficiaries of nanotechnology be engaged in its 
        development and use?

    These questions will not be answered without a clear strategy. And 
without vision and strong leadership, the future of safe and successful 
nanotechnologies will be put in jeopardy.
    This committee should be applauded for having the foresight to 
author the 21st Century Nanotechnology Research and Development Act--an 
Act that has enabled the United States to lead the world in developing 
research programs to unlock the potential of the nanoscale. Yet as 
nanotechnology has increasingly moved from the laboratory to the 
marketplace, the challenges have shifted from stimulating innovative 
research to using this research in the service of society. This is why 
it is so important that the National Nanotechnology Initiative 
Amendment Act of 2008 builds on the strengths of the 2003 Act, and 
establishes a framework that will support nanotechnologies that can 
deliver on their promise. In particular, it is vital that the 
reauthorization addresses the potential for nanotechnologies to cause 
harm--and how this might be avoided.
    Real and perceived risks that are poorly identified, assessed and 
managed will undermine even the most promising new technologies, and 
nanotechnology is no exception. In this context, the 2008 Act needs to 
explicitly address five areas if it is to establish a sound framework 
for enabling safe, sustainable and successful nanotechnologies:

        1.  Risk Research Strategy. A top-level strategic framework 
        should be developed that identifies the goals of nanotechnology 
        risk research across the Federal Government, and provides a 
        roadmap for achieving these goals. The strategy should identify 
        information needed to regulate and otherwise oversee the safe 
        development and use of nanotechnologies; which agencies will 
        take a lead in addressing specific research challenges; when 
        critical information is needed; and how the research will be 
        funded. This top-level, top-down strategy should reflect 
        evolving oversight challenges. It should be informed by 
        stakeholders from industry, academia and citizen communities. 
        It should include measurable goals, and be reviewed every two 
        years.

        2.  Funding for environmental safety and health research. A 
        minimum of 10 percent of the Federal Government's 
        nanotechnology research and development budget should be 
        dedicated to goal-oriented environment, health and safety (EHS) 
        research. At least $50 million per year should be directed 
        towards targeted research directly addressing clearly-defined 
        strategic challenges. The balance of funding should support 
        exploratory research that is conducted within the scope of a 
        strategic research program. Funding should be assessed 
        according to a top-level, top-down risk research strategy, and 
        be overseen by cross-agency leadership.

        3.  Leadership for risk research. A cross-agency group should 
        be established that is responsible for implementing a 
        nanotechnology EHS research strategy, and is accountable for 
        actions taken and progress made. A coordinator should be 
        appointed to oversee this group, as well as given resources and 
        authority to enable funding allocations and interagency 
        partnerships that will support the implementation of a 
        strategic research plan.

        4.  Transparency. Government-funded nanotechnology environment 
        safety and health research investment should be fully 
        transparent, providing stakeholders with information on project 
        activities, relevance, funding and outcomes.

        5.  Public-Private Partnerships. Partnerships that leverage 
        public and private funds to address critical nanotechnology 
        oversight issues in an independent, transparent and timely 
        manner should be established, where such partnerships have the 
        capacity to overcome the limitations of separate government and 
        industry initiatives.

    Nanotechnology is a truly revolutionary and transformative 
technology, and we cannot rely on past ways of doing things to succeed 
in the future. Without strong leadership from the top, we run the risk 
of compromising the whole enterprise--not only losing America's 
technological lead, but also jeopardizing the good that could come out 
of nanotechnology for other countries and the world.
    Already, the hubris surrounding nanotechnology research and 
development (R&D) funding is giving way to a sobering reality: Based on 
the federal National Nanotechnology Initiative (NNI)-identified risk-
relevant projects, in 2006, the Federal Government spent an estimated 
$13 million on highly relevant nanotechnology risk research 
(approximately one percent of the nano R&D budget), compared to $24 
million in Europe,\1\ despite assurances from the NNI that five times 
this amount was spent on risk related research in Fiscal Year 2006.\2\
---------------------------------------------------------------------------
    \1\ These figures are based on an assessment of published U.S. and 
European risk-related research projects, and their relevance to 
addressing potential risks. See Annex A and Annex B for further 
information. Full access to the information used in the assessment is 
available at www.nanotechproject.org/inventories/ehs/ (accessed 4/15/
08).
    \2\ NNI (2008). Strategy for nanotechnology-related environmental, 
health and safety research, National Nanotechnology Initiative, 
Washington DC.
---------------------------------------------------------------------------
    Nanotechnology will not succeed through wishful thinking alone. 
Instead, it will depend on clear and authoritative leadership from the 
top. If we are to fully realize the benefits of this innovative new 
technology, we must bridge the gap between our dreams and reality.
    When I look back on the origins of the NNI, I am impressed by the 
foresight and quality of leadership exerted by Congressional 
visionaries from both sides of the aisle, the President and Executive 
Branch, scientists and engineers, business people, and educators.\3\ 
Perhaps because of the tremendous successes achieved in the laboratory 
since its creation, we risk losing sight of the importance of meeting 
the challenges involved in taking the NNI to the next level of 
research, education, governance and commercialization. It is my belief 
that with the proposed Act--and with the continued vigilance of this 
committee--this will not happen.
---------------------------------------------------------------------------
    \3\ Lane, Neal and Kalil, Thomas, ``The National Nanotechnology 
Initiative: Present at the Creation,'' Issues in Science and 
Technology, Summer 2005.

Introduction

    I would like to thank Chairman Bart Gordon, Ranking Republican 
Ralph Hall, and the Members of the House Committee on Science and 
Technology for holding this hearing on the National Nanotechnology 
Initiative Amendments Act of 2008.
    My name is Dr. Andrew Maynard. I am Chief Science Advisor to the 
Project on Emerging Nanotechnologies (PEN) at the Woodrow Wilson 
International Center for Scholars. Through my research and other 
activities over the past 15 years, I have taken a lead in addressing 
how nanotechnologies might impact human health and the environment, and 
how we might realize the benefits of these exciting new technologies 
without leaving a legacy of harm. I was responsible for stimulating 
government research programs into the occupational health impact of 
nanomaterials in Britain towards the end of the 1990's. I spent five 
years developing and coordinating research programs at the Centers for 
Disease Control and Prevention's (CDC) National Institute for 
Occupational Safety and Health (NIOSH) that address the safety of 
nanotechnologies in the workplace. While at NIOSH, I represented the 
agency on the Nanoscale Science, Engineering and Technology (NSET) 
Subcommittee of the National Science and Technology Council (NSTC), and 
was Co-Chair of the Nanotechnology Environmental and Health 
Implications (NEHI) Working Group from its inception.
    In my current role as Chief Science Advisor to PEN, I work closely 
with government, industry and other groups to find science-based 
solutions to the challenges of developing nanotechnologies safely and 
effectively. PEN is an initiative launched by the Woodrow Wilson 
International Center for Scholars and The Pew Charitable Trusts in 
2005.\4\ It is dedicated to helping business, government and the public 
anticipate and manage the possible health and environmental 
implications of nanotechnology. As part of the Wilson Center, PEN is a 
non-partisan, non-advocacy policy organization that works with 
researchers, government, industry, non-governmental organizations 
(NGOs), and others to find the best possible solutions to developing 
responsible, beneficial and acceptable nanotechnologies.
---------------------------------------------------------------------------
    \4\ For further information see www.nanotechproject.org. Accessed 
April 4, 2008.
---------------------------------------------------------------------------
    In this testimony, I will lay out essential components of an 
overarching framework to cultivate the growth and innovation of the 
emerging field of nanotechnology while providing safeguards for 
environmental, health and safety (EHS) and comment on the extent to 
which the current draft of the National Nanotechnology Initiative 
Amendments Act of 2008 addresses these components.
    The two aims of stimulating innovation and avoiding harm need not 
be, nor should be, mutually exclusive. A successful strategy of 
scientific and technological innovation, integrated with EHS research, 
will ensure that the promised benefits of such a technology are not 
thwarted by potential EHS disasters. With nanotechnology, we have the 
opportunity to do things differently. It is my belief that the proposed 
reauthorization of the National Nanotechnology Initiative (NNI) will 
redefine how emerging technologies are developed successfully and 
safely.

               Underpinning Sustainable Nanotechnologies

The promise of nanotechnology

    Nanotechnology has the potential to revolutionize the world as we 
know it. The increasing dexterity at the nanoscale provides 
opportunities to greatly enhance existing technologies and to develop 
innovative new technologies. When you couple this capability with the 
unusual and sometimes unique behavior of materials that are engineered 
at near-atomic scales, you have the basis for a transformative 
technology that has the potential to impact virtually every aspect of 
daily life. Some of these emerging technologies will benefit 
individuals, while others will help solve pressing societal challenges 
like climate change, access to clean water and cancer treatment. And 
many will provide companies with the competitive edge they need to 
succeed. In all cases, nanotechnology holds within it the potential to 
improve the quality of life and economic success of America and the 
world beyond.

Unconventional behavior

    The benefits of nanotechnology, however, will not be realized by 
default. Nanotechnology is taking our understanding of what makes 
something harmful and how we deal with that, and turning it upside 
down. New engineered nanomaterials are prized for their unconventional 
properties. But these same properties may also lead to new ways of 
causing harm to people and the environment.\5\ Research has already 
demonstrated that some engineered nanomaterials can reach places in the 
body and the environment that are usually inaccessible to conventional 
materials, raising the possibility of unanticipated harm arising from 
unexpected exposures. And studies have shown that the toxicity of 
engineered nanomaterials is not always predictable from conventional 
knowledge.\6\ For instance, we now know that nanometer sized particles 
can move along nerve cells; that the high fraction of atoms on the 
surface of nanomaterials can influence their toxicity; and that 
nanometer-diameter particles can initiate protein mis-folding, possibly 
leading to diseases.
---------------------------------------------------------------------------
    \5\ Maynard, A.D., Aitken, R.J., Butz, T., Colvin, V., Donaldson, 
K., Oberdorster, G., Philbert, M.A., Ryan, J., Seaton, A., Stone, V., 
Tinkle, S.S., Tran, L., Walker, N.J. and Warheit, D.B. (2006). Safe 
handling of nanotechnology. Nature 444:267-269.
    \6\ Oberdbrster, G., Stone, V. and Donaldson, K. (2007). Toxicology 
of nanoparticles: A historical perspective. Nanotoxicology 1:2-25.

The need for foresight

    Moving towards the nanotechnology future without a clear 
understanding of the possible risks, and how to manage them, is like 
driving blindfolded. The more we are able to see where the bends in the 
road occur, the better we will be able to navigate around them to 
realize safe, sustainable and successful nanotechnology applications. 
But to see and navigate the bends requires the foresight provided by 
strategic science.
    With over 600 products currently listed on the PEN's Consumer 
Products Inventory\7\ and with hundreds more commercial nanotechnology 
applications on the market or under development, the question is no 
longer whether nanotechnologies will impact society but how significant 
the impact will be. The question for policy-makers is how these impacts 
will be manifest, and how we will manage the consequences.
---------------------------------------------------------------------------
    \7\ An inventory of nanotechnology-based consumer products 
currently on the market. http://www.nanotechproject.org/inventories/
consumer/. Accessed 3/30/08.

Avoiding harm

    Central to developing sustainable nanotechnologies is an 
understanding of how new materials and products may harm people and the 
environment, and how possible risks may be avoided or otherwise 
managed.
    Everything has the potential to cause harm. If we are smart, we 
learn how to avoid harm. And if we are very smart, we work out the 
rules of safe use ahead of the game. In a world of more than six 
billion people, everything that occurs has an impact on some place and 
someone. And as a result, each emerging technology forces us to think 
harder about what the consequences might be, and how to avoid them.
    Ignoring the signs of adverse consequences will only result in poor 
decision-making by governments, business and individuals. While 
nanotechnology undoubtedly has the potential to do great good, the 
consequences of getting it wrong could be devastating. Already, 
research is indicating that many nanomaterials behave in unusual and 
unconventional ways that may lead to human and environmental harm if 
not addressed early on.

A new mindset for a new technology

    Twenty-first century technologies like nanotechnology present new 
challenges to identifying and managing risks, and it would be naive to 
assume that twentieth century assumptions and approaches are up to the 
task of protecting health and the environment in all cases. In the case 
of engineered nanomaterials, the importance of physical structure in 
addition to chemical composition in determining behavior is making a 
mockery of our chemicals-based view of risks and regulation.
    As a simple example, imagine picking up two common kitchen 
implements--a skillet and a knife. Each can be used for very different 
purposes--for instance, the knife for slicing an onion and the skillet 
for frying it. Likewise, each implement can cause harm in different 
ways. Yet the chemical makeup of each implement is very similar--it is 
predominantly iron. The very different rules for safe use are 
intuitive, because one can see how the different shapes of the 
implements influence behavior.
    Nanomaterials are the same, in that how they behave--for good or 
bad--depends on their shape as well as their chemistry. But this is 
where nanotechnology becomes counter-intuitive. Because we cannot see 
these intricate nano-shapes unaided, we forget that they are important. 
If one were to hold up ajar of nanometer-sized titanium dioxide 
particles all that would be seen is a white powder, indistinguishable 
from many other powdered materials. Yet the potential for this material 
to be used in new applications, and possibly to cause harm in new ways, 
lies within the nanoscale structure of the material that can only be 
seen using advanced microscopy techniques.

Leadership

    In thinking through how the potential risks of nanotechnologies can 
be proactively addressed and the technologies can be developed safely, 
some things are clear. Safe nanotechnologies will not happen without 
help--nanotechnologies are simply too unconventional and counter-
intuitive. Neither will safe nanotechnologies emerge if the promoters 
of the technology are calling all the shots. And in a similar vein, 
safe nanotechnologies will not come about through wishful thinking and 
``spin.''
    Instead, there needs to be strong independent leadership, and a 
framework within which safe and sustainable nanotechnology can be 
developed. These must ensure adequately funded research is targeted 
towards understanding and addressing counter-intuitive behavior, that 
the process of developing safe and sustainable nanotechnologies is 
transparent and inclusive, and that activities are coordinated and 
directed towards developing solutions to developing and using 
nanotechnologies as safely as possible.
    Only then will it be possible to develop the foresight necessary to 
ensure emerging nanotechnologies are as safe and as useful as possible. 
Having set the pace of nanotechnology development in the U.S. through 
the 21st Century Nanotechnology Research and Development Act, the House 
Committee on Science and Technology now has the task of ensuring these 
emerging nanotechnologies deliver on their promise; benefiting society 
without causing harm.

                             Taking Action

Risk Research Strategy

    We are unlikely to arrive at a future where nanotechnology has been 
developed responsibly without a strategic plan for how to get there. 
Like all good strategies, this should include a clear idea of where we 
want to be, and what needs to be done to get there. A top-level, top-
down strategic framework should be developed that identifies the goals 
of nanotechnology risk research across the Federal Government, and that 
provides a roadmap for achieving these goals. The strategy should 
identify information needed to regulate and otherwise oversee the safe 
development and use of nanotechnologies; which agencies will take a 
lead in addressing specific research challenges; when critical 
information is needed; and how the research will be funded. It should 
reflect evolving oversight challenges; be informed by stakeholders from 
industry; academia and citizen communities; include measurable goals; 
and be reviewed every two years.
    Developing an effective roadmap to addressing these challenges is 
not as simple as prioritizing research needs. As I discovered while 
developing recommendations on research strategies in 2006,\8\ it is 
necessary to work back from what you want to achieve, and map out the 
research steps needed to get there. This inevitably leads to complex 
and intertwined research threads. Yet if this complexity is not 
acknowledged, the result is simplistic research priorities that look 
good on paper, but are ineffective at addressing specific aims. And 
without a clear sense of context, it is all too easy to highlight 
research efforts that appear to be strategically important, but are in 
reality only marginal to achieving the desired goals.
---------------------------------------------------------------------------
    \8\ Maynard, A.D. (2006). Nanotechnology: A research strategy for 
addressing risk, Woodrow Wilson International Center for Scholars, 
Project on Emerging Nanotechnologies, Washington DC.
---------------------------------------------------------------------------
    The bottom line is that for such a strategy to be effective, it 
will require top-down leadership. Establishing provisions for an 
effective nanotechnology risk research strategy to be developed, funded 
and implemented in the National Nanotechnology Initiative Amendment Act 
of 2008 will be essential to underpinning the success and safety of 
current and future nanotechnologies, as well as ensuring America's 
continued leadership in this area.

Funding for Environment, Safety and Health Research

    To be effective, a nanotechnology risk-research strategic framework 
needs adequate funding to support proposed research, as well as 
sufficient expert personnel to oversee its development and 
implementation. In 2006, the U.S. spent an estimated $13 million on 
highly relevant research addressing the impacts of nanotechnology on 
human health and the environment.\9\ By comparison, European countries 
invested approximately $24 million, including $13 million from the 
European Union as a central funding organization. But these figures 
fall far short of what is needed to address even the most urgent 
nanotechnology EHS questions.
---------------------------------------------------------------------------
    \9\ See Annex A, and supporting information in Annex B.
---------------------------------------------------------------------------
    In my testimony to this committee on September 21, 2006,\10\ and 
more recently on October 31, 2007,\11\ I made the case for a minimum of 
$50 million annually to be spent on targeted nanotechnology risk 
research within the U.S. This was based on an assessment of critical 
short-term research needs, and only covered highly-focused research to 
address these needs.\12\ This estimate still stands. However, I must be 
clear that such an investment would need to be directed towards 
addressing a very specific suite of problems that regulators and 
industry need answers to as soon as possible. This is not envisaged as 
a general pot of money to be assigned to research that does not address 
specific and urgent nanotechnology risk goals. In other words, this is 
an investment that needs to be directed towards the right research.
---------------------------------------------------------------------------
    \10\ United States House of Representatives Committee on Science. 
Hearing on Research on Environmental and Safety Impacts of 
Nanotechnology: What are Federal Agencies Doing? Testimony of Andrew D. 
Maynard. September 21, 2006.
    \11\ United States House of Representatives Committee on Science. 
Hearing on Research on Environmental and Safety Impacts of 
Nanotechnology: Current Status of Planning and Implementation Under the 
National Nanotechnology Initiative. Testimony of Andrew D. Maynard. 
October 31, 2007.
    \12\ See also: Maynard, A.D. (2006). Nanotechnology: A research 
strategy for addressing risk, Woodrow Wilson International Center for 
Scholars, Project on Emerging Nanotechnologies, Washington, DC.
---------------------------------------------------------------------------
    What is more, such an investment would not necessarily generate 
more general knowledge to effectively address emerging nanotechnology 
EHS issues. For this, an additional investment is needed in goal-
oriented exploratory research--both specifically focusing on aspects of 
nanotechnology that might lead to harm, and bridging the worlds of 
applications and implications research.
    To address both targeted and exploratory research needs, a minimum 
10 percent of the Federal Government's nanotechnology research and 
development budget should be dedicated to goal-oriented EHS research. A 
minimum of $50 annually should go to targeted research directly 
addressing clearly-defined strategic challenges. The balance of funding 
should support exploratory research that is conducted within the scope 
of a strategic research program. Funding should be assessed according 
to an interagency risk research strategy, be overseen by cross-agency 
leadership and tied into the strategic research plan.
    Targeted research primarily should address specific questions where 
answers are urgently needed to make, use and dispose of nanotechnology 
products as safely as possible. I would envisage that much of the 
necessary research would be funded by or conducted within mission-
driven agencies, such as the National Institute for Occupational Safety 
and Health (NIOSH) and the Environmental Protection Agency (EPA). In 
addition, we must ensure that regulatory agencies, including the Food 
and Drug Administration (FDA) and the Consumer Product Safety 
Commission (CPSC), either have access to resources to fund regulation-
relevant research, or input to research that will inform their 
decision-making.
    There will also be a role for science-oriented agencies such as the 
National Institutes for Health (NIH) and the National Science 
Foundation (NSF) in funding targeted research, where the missions of 
these agencies coincide with research that informs specific oversight 
questions. For example, these two agencies are ideally positioned to 
investigate the science behind nanomaterial properties, behavior and 
biological interactions in a targeted way, with the aim of predicting 
health and environmental impact. But ensuring that targeted research 
conducted within these agencies is relevant to addressing risk 
identification, assessment and reduction goals will be critical, and 
underscores the need for a robust cross-agency, risk-research strategy 
and pool of designated funds.
    Exploratory research, on the other hand, primarily would be 
investigator-driven (within determined bounds), and so would 
preferentially lie within the remit of NSF and NIH. However, in 
ensuring effective use of funds, it will be necessary to develop ways 
of supporting interdisciplinary research that crosses the boundary 
separating these agencies, and combines investigations of basic science 
with research into disease and environmental endpoints, with the goal 
of informing oversight decisions.
    Exploratory research should not be confined to these two agencies 
alone, as there will be instances where goal-oriented but exploratory 
research will fit best within the scope of mission-driven agencies, and 
will benefit from research expertise within these agencies. For 
example, researchers at NIOSH are currently engaged in exploratory 
research that is directly relevant to identifying and reducing 
potential nanotechnology risks in the workplace.\13\
---------------------------------------------------------------------------
    \13\ NIOSH (2008). Strategic plan for NIOSH nanotechnology 
research. Filling the knowledge gaps. Draft, February 26, 2008 
(Update). National Institute for Occupational Safety and Health, 
Washington, DC.
---------------------------------------------------------------------------
    At present, there is no pot of ``nanotechnology'' money within the 
Federal Government that can be directed to areas of need. Rather, the 
NNI simply reports what individual agencies are spending. Yet if 
strategic nanotechnology risk research is to be funded appropriately, 
mechanisms are required that enable dollars to flow from where they are 
plentiful to where they are needed. Extremely overstretched agencies 
like NIOSH and EPA cannot be expected to shoulder their burden of 
nanotechnology risk-research unaided, and agencies such as FDA and CPSC 
currently have no listed budget whatsoever for nanotechnology EHS 
research. If the Federal Government is to fully utilize expertise 
across agencies and enable effective nanotechnology oversight, 
resource-sharing across the NNI will be necessary.

Leadership for Risk Research

    Without clear leadership, the emergence of safe nanotechnologies 
will be a happy accident rather than a foregone conclusion.
    This is a collection of technologies that is counter-intuitive and 
as a result, safe and sustainable nanotechnologies will not emerge 
without help. Accepted mechanisms of technology development and 
transfer--including investigator-driven research, generation of 
intellectual property, knowledge diffusion and market-driven 
commercialization--will not ensure the information and approaches 
needed to proactively ensure the safety of emerging nanotechnologies on 
their own. Instead, clear and authoritative top-down leadership is 
needed to enable the generation and application of information that 
will support safe nanotechnology development.
    As a result, it is recommended that a cross-agency group be 
established that is responsible for implementing a nanotechnology EHS 
research strategy, and is accountable for actions taken and progress 
made. A coordinator should be appointed to oversee this group, and 
given resources and authority to enable funding allocations and 
interagency partnerships that will support the implementation of a 
strategic research plan. A key role for this coordinator would be to 
ensure agencies are motivated and able to work within their missions 
and competencies toward a common set of established goals. They would 
also provide leadership to the broader stakeholder community involved--
both nationally and internationally--in developing safe 
nanotechnologies.

Transparency

    Without transparency, effective development, implementation and 
review of a strategic research framework will be hampered, stakeholder 
engagement will be impossible, and trust in the government to underpin 
safe nanotechnologies will be severely compromised. As a result, it is 
recommended that government-funded nanotechnology EHS research should 
be fully transparent, providing stakeholders with information on 
project activities, relevance, funding and outcomes.
    Activities to date within the federal nanotechnology initiative 
have been less than transparent, to the detriment of an effective 
strategy for nanotechnology development and use. For example, a PEN 
analysis of current research projects listed in the National 
Nanotechnology Initiative's ``Strategy for Nanotechnology-Related 
Environmental, Health, and Safety Research'' found that only 62 of the 
246 projects listed were highly relevant to addressing EHS issues (the 
remaining projects had some relevance, but in general were focused on 
exploiting nanotechnology applications).\14\ These 62 projects 
accounted for an estimated $13 million in research and development 
funding for 2006--a far cry from the $68 million cited by the NNI 
document as being focused on EHS research.\15\ Each of these 246 
projects has some relevance to addressing nanotechnology safety, and 
the NNI was right to list them. But by not categorizing the relevance 
of the research or including funding figures for each project, the 
stated $68 million being invested has little credibility--and as has 
just been shown, is indeed highly misleading.
---------------------------------------------------------------------------
    \14\ See Annex A, with supporting information in Annex B. Project 
specific data underpinning this analysis can be found in the Project on 
Emerging Nanotechnologies Environment, Health and Safety Research 
inventory (http://www.nanotechproject.org/inventories/ehs/, accessed 4/
15/08). This inventory is in the process of being adopted and updated 
by the Organization for Economic Cooperation and Development, Working 
Party on Manufactured Nanomaterials.
    \15\ Further independent assessment of research funded in 2006 
reveals funding for highly relevant risk research was closer to $20 
million (http://www.nanotechproject.org/inventories/ehs, accessed 4/8/
08). The discrepancy appears to be due to relevant research that the 
NNI missed in their analysis--another indicator that the government is 
not on top of what research is being funded, and lacks sufficient 
transparency for effective accountability.
---------------------------------------------------------------------------
    Lack of transparency such as this can only hinder the development 
of new knowledge that is essential to ensuring safe and successful 
nanotechnologies. This is such a critical issue to underpinning 
progress towards safe and successful nanotechnologies that I would 
suggest any assessment of research investment, relevance or direction 
that is not backed up by publicly accessible project-specific data is 
worthless. It is for this very reason that the Organization for 
Economic Cooperation and Development (OECD) Working Party on 
Manufactured Nanomaterials is developing a soon-to-be-launched 
comprehensive database on risk-relevant nanotechnology research around 
the world.\16\
---------------------------------------------------------------------------
    \16\ The OECD nanotechnology risk research database is based on the 
Project on Emerging Nanotechnologies inventory of nanotechnology 
Environment, Health and Safety Research (http://
www.nanotechproject.org/inventories/ehs/, accessed 4/8/08). Due to be 
launched in June 2008, it will include information on project relevance 
to addressing nanotechnology risks, and funding levels. For further 
details, see http://www.oecd.org/dataoecd/34/6/37852382.ppt (accessed 
4/8/08).

Public-Private Partnerships

    Often, partnerships between public and private organizations have 
the capacity to address critical challenges in a manner that is beyond 
the scope of either partner in isolation. To expedite progress towards 
ensuring the safety of emerging nanotechnologies, it is recommended 
that partnerships are established that leverage public and private 
funds to address critical nanotechnology oversight issues in an 
independent, transparent and timely manner and to overcome the 
limitations of separate government and industry research.
    Where research needs fall between the gap of government and 
industry (because of their different goals), public-private research 
partnerships provide an important mechanism for bridging the gaps. 
Industries investing in nanotechnology have a financial stake in 
preventing harm, manufacturing safe products and avoiding long-term 
liabilities. Yet many of the questions that need answering are too 
general to be dealt with easily by industry alone. Perhaps more 
significantly, the credibility of industry-driven risk research is 
often brought into question by the public and NGOs as not being 
sufficiently independent and transparent. For many nanomaterials and 
nanotechnologies, the current state of knowledge is sufficient to cast 
doubt on their safety but lacks the certainty and credibility for 
industry to plan a clear course of action on how to mitigate potential 
risks. Getting out of this ``information trap'' is a dilemma facing 
large and small nanotechnology industries alike.
    Cooperative science organizations like public-private partnerships 
provide one way out of the ``trap'' where they are established to 
generate independent, credible data that will support nanotechnology 
oversight and product stewardship. Such organizations would leverage 
federal and industry funding to support targeted research into 
assessing and managing potential nanotechnology risks. Their success 
would depend on five key attributes:

         Independence. The selection, direction and evaluation of 
        funded research would have to be science-based and fully 
        independent of the business and views of partners in the 
        organization.

         Transparency. The research, reviews and the operations of the 
        organization should be fully open to public scrutiny.

         Review. Research supported by the organization should be 
        independently and transparently reviewed.

         Communication. Research results should be made publicly 
        accessible and fully and effectively communicated to all 
        relevant parties.

         Relevance. Funded research should have broad relevance to 
        managing the potential risks of nanotechnologies through 
        regulation, product stewardship and other mechanisms.

    As I discussed in my comments to the House Committee on Science and 
Technology Subcommittee on Research and Science Education last 
October,\17\ a number of research organizations have been established 
over the years that comply with many of these criteria. One of these is 
the Health Effects Institute (HEI),\18\ which has been highly 
successful in providing high-quality, impartial, and relevant science 
around the issue of air pollution and its health impacts. The 
Foundation for the National Institutes for Health\19\ also has been 
successful in developing effective public-private partnerships, and the 
International Council on Nanotechnology (ICON)\20\ is a third model for 
bringing government, industry and other stakeholders to the table to 
address common goals. The PEN is currently exploring these and other 
models as possible templates for public-private partnerships addressing 
nanotechnology risks.
---------------------------------------------------------------------------
    \17\ United States House of Representatives Committee on Science, 
Subcommittee on Research and Science Education. Research on 
Environmental and Safety Impacts of Nanotechnology: Current Status of 
Planning and Implementation Under the National Nanotechnology 
Initiative. Testimony of Andrew D. Maynard. October 31 2007.
    \18\ For further information see The Health Effects Institute, 
www.healtheffects.org. Accessed Oct. 13, 2007.
    \19\ For further information see The Foundation for the National 
Institutes of Health, www.fnih.org. Accessed Oct. 13, 2007.
    \20\ For further information, see the International Council on 
Nanotechnology, icon.rice.edu. Accessed Oct. 13, 2007.
---------------------------------------------------------------------------
    Irrespective of which model is the best suited for nanotechnology, 
the need is urgent to develop such partnerships as part of the 
government's strategy to address nanotechnology risks. Nanotechnologies 
are being commercialized rapidly--going from $60 billion in 
manufactured goods in 2007 to a projected $2.6 trillion in 
nanotechnology-enabled manufactured goods by 2014--or 15 percent of 
total manufactured goods globally.\21\ And knowledge about possible 
risks is simply not keeping pace with consumer and industrial 
applications.
---------------------------------------------------------------------------
    \21\ Lux Research (2007). The Nanotech Report. 5th edition, Lux 
Research Inc., New York, N.Y.
---------------------------------------------------------------------------

                              Conclusions

    The nanotechnology future is calling us forward, and the U.S. is at 
the forefront of the race to get there as fast as possible. But we are 
skating on thin ice, and are in danger of missing the warning signs. 
Nanotechnology is counter-intuitive, and we cannot rely on past ways of 
doing things to succeed in the future. Without strong leadership from 
the top, we run the risk of compromising the whole enterprise--not only 
loosing America's lead, but also jeopardizing the good that could come 
out of nanotechnology for other countries.
    Already, the hubris surrounding nanotechnology R&D funding is 
giving way to a sobering reality: Based on NNI-identified risk-relevant 
projects, in 2006, the Federal Government spent an estimated $13 
million on highly relevant nanotechnology risk research (approximately 
one percent of the nano R&D budget), compared to $24 million in Europe, 
despite assurances from the NNI that five times this amount was spent 
on risk related research in Fiscal Year 2006.
    But nanotechnology will not succeed through wishful thinking alone. 
Instead, it will depend on clear and authoritative leadership from the 
top. If we are to fully realize the benefits of this innovative new 
technology, we must bridge the gap between our dreams and reality.
    In my personal view, the proposed National Nanotechnology 
Initiative Amendment Act of 2008 goes a long way to bridging this gap. 
I particularly commend the Committee for promoting transparency through 
a public database for projects funding under EHS; education and 
societal dimensions; and nanomanufacturing program component areas, 
with sub-breakouts for education and ethical, legal and social 
implications (ELSI) projects. This database will complement the public 
international EHS database expected to be launched by the Organization 
for Economic Cooperation and Development (OECD) in June 2008, and will 
provide an essential resource for evaluating the Federal Government's 
progress towards addressing critical research questions, as well as 
developing future research strategies.
    In addition, I believe the proposed act takes an important step in 
assigning to a single coordinator the responsibility for ensuring that 
a top-down strategic plan for nanotechnology environmental, safety and 
health research is developed and implemented; that EHS research is 
appropriately funded with at least 10 percent of the total NNI budget; 
and that public-private partnerships are established that leverage 
government and industry research initiatives.
    Finally, as the Committee knows, my in-depth experience lies in the 
area of the EHS implications of nanotechnology. But as one of the many 
scientists and engineers deeply involved in nanotechnology development 
for over 20 years, I am genuinely concerned about the education and 
``nano-readiness'' of America's students, teachers, and workforce. For 
this reason, I personally endorse the establishment of partnerships to 
help recruit and prepare secondary school students to pursue post-
secondary education in nanotechnology. I also support enhancements to 
nanotechnology undergraduate education, faculty development, and 
acquisition of equipment and instrumentation at the undergraduate 
level. When today China has as many scientists and engineers working on 
nanotechnology as the U.S., it is critical to support initiatives in 
nanotechnology education aimed at our young people.
    Similarly, the U.S. public and consumers are woefully unprepared 
for the nano-age. Polling, focus groups and social science research 
commissioned by PEN since its inception show that Americans' awareness 
of nanotechnology remains abysmally low, with seven in 10 adults having 
heard just a little of nothing at all about it.\22\ This, in my 
opinion, is a significant failing of the NNI. Too few resources and too 
little expertise has been devoted to educating and engaging the public 
about the implications of what I believe is one of this century's most 
exciting areas of science and engineering. I particularly urge the 
Committee to address this problem as it works on the National 
Nanotechnology Initiative Amendment Act of 2008.
---------------------------------------------------------------------------
    \22\ ``Awareness Of and Attitudes Toward Nanotechnology and Federal 
Regulatory Agencies'' conducted on behalf of the Project on Emerging 
Nanotechnologies, Woodrow Wilson International Center for Scholars by 
Peter D. Hart Research Associates, Inc., September 25, 2007.
---------------------------------------------------------------------------
    When I look back on the origins of the National Nanotechnology 
Initiative, I am impressed by the foresight and quality of leadership 
exerted by Congressional visionaries from both sides of the aisle, the 
President and Executive Branch, scientists and engineers, business 
people, and educators.\23\ Perhaps because of the tremendous successes 
achieved in the laboratory since its creation, we risk losing sight of 
the importance of meeting the challenges involved in taking the NNI to 
the next level of research, education, governance and 
commercialization. It is my belief that with the proposed Act--and with 
the continued vigilance of this committee--this will not happen.
---------------------------------------------------------------------------
    \23\ Lane, Neal and Kalil, Thomas, ``The National Nanotechnology 
Initiative: Present at the Creation,'' Issues in Science and 
Technology, Summer 2005.
---------------------------------------------------------------------------

Annex A.

 Assessment of U.S. Government Nanotechnology Environmental Safety and 
                        Health Research for 2006

1.  Assessment of research listed in the 2008 NNI nanotechnology risk 
research strategy.\24\
---------------------------------------------------------------------------
    \24\ NNI (2008). Strategy for nanotechnology-related environmental, 
health and safety research, Washington, DC, National Nanotechnology 
Initiative.

        a.  Research projects highly relevant to nanotechnology 
        environment health and safety accounted for an estimated $12.8 
---------------------------------------------------------------------------
        million in federal research funding in 2006.

        b.  Research that was either highly or substantially relevant 
        to nanotechnology EHS accounted for an estimated $28.9 million.

        c.  The majority of the research projects listed by the NNI as 
        being relevant to nanotechnology EHS have only limited 
        relevance.

    Listed research was categorized according to its relevance to 
addressing potential nanotechnology risks (highly relevant, 
substantially relevant, having some relevance, or having marginal 
relevance--as defined below). Projects specifically addressing 
engineered nanomaterials, as well as projects generally applicable to 
any source of nanoparticles, were included in the analysis.
    The methodology for categorizing research relevance was the same as 
that used in the Project on Emerging Nanotechnologies on-line inventory 
of nanotechnology EHS research,\25\ and in the forthcoming OECD 
database of nanotechnology EHS research.\26\ This approach allows a 
sophisticated and transparent assessment of research investment. The 
categorization is based on published project abstracts, and how these 
relate to addressing risk-specific issues.
---------------------------------------------------------------------------
    \25\ Environment, safety and health research. 
www.nanotechproject.org/inventories/ehs/ (accessed 4/15/08).
    \26\ For further details on the OECD risk research database, see 
http://www.oecd.org/dataoecd/34/6/37852382.ppt (accessed 4/8/08).

2.  A broader assessment of U.S. federally-funded risk-relevant 
---------------------------------------------------------------------------
research for 2006

    The previously-released PEN inventory of EHS research contains 
substantially more projects than are listed in the 2008 NNI risk 
research strategy. Assessment of the full inventory of projects reveals 
that more risk-relevant research was being funded in 2006 than is 
identified by the NNI, but that funding levels are still low:

        a.  Research projects highly relevant to nanotechnology 
        environment health and safety accounted for an estimated $20.4 
        million in federal research funding in 2006.

        b.  Research that was either highly or substantially relevant 
        to nanotechnology EHS accounted for an estimated $37.8 million.

    The disparity between the figures above and NNI figures on research 
spending underline an urgent need for transparency in what is being 
funded, and it's relevance to addressing nanotechnology risk.

3.  Comparison with European Risk Research Investments

        a.  In 2006, European countries invested an estimated U.S. 
        $23.6 million in research that was highly relevant to 
        understanding and addressing the impacts of nanotechnology on 
        human health and the environment. The EU as a central funding 
        organization invested an estimated U.S. $12.6 million in highly 
        relevant research in 2006.

    These estimates are based on figures published in the document ``EU 
nanotechnology R&D in the field of health and environmental impact of 
nanoparticles,'' published in 2008.\27\ Research funding within 
European countries for calendar year 2006 has been estimated. The 
analysis includes research funded by the European Union, Belgium, Czech 
Republic, Denmark, Finland, Germany, Greece, Sweden, Switzerland and 
the United Kingdom.
---------------------------------------------------------------------------
    \27\ EU nanotechnology R&D in the field of health and environmental 
impact of nanoparticles. DG Research, January 28, 2008.

---------------------------------------------------------------------------
4.  Definitions of research relevance:

        a.  High: Research that is specifically and explicitly focused 
        on the health, environmental and/or safety implications of 
        nanotechnology. Also included in this category are projects and 
        programs where the majority of the research undertaken is 
        specifically and explicitly focused on the health, 
        environmental and/or safety implications of nanotechnology. 
        Examples of research in this category would include research to 
        understand the toxicity of specific nanomaterials, research 
        into exposure monitoring and characterization to further 
        understand potential impact, research into biological 
        interactions and mechanisms that is focused on answering 
        specific questions associated with potential risk. Examples of 
        research that would not be included in this category would 
        include exploratory research into biological mechanisms outside 
        the context of understanding impact, general instrument 
        development, and research into therapeutics applications which 
        also incorporate an element of evaluating impact.

        b.  Substantial: Research that is focused towards 
        nanotechnology-based applications or developing fundamental new 
        knowledge on nanoscienee, but that has substantial and explicit 
        relevance to EHS implications. Examples of research in this 
        category would include non-targeted research into biological 
        mechanisms which is informative to understanding risk, 
        instrument development for assessing nanomaterials for 
        applications and characterizing nanomaterials in hazard 
        evaluations, and major programs with a significant component 
        focused on risk research.

        c.  Some: Research that is focused on the application of 
        nanotechnology and developing fundamental new knowledge on 
        nanoscience but that has some relevance to EHS implications. 
        Examples might include research into therapeutics applications 
        which also lead to the generation of useful data on hazard.

        d.  Marginal: Fundamental nanoscience and/or nanotechnology 
        applications-based research, which informs understanding on 
        potential EHS implications in a marginal way. Examples might 
        include the development of new analytical techniques such as 
        analytical electron microscopy, where some attempt is made to 
        apply the techniques to understanding potential risks unique to 
        nanomaterials.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                    Biography for Andrew D. Maynard
    Dr. Andrew Maynard is the Chief Science Advisor to the Project on 
Emerging Nanotechnologies-an initiative dedicated to helping business, 
government and the public anticipate and manage possible health and 
environmental implications of nanotechnology. Dr. Maynard is considered 
one of the foremost international experts on addressing possible 
nanotechnology risks and developing safe nanotechnologies. As well as 
publishing extensively in the scientific literature, Dr. Maynard is a 
well-known international speaker on nanotechnology, and frequently 
appears in print and on radio and television.
    Dr. Maynard trained as a physicist at Birmingham University in the 
UK. After completing a Ph.D. in ultrafine aerosol analysis at the 
Cavendish Laboratory, Cambridge University (UK), he joined the aerosols 
research group of the UK Health and Safety Executive, where he led 
research into aerosol behavior and characterization.
    In 2000, Dr. Maynard joined the National Institute for Occupational 
Safety and Health (NIOSH), part of the U.S. Centers for Disease Control 
and Prevention (CDC). Dr. Maynard was instrumental in establishing the 
NIOSH nanotechnology research initiative, which continues to lead 
efforts to identify, assess and address the potential impacts of 
nanotechnology in the workplace. Dr. Maynard also represented NIOSH on 
the Nanomaterial Science, Engineering and Technology subcommittee of 
the National Science and Technology Council (NSET), and he co-chaired 
the Nanotechnology Health and Environment Implications (NEHI) working 
group of NSET. Both are a part of the National Nanotechnology 
Initiative (NNI), the federal research and development program 
established to coordinate the U.S. Government's annual $1 billion 
investment in nanoscale science, engineering, and technology.
    Dr. Maynard continues to work closely with many organizations and 
initiatives on the responsible and sustainable development of 
nanotechnology. He is a member of the Executive Committee of the 
International Council On Nanotechnology (ICON), he has chaired the 
International Standards Organization Working Group on size selective 
sampling in the workplace, and he has been involved in the organization 
of many international meetings on nanotechnology. Dr. Maynard has 
testified before the U.S. House Committee on Science & Technology on 
nanotechnology policy, and is a member of the President's Council of 
Advisors on Science and Technology, Nanotechnology Technical Advisory 
Group. Dr. Maynard is an Honorary Senior Lecturer at the University of 
Aberdeen, U.K., and has authored or co-authored over 100 scholarly 
publications.

    Chairman Gordon. Thank you, Dr. Maynard. Dr. David is 
recognized.

   STATEMENT OF DR. RAYMOND DAVID, MANAGER OF TOXICOLOGY FOR 
             INDUSTRIAL CHEMICALS, BASF CORPORATION

    Dr. David. Good morning, Mr. Chairman and Members of the 
Committee. I am Dr. Raymond David. I am a toxicologist with 
BASF Corporation, but I am here on behalf of the American 
Chemistry Council and Nanotechnology Panel to speak in favor of 
the National Nanotechnology Initiative Amendments Act of 2008.
    The infrastructure that the amendment would provide will 
greatly improve the ability of the United States to plan, 
coordinate, and implement research programs, especially ones 
focused on the safe use of nanotechnology. The infrastructure 
and focus will be welcome in an area that has seen an explosion 
of research and experimental data in the scientific literature 
but not necessarily always focused on addressing any one 
particular issue. Under the NNI amendment, a central, federal 
research oversight function will be created to address specific 
research questions and provide the capability to utilize all 
the federal research resources available to answer any one 
particular question, much like other governments around the 
globe.
    This central oversight will bring the strengths of 
organizations such as the EPA, NIH, NCTR, and the National 
Characterization Laboratory together to resolve a particular 
question, and they can do that in a fashion that will be much 
faster than academia or industry alone could resolve.
    The amendments mandate that NNI provide information to the 
academic and industrial research communities on current 
research programs, so that we can reduce the redundancy on some 
of the experiments we see, available techniques and 
methodologies, and facilities that can support robust 
scientific research. This information will be welcome in an 
area that we have seen a lot of redundancy in terms of the 
scientific literature and hopefully gain acceptance of minimal 
characterization evaluation parameters so that people will know 
exactly what the characteristics of the nanomaterials are that 
they are testing. This is something that is presently lacking 
and would otherwise make their research uninterpretable.
    The ACC strongly supports the intention to educate all 
stakeholders, especially the public, on nanotechnology. I think 
we are at a crossroads in terms of the public perception with 
respect to the uses of nanomaterials. Some of the information 
that the public receives from the media tends to overemphasize 
the uncertainties of nanotechnology. We believe that it is 
important that the public understand the true risks and 
benefits of this technology and the nanomaterials that are 
being used, and they need to receive that in a very clear, 
straightforward manner.
    Of course, these amendments and the infrastructure that 
they creates does not guarantee success. The proof is really in 
the pudding. The implementation is what is important. The ACC 
would also like to re-emphasize that a comprehensive and 
prioritized federal research strategy focusing on EHS concerns 
is still missing. What we need to do is we need to focus on 
assessments of risks to health and the environment. We need to 
promote new interdisciplinary relationships. We need to support 
better understanding of the fundamental properties of 
nanomaterials and how that impacts the risk assessment. We need 
to develop processes for establishing standard protocols so 
that individual and maybe categories of nanomaterials can be 
evaluated. We need to clearly delineate the responsibilities, 
programs, timelines, and anticipated results of funded 
projects. And I think we need to leverage planned research that 
is ongoing throughout the world, particularly in the OECD. We 
have previously urged an independent review by the National 
Research Council's Board of Environmental Studies and 
Toxicology to establish research priorities for manufactured 
nanomaterials. We continue to believe that that is an important 
effort that should be pursued so that we can develop a 
comprehensive roadmap with appropriate projects and priorities 
and evaluation metrics.
    The nanotechnologies panel member companies want to foster 
responsible application of nanotechnology. We want to share and 
coordinate EHS initiatives, and we want to facilitate the 
exchange of information.
    We look forward to working with the Congress and NNI to 
make the implementation of these amendments a success. We hope 
the bill will be passed, and we look forward to that happening. 
Thank you.
    [The prepared statement of Dr. David follows:]
                  Prepared Statement of Raymond David
    Good Morning Chairman Gordon and Members of the Committee. I am Dr. 
Raymond David, a toxicologist with BASF Corporation, and appearing 
before you today on behalf of the American Chemistry Council and ACC's 
Nanotechnology Panel to speak in favor of the National Nanotechnology 
Initiative Amendments Act of 2008.
    I appreciate Chairman Gordon's invitation to address the House 
Committee on Science and Technology on the role of the National 
Nanotechnology Initiative (NNI) in planning and implementing the 
environmental, safety, and health research necessary for the 
responsible development of nanotechnology.
    ACC represents the leading companies engaged in the business of 
chemistry. ACC members apply the science of chemistry to make 
innovative products and services that make people's lives better, 
healthier and safer. In 2005, ACC formed its Nanotechnology Panel 
consisting of domestic producers that are engaged in the manufacture, 
distribution, and/or use of chemicals that have a business interest in 
the products of nanotechnology. Panel member companies wish to foster 
the responsible application of nanotechnology; to coordinate 
nanotechnology environmental, health, and safety research initiatives 
undertaken by member companies and other organizations; and to 
facilitate the exchange of information among member companies and other 
domestic and international organizations on issues related to 
applications and products of nanotechnology.
    The infrastructure that the NNI amendments would create will 
greatly improve the ability of the U.S. to plan, coordinate, and 
implement research programs--especially ones focused on the safe use of 
nanomaterials, an issue that has been raised many times in the past few 
years. This infrastructure and focus will be welcome in an area that 
has seen an explosion of research and generation of experimental data--
not always focused. The U.S. has had many intellectual and financial 
resources applied to studying nanomaterials, but not necessarily 
directed at solving any one issue. Under the NNI amendment, a central, 
federal, research oversight function would be created to address 
specific research questions and provide the capability to utilize all 
federal resources to answer those questions--much like other 
governments throughout the globe.
    This centralized oversight will bring the strengths of each federal 
research organization together to address a single issue. For example, 
scientists in the National Characterization Laboratory in Frederick, 
MD, have extensive experience detecting a variety of nanomaterials in 
biological fluids; scientists in NIOSH have verified the protective 
effect of personal protective equipment and have investigated the 
cellular effects of dermal exposure; and scientists in NIEHS and NCTR 
have developed techniques and conducted experiments to better 
understand the potential for dermal penetration of nanomaterials. Being 
able to bring all these entities and expertise together to answer 
specific questions on the applied nanomaterials could bring swift 
answers to questions that would take industry or academia alone much 
longer to evaluate.
    The amendments would also mandate that NNI provide information to 
the academic and industrial research community on current research 
programs, available techniques and methodologies, and facilities to 
support robust scientific research. This information should reduce the 
redundancy that we currently find in the explosion of scientific 
literature, and help gain acceptance of minimal characterization 
criteria needed for understanding the nature of what particle was 
tested--nano sized or otherwise. Too often we find published studies 
that refer only to obtaining a nanomaterial from a vendor and adding 
that to a biological test system. Investigators need to know how and 
where they get characterized nanomaterials for study. Otherwise, their 
research may be difficult to interpret in the context of human or 
environmental safety assessment.
    ACC strongly supports the amendment's purposes to have NNI provide 
support for programs designed to educate all stakeholders, including 
the public, on nanotechnology. The public may very well have a skewed 
perception of nanotechnology and specifically the use of nanomaterials. 
Sensational articles on nanotechnology in the mainstream media can 
distort information, and we all must be mindful of the urgent need to 
present information on nanotechnology in a factually accurate, balanced 
way. The public will be far less likely to be receptive to this 
emerging technology if information about its potential risks and 
benefits is not faithfully reported in clear, straightforward terms.
    Of course, the infrastructure that these amendments would provide 
does not guarantee success. Implementation is what is important. ACC 
would also like to re-emphasize that a high quality, comprehensive and 
prioritized federal research strategy focusing on nanotechnology 
environment, health, and safety is still missing and should:

        <bullet>  Focus on risk assessments, and the generation and 
        application of information on the continuum of exposure, dose 
        and response;

        <bullet>  Promote new interdisciplinary partnerships that bring 
        visionary thinking to research on nanotechnology;

        <bullet>  Support better understanding of the fundamental 
        properties of nanomaterials that have an impact in the 
        exposure-dose-response paradigm;

        <bullet>  Develop processes for establishing validated standard 
        measurement protocols so that individual or categories of 
        materials can be studied;

        <bullet>  Clearly delineate the responsibilities, programs, 
        timelines, and anticipated results of funded projects for each 
        federal agency; and

        <bullet>  Leverage planned and ongoing work by the Organization 
        for Economic Cooperation and Development's (OECD) Working Party 
        on Manufactured Nanomaterials, particularly in identifying on-
        going or planned research projects by other countries and 
        interpreting the results of this research, and the testing of 
        representative nanomaterials using standard test methods to 
        assess potential health or environmental hazards.

    When ACC testified before you last October, we urged as an 
appropriate next step, the funding of an independent review by the 
National Research Council Board of Environmental Studies and Toxicology 
(BEST) to establish EHS research priorities for manufactured 
nanomaterials and a substantial increase in federal funding of EHS 
programs for manufactured nanomaterials. ACC continues to believe that 
BEST should develop and monitor implementation of a comprehensive 
roadmap for federal EHS research projects and set priorities with 
evaluation metrics suitable for federal funding. This funding would 
enable BEST to develop a roadmap and strategy for the Federal 
Government for environmental, health, and safety research.
    We look forward to working with the Congress and NNI to make the 
implementation of the NNI amendments a success. We are hopeful that 
this bill will be passed to allow that to happen.

                      Biography for Raymond David
    Dr. Raymond David is Manager of Toxicology for Industrial Chemicals 
in BASF Corporation. He received his Ph.D. in Pharmacology from the 
University of Louisville, after which he was a Postdoctoral Fellow at 
the Chemical Institute of Toxicology in Research Triangle Park. Dr. 
David worked for eight years at Microbiological Associates in Bethesda, 
Maryland where he managed the Inhalation and Mammalian Toxicology 
Departments. He also spent 14 years at Eastman Kodak in Rochester New 
York as Senior Toxicologist before joining BASF in 2006. Dr. David has 
experience conducting inhalation, pulmonary, reproductive, and systemic 
toxicity studies. He was responsible for EH&S issues for nanotechnology 
at Eastman Kodak Company, and is currently responsible for 
nanotechnology issues in BASF Corporation.

    Chairman Gordon. Thank you, Dr. David. Finally, Dr. 
Doering, you are recognized.

STATEMENT OF DR. ROBERT R. DOERING, SENIOR FELLOW AND RESEARCH 
              STRATEGY MANAGER, TEXAS INSTRUMENTS

    Dr. Doering. Chairman Gordon, Members of the Committee, 
thank you for the opportunity to testify today on the National 
Nanotechnology Initiative Amendments Act of 2008. Texas 
Instruments and the Semiconductor Industry Association view two 
topics as key to the legislation, first, identification of 
areas of national importance and second, translation of basic 
research into commercialization. These are essential to 
ensuring that the NNI program maintains U.S. leadership in 
nanotechnology and contributes to economic competitiveness.
    Appropriately, the bill identifies four areas of national 
importance: electronics, health care, energy, and water 
purification. This will prioritize interagency activities and 
resources around nanotechnology research to address critical 
challenges facing our country. The INSI are encouraged that 
electronics is the first area listed and strongly advocates 
that it be renamed as nanoelectronics. Nanoelectronics will 
actually play a key role in essentially every area of national 
importance. It will enable improved information processing, 
communications, imaging and sensor technologies that will 
assist in addressing energy challenges, improving health care, 
and detecting national security threats. Advanced 
nanoelectronics research is needed because the CMOS technology 
that the semiconductor industry has used for over 30 years is 
projected to reach its performance, energy efficiency, and cost 
limits by the year 2020. In 2005, six U.S. semiconductor 
companies formed a consortium, the Nanoelectronics Research 
Initiative, to provide industry funds to universities to 
accelerate this research. Today, the NRI leverages funding and 
expertise from industry, NSF, and NIST, as well as 
contributions from state and local governments and supports 
research at 35 universities and four regional centers.
    This collaboration model can be replicated to address other 
national challenges with nanotechnology research. The draft 
legislation recognizes and encourages such models. To 
effectively pursue research in the areas of national 
importance, universities and federal labs will need adequate 
resources for research funding and essential equipment. NNI 
investments in the areas of national importance should be 
reported in the same manner that they currently are for the 
program component areas.
    The bill recognizes the basic nanotechnology research 
should lead to commercial applications. Industry can play an 
important role in establishing a balance between directed basic 
research and its potential commercialization by providing 
insights on an appropriate goals and needs for both. For 
example, there are a number of candidates for new 
nanoelectronics devices, but to be viable these must be capable 
of being manufactured in commercial volumes at low cost. This 
may require an entirely new nanomanufacturing paradigm.
    Also, as we move nanoelectronics to even smaller 
dimensions, the metrology challenges will only increase, an 
important role for NIST. Thus, the bill's call for 
instrumentation and tools for nanoscale manufacturing is a 
significant element for the semiconductor industry. In 
addition, the draft legislation rightly identifies the 
important role of state leverage through research, development, 
and technology transfer initiatives. The State of Texas, the 
University of Texas System, and Texas Industry collaborated to 
establish a $30 million complimentary package of leveraged 
funding to attract and support top academic researchers at the 
Southwest Academy of Nanoelectronics which is one of the 
regional centers in NRI. Currently, the NRI state and local 
leverage for all regional centers totals about $15 million 
annually.
    In conclusion, while the legislation establishes an 
important framework, corresponding appropriations will need to 
follow. We look forward to continuing our work with this 
committee to successfully achieve the funding goals of America 
COMPETES and the President's American Competitiveness 
Initiative as the National Nanotechnology Amendments Act of 
2008 moves towards final passage. Thank you.
    [The prepared statement of Dr. Doering follows:]

                Prepared Statement of Robert R. Doering

    Chairman Gordon, Ranking Member Hall, Members of the Committee, 
thank you for the opportunity to testify today on the National 
Nanotechnology Initiative Amendments Act of 2008. This legislation is a 
natural follow-on to the America COMPETES Act signed into law last 
summer, and we thank this committee for playing such a critical 
leadership role in that effort.
    Texas Instruments (TI) has a 78-year history of innovation. While 
our products have changed many times over the years, we have always 
fundamentally been a company of engineers and scientists. We have 
always looked to the future by investing in R&D. Based in Dallas, TI 
has become the world's third largest semiconductor company. TI is 
focused on developing new electronics that make the world smarter, 
healthier, safer, greener and more fun.
    I am also appearing on behalf of the Semiconductor Industry 
Association (SIA). SIA has represented America's semiconductor industry 
since 1977. The U.S. semiconductor industry has 46 percent of the $257 
billion world semiconductor market. The semiconductor industry employs 
216,000 people across the U.S., and is America's second largest export 
sector.
    While my testimony today focuses directly on the draft National 
Nanotechnology Initiative Amendments Act, please note that TI strongly 
supports the testimony presented last month to the Subcommittee on 
Research and Science Education by Dr. Jeff Welser, Director of the 
Nanoelectronics Research Initiative (NRI) at the Semiconductor Research 
Corporation on assignment from IBM. TI is an active member of the NRI, 
as well as the Semiconductor Research Corporation and the Semiconductor 
Industry Association.
    Nanotechnology holds the promise of solving a number of major 
challenges facing our country, in areas such as energy, health care, 
and security. Nanotechnology research is extremely interdisciplinary, 
bringing together any combination of biologists, chemists, electrical 
engineers, physicists, medical doctors and materials scientists. This 
interdisciplinary nature is one of the reasons that it is essential 
federal research agencies be encouraged to work collaboratively in the 
field of nanotechnology.
    The 21st Century Nanotechnology Research and Development Act signed 
into law in 2003 created the mechanism to coordinate federal research 
agencies on a major scale around this subject. The creation of the 
National Nanotechnology Coordinating Office (NNCO) provided a focal 
point of these federal activities, leading to the development of 
strategic plans that identified program component areas, and brought 
together key stakeholders for workshops on major nanotechnology topics.
    The National Nanotechnology Initiative Amendments Act of 2008 
expands upon the foundation of the original legislation to improve 
interagency activities on critical nanotechnology research. Section 2 
contains a number of elements that would enhance the way National 
Nanotechnology Initiative (NNI) is planned and implemented. Using the 
NNI strategic plan to establish clear metrics and time frames for both 
near- and long-term objectives, including plans for technology 
transition with industry and the states, allows better measurement of 
progress towards NNI goals. The explicit funding mechanism for the NNCO 
and authorization of travel expenditures are also positive proposals 
for improving the way the NNI is planned and implemented. The 
modifications to the Advisory Panel will allow a more direct role for 
industry input and specific focus on nanotechnology. While PCAST has 
addressed nanotechnology on a detailed level, it also has a vast scope 
of work in a range of other areas.
    My testimony today will focus on two core aspects that TI and the 
U.S. semiconductor industry see as key components to the legislation: 
identification of areas of national importance and the translation of 
basic research into innovations that can be commercialized. These are 
essential to ensuring that the NNI program maintains U.S. leadership in 
nanotechnology.

Areas of National Importance (Section 5)

    The draft legislation's inclusion of ``Areas of National 
Importance'' is an essential element to the bill. The identification of 
the areas specifically named in the bill as well as subsequently by the 
Advisory Panel, will facilitate prioritization of interagency activity 
and resources around nanotechnology research that addresses the most 
critical challenges facing our country. It is indeed appropriate with 
this legislation for Congress to set some initial areas of national 
importance, with flexibility embodied in the Advisory Panel to identify 
additional areas. The legislation importantly recognizes that the 
projects in these areas will be selected on a merit and competitive 
basis.
    The draft bill identifies electronics, health care, energy, and 
water purification as initial areas of national importance. TI and the 
U.S. semiconductor industry are encouraged that electronics is the 
first area listed, and strongly advocate that it be renamed 
nanoelectronics and that the reference be retained in the final bill.
    The semiconductor industry makes major contributions to the U.S. 
economy. Semiconductor price reductions and performance improvements 
have driven productivity. Semiconductors drive the information 
technology sector, which has contributed to 25 percent of gross 
domestic product (GDP) growth since 1995 while only making up three 
percent of GDP. U.S. semiconductor companies are technology leaders, 
capturing nearly half of the over $250 billion worldwide market.
    As Dr. Welser testified, nanoelectronics research is needed to 
advance the current semiconductor technology to its ultimate limits, 
and to examine nanoelectronics alternatives to go beyond those limits, 
which will probably be reached by around 2020.
    Progress in nanoelectronics is essential to continued advances in 
information and communications, enabling breakthroughs in applications 
that depend on rapidly accessing huge volumes of data and increasing 
the speed of computations with that data, such as improved mapping of 
the human genome and protein folding, predicting the path of 
hurricanes, and modeling the behavior of nanomaterials and 
nanoparticles. There is no doubt that nanoelectronics will play a key 
role in essentially every area of national importance, such as energy, 
health care, and national security.
    In addressing energy challenges, nanoelectronics and nanostructured 
materials will be essential to developing new sources as well as to 
greatly improved means of energy harvesting, storage, distribution, 
conservation, scavenging, and exploration. Nanostructured materials are 
already showing promise for low-cost, high-efficiency solar cells, fuel 
cells, super capacitors, batteries, and light-emitting diodes (LEDs).
    As our country faces rising health care costs for a growing and 
aging population, the application of nanotechnology to medical 
diagnoses and treatments will be critical. Advances in nanoelectronics, 
and nanotechnology more broadly, can lead to less invasive procedures, 
better imaging and monitoring, and targeted treatment at the cellular 
level (e.g., cancer).
    Security is another major area of national importance. Even if the 
Committee decides not to address this area in the legislation, this 
topic should certainly be prominent in the interagency context. Further 
progress in nanoelectronics will continue to benefit national security 
in very many ways, including even smarter weapons, better and quicker 
situational awareness, and a broad range of small sensors such as 
single-chip chemical and biological analysis platforms.

Models and Resources Required to Address National Areas
    Collaboration among Federal and State government, industry, and 
academia will be essential in addressing the application of 
nanotechnology to national challenges, through partnerships such as the 
NRI. The NRI currently supports university basic research in 
nanoelectronics at 35 universities and four regional centers. NRI 
efforts are primarily focused on finding a new switch with improved 
speed, energy efficiency, and/or cost compared to the field-effect 
transistor, which is today's workhorse for processing information. The 
National Science Foundation also recognized this nanoelectronics 
challenge in its 2009 budget request by including a $20M initiative for 
research addressing ``Science and Engineering Beyond Moore's Law.''
    The NRI started as a result of the semiconductor industry 
recognizing that university research in nanoelectronics must be 
accelerated. In 2005, Advanced Micro Devices, Freescale, IBM, Intel, 
Micron Technology, and Texas Instruments all agreed to provide industry 
funds to form a consortium that would fund university research in 
nanoelectronics. From the beginning, it was clear that the scope of the 
challenge and basic science questions involved would require engagement 
and resources from the Federal Government, and conversations began with 
NSF and NIST.
    NRI is a model collaboration that leverages funding and expertise 
from industry, NSF, and NIST, and contributions from State and local 
governments. To quote the most recent NNI strategic plan profile of the 
NRI, ``these government-industry-academic partnerships blend the 
discovery mission of NSF, the technology innovation mission of NIST, 
the practical perspective of industry, and the technical expertise of 
U.S. universities to address a nanotechnology research and development 
priority. It is one example of the creative methods the NNI uses to 
accelerate research that contributes to the Nation's economic 
competitiveness.'' We are pleased that the draft legislation recognizes 
and encourages such models in Section 5.
    An extremely valuable addition to the reporting requirement in 
Section 5 would be to track investments in the areas of national 
interest, at the same level of detail as is currently done for the 
Program Component Areas. This information is currently disaggregated 
across agencies and extremely difficult to obtain and compile. For 
example, there is no central location to determine overall federal 
investments in nanoelectronics research, and certainly not on a fiscal 
year-to-year basis to determine trends.
    To pursue critical research in the areas of national importance, 
universities and federal labs such as NIST will need adequate resources 
in terms of research funding and necessary equipment/relating operating 
costs--this should be recognized in the bill. While the National 
Nanotechnology Initiative Amendments Act of 2008 establishes an 
important framework, corresponding appropriations will need to follow. 
TI and many of our colleagues in the U.S. semiconductor industry have 
been among the leaders in the business community advocating for 
appropriations to meet the research levels established by the America 
COMPETES Act, House Democratic Innovation Agenda, and the President's 
American Competitiveness Agenda.

Research to Commercialization (Sections 4 and 6)

    The Federal Government is uniquely positioned to fund basic 
research. Historically, it has been the primary source of basic 
research funds for universities. The Federal Government plays an 
especially important role in supporting higher-risk, exploratory 
research for which the economic benefits may not be realized for 
decades.
    We applaud the Committee for recognizing that appropriate critical 
areas of basic research must have a mechanism for translating research 
into commercial applications. This must be balanced with sustained 
emphasis on continuing the exploratory research itself, which is 
required to answer remaining fundamental questions in the science and 
engineering of nanotechnology. We believe that industry can play an 
important role in establishing this balance by providing insights on 
appropriate goals and needs for both ``directed'' basic research and 
its potential commercialization. This input can be provided through the 
revised Advisory Panel, consortia, and various industry advisory 
liaisons' input into federal agency merit review processes. Direct 
agency partnership through pre-competitive industry consortia is one of 
the best mechanisms to achieve close industry-government collaboration 
and facilitate commercialization of promising research.

Nanomanufacturing
    The language in Section 6 calling for instrumentation and tools for 
nanoscale manufacturing is an important one for the semiconductor 
industry. As we move to nanoelectronics, measurement, or metrology, 
challenges will only increase. NIST is best suited to address these 
challenges given its mission of metrology and its laboratory resources.
    Using the NRI research as an example, the new nanoelectronics 
switch must be extremely reliable, fast, low power, functionally dense, 
and capable of being manufactured in commercial volumes at low cost. 
There are a number of candidates for the new nanoelectronics switch, 
including devices based on spin or other quantum state variables rather 
than classical bulk electric charge. Commercialization of such devices 
into a new class of integrated circuits may very well require an 
entirely new nanomanufacturing paradigm.

Role of the States
    Section 4 of the draft legislation highlights technology transfer 
and explicitly identifies the important role of State leverage through 
research, development, and technology transfer initiatives.
    We agree that State governments should play an important role in 
leveraging federal funds and facilitating commercialization from 
universities to industry. For example, Texas created a $200 million 
Emerging Technology Fund. The fund has three goals: invest in public-
private endeavors around emerging scientific or technology fields tied 
to competitiveness; match federal and other sponsored investment in 
science; and attract and enhance research talent superiority in Texas. 
Several other states have similar mechanisms. Of course, State 
governments are also critical in supporting public research 
universities from an overall budget perspective.
    As part of the establishment of the third regional NRI center, the 
Southwest Academy of Nanoelectronics (SWAN), the State of Texas, the 
University of Texas System, and Texas industry collaborated to 
establish a complementary package of leveraged support. The resulting 
$30 million of matching funds is focused on attracting and supporting 
top academic researchers in nanoelectronics. Specifically, this is a 
three-way match, with the State of Texas contributing $10 million from 
the Emerging Technology Fund, the University of Texas System matching 
with $10 million, and the remaining $10 million being contributed by 
Texas industry for endowed chairs, including $5 million from TI.
    The other regional NRI centers provide similar State and local 
leverage to industry, NSF, and NIST funds. Overall, states are 
contributing approximately $15 million annually to the NRI in funding, 
equipment, and endowments, in addition to the major investments in new 
buildings. New York has provided significant research funding for the 
Institute for Nanoelectronics Discovery and Engineering (INDEX), as 
well as a major expansion of the College of Nanoscale Science and 
Engineering Complex in Albany. The State of Georgia, a partner in INDEX 
through Georgia Tech, has provided new facilities. The Western 
Institute of Nanoelectronics (WIN) Center has leveraged funds through 
the University of California's Discovery program. The recently-
established Midwest Academy for Nanoelectronics and Architectures 
(MANA) at Notre Dame has attracted Indiana State funds and even city 
resources from South Bend, as well as a commitment to a nanoelectronics 
building and adjacent innovation park for commercialization activities.
    While the states have provided these resources to the four regional 
NRI centers, it is important to note that the regional centers are 
``virtual'' and involve researchers from several universities outside 
these states, thus the local investments benefit research on a national 
level.
    The President's Council of Advisors on Science and Technology 
issued a five-year assessment report on the NNI in 2005. One of the 
recommendations was to increase federal cooperation with the states, 
especially by leveraging State research investments. Further, the 
report recognized the important role of states in commercializing 
nanotechnology research results. We agree with these conclusions and 
endorse the draft legislation's emphasis on the role of the states in 
nanotechnology.

Conclusion

    Thank you for the opportunity to testify on National Nanotechnology 
Initiative Amendments Act of 2008. The draft bill makes a number of 
improvements to the planning and implementation of the NNI. We strongly 
support the focus on areas of national interest, and specifically the 
language on nanoelectronics. The translation of basic research to 
commercialization must occur to ensure that the NNI maximizes the 
contributions to U.S. economic competitiveness and maintains our 
country's leadership in nanotechnology. TI and the semiconductor 
industry look forward to continuing to work closely with the Committee 
as this bill proceeds towards final passage.

                    Biography for Robert R. Doering

    Dr. Doering is a Senior Fellow and Technology Strategy Manager at 
Texas Instruments. He is also a member of TI's Technical Advisory 
Board. His previous positions at TI include: Manager of Future-Factory 
Strategy, Director of Scaled-Technology Integration, and Director of 
the Microelectronics Manufacturing Science and Technology (MMST) 
Program. The MMST Program was a five-year R&D effort, funded by DARPA, 
the U.S. Air Force, and Texas Instruments, which developed a wide range 
of new technologies for advanced semiconductor manufacturing. The major 
highlight of the program was the demonstration, in 1993, of sub-three-
day cycle time for manufacturing 350-nm CMOS integrated circuits. This 
was principally enabled by the development of 100 percent single-wafer 
processing.
    He received a B.S. degree in physics from the Massachusetts 
Institute of Technology in 1968 and a Ph.D. in physics from Michigan 
State University in 1974. He joined TI in 1980, after several years on 
the faculty of the Physics Department at the University of Virginia. 
His physics research was on nuclear reactions and was highlighted by 
the discovery of the Giant Spin-Isospin Resonance in heavy nuclei in 
1973 and by pioneering experiments in medium-energy heavy-ion reactions 
in the late 70's. His early work at Texas Instruments was on SRAM, 
DRAM, and NMOS/CMOS device physics and process-flow design. Management 
responsibilities during his first 10 years at TI included advanced 
lithography and plasma etch as well as CMOS and DRAM technology 
development.
    Dr. Doering is an IEEE Fellow and Chair of the Semiconductor 
Manufacturing Technical Committee of the IEEE Electron Devices Society. 
He represents Texas Instruments on many industry committees, including: 
the Technology Strategy Committee of the Semiconductor Industry 
Association, the Board of Directors of the Semiconductor Research 
Corporation, the Governing Council of the Focus Center Research 
Program, the Governing Council of the Focus Center Research Program, 
the Governing Council of the Nanoelectronics Research Initiative, and 
the Corporate Associates Advisory Committee of the American Institute 
of Physics. Dr. Doering is also a founder of the International 
Technology Roadmap for Semiconductors and one of the two U.S. 
representatives to the International Roadmap Committee, which governs 
the ITRS. He has authored/presented over 150 publications and invited 
papers/talks and has 20 U.S. patents.

                               Discussion

    Chairman Gordon. Thank you, Dr. Doering. You are absolutely 
right. We have got to do more than authorize. We have also got 
to follow up with those appropriations. Thank you.
    At this point, we will open ourselves for the first round 
of questions, and the Chair recognizes himself. There has been 
a lot of discussion this morning about health and safety, 
environmental concerns about nanotechnology. Let me tell you 
the reasons that I am particularly concerned about that. One is 
my seven-year-old daughter, and I know all of us have reasons 
of some nature, that same interest. The other is I want to make 
sure that America gets as much bang for the buck of our 
investment as we can. I want us to be first to market. I want 
us to be able to create jobs in this country built around 
nanotechnology. And as a son of a farmer, I am haunted to some 
extent about what I have seen with genetically altered grain. I 
have seen how it has been rejected, even though in my opinion 
we have had good research to the contrary around the world. I 
don't want that to happen here. I think that means we have got 
to get out in front. There are already 600 products on the 
market, and it concerns me that we are going to have a horror 
story with one out of 600, and it could put a taint on the 
entire industry.
    For that reason, the draft bill requires that 10 percent of 
the NNI's total funding be designated for the environmental, 
health, and safety research component area there at NNI. This 
would be about $150 million under the current 2009 request. 
Now, this is a provision that has been really recommended by a 
number of companies within industry, academia, NGO. It is 
consistent with the National Academy of Science 2006 review of 
NNI. But it is not unanimous, and Mr. Kvamme, you have stated, 
and I will quote, that it is misguided and may have the 
unintended consequence of reducing research on beneficial 
applications and on risk. So let me ask you, do you feel like 
your panel is satisfied with the current level of funding on 
health, environment, and safety?
    Mr. Kvamme. Well, as I mentioned in my testimony, we in our 
report, we call for increased spending in that area and 
particularly since the industry is picking up more and more 
research funding in the nano area, we think the Government's 
role will in fact change. As you know very well, the 2009----
    Chairman Gordon. Change in what direction?
    Mr. Kvamme. In an increasing direction. In the 2009 
request----
    Chairman Gordon. In an increasing direction? You said it 
was going to change. From what to what?
    Mr. Kvamme. More spending in the EHS area is requested and 
is happening. It is roughly double of 2006 numbers from $37 to 
$76 million in the 2009 area. So I think that will happen.
    Chairman Gordon. Did your panel discuss an appropriate 
level?
    Mr. Kvamme. We talked about what is happening and what is 
the strategy behind what is happening. We have not yet 
completed review of the NEHI report because it just came out in 
February, we looked more at what activities are in that we 
believe that the activities called for in that report and the 
subsequent EPA research strategy are appropriate things to 
fund, and we believe that these funding levels can support that 
level of research.
    Chairman Gordon. So would it be fair to say that you're not 
satisfied with the current level, think there should be 
additional spending but do not want to put a specific 10 
percent----
    Mr. Kvamme. I think that is a fair statement. Namely, we 
have encouraged the increased spending in this area. Now, the 
particular area that we do call out that we haven't mentioned 
yet is in NIOSH. We believe that the workplace is the most 
critical area, and we do call for an acceleration of the 
funding in the NIOSH area.
    Chairman Gordon. I know some the witnesses have a contrary 
view, and so what I would like to do is for each of the 
witnesses to respond to Mr. Kvamme's statement and see what 
recommendation you would have. And so we will start and just go 
straight down.
    Mr. Murdock. As I said earlier, we don't know the exact 
appropriate level for this funding. We think 10 percent is 
ultimately reasonable estimate but that should be determined by 
strategic planning process. I think Ray David, Dr. David 
mentioned the National Academy's BEST study which we have also 
supported to figure out what that number is. I think it is also 
important that we continue to make the investments in some of 
the characterization in metrology equipment, the measurement 
techniques in particular for the workplace exposure. 
Absolutely.
    Chairman Gordon. If there was a strategic review that 
determined that there should be a base-level funding, you would 
go along with that?
    Mr. Murdock. Correct.
    Chairman Gordon. Go ahead, sir.
    Dr. Krajcik. You know, this really isn't my area of 
expertise, so I will pass on comments with respect to this 
question.
    Chairman Gordon. As my mother said, if you don't have 
something good to say, just don't say anything at all. That is 
a good policy to follow. Yes, Doctor?
    Dr. Maynard. Let me just start by saying I very much agree 
with Mr. Kvamme that NIOSH is one of those agencies that is 
doing tremendous work with virtually no dollars to do it, and 
that is a critical area where more investment is needed if we 
are going to make real progress toward developing safe 
nanotechnologies.
    If you look at funding in general, one thing I think is 
indisputable. We need more money to do targeted H&S research. 
If we don't have more money, we will not get the answers that 
people need in order to make good decisions. And that means you 
have got to set some sort of guidelines, and you can do it one 
of two ways. You can either set a baseline level, say $100 
million, $150 million a year which are the figures that are 
being recommended, or you can set it as a percentage of the 
overall funding for nanotechnology research. I actually think 
it makes it simpler to set that 10 percent level, and it is a 
reasonable level. Any less than that, it is really hard to see 
how we are going to get the information we need in order to 
ensure the safety and success of these technologies.
    But that funding has got to be allayed with a strategy. You 
cannot just look at the dollars. You have got to understand 
where those dollars are going, what you are going to achieve 
with them, and if you don't have that strategy, if you don't 
have that accountability, you could put $100 million, $200 
million per year in this area and achieve absolutely nothing.
    Chairman Gordon. Dr. David.
    Dr. David. I think Andrew has made some very good points, 
and I agree with him. I think it is very difficult to come up 
with an exact figure and certainly a percentage probably is the 
most appropriate way to approach it. Whether 10 percent is the 
correct number or some other percentage, I think that that is a 
difficult question to answer without having some external 
recommendation. I can tell you that within industry, companies 
can spend anywhere from two to five percent of their budget on 
R&D efforts. Pharmaceutical companies, it is 15 percent. And 
that simply is a reflection of the kinds of products that they 
are generating or what is required to determine that those 
products are safe for consumer uses. And so 10 percent lies 
somewhere in between that number and is probably as reasonable 
a starting point as any. But I think it is probably an 
excellent idea to have the National Academies come back with an 
actual recommendation. That seems to make the most sense to me.
    Chairman Gordon. Just for your information, a part of the 
bill does set forth a strategic plan that we will develop for 
each agency. And so we hope to get that good advice, and the 
Academy is reviewing that plan now.
    And finally, Dr. Doering.
    Dr. Doering. The semiconductor industry is certainly very 
interested in ESH and feels it is an important topic. The SI in 
fact has a committee on environmental safety and health. The 
industry has two R&D consortia in the United States, the 
Semiconductor Research Corporation as well as Semitech which 
co-fund a center on environmentally benign manufacturing for 
semiconductors at the University of Arizona. It has partner 
universities around the country that are part of that center as 
well. In addition, the International Technology Roadmap for 
Semiconductors, which is a very detailed document, 
approximately 1,000 pages of the research needs that we have 
for our industry, the pre-competitive needs, has a whole 
chapter on environmental safety and health which goes into a 
lot of detail on very specific things, including some in the 
area of nanoelectronics.
    However, we haven't really done the kind of analysis that 
would put any particular number on what this need is. I 
definitely agree with most everyone else that some kind of 
analysis is appropriate to figure out what the plan would call 
for in terms of a figure, but the semiconductor industry can't 
suggest any number at this point.
    Chairman Gordon. Thank you, and Dr. Ehlers, excuse me for 
running over time, and that certainly will extend to you or 
others that might have a threshold question like that.
    Mr. Ehlers. Thank you. I timed it at 30 minutes. Seriously, 
a lot of good questions, good answers. But I would just like to 
thin this down a bit. First of all, how does the 10 percent, 
singling that out, how is it going to affect the other research 
that is done? Mr. Kvamme, I would like to have you give me some 
overview of how you see this working. Let me add another 
question to the mix. So many different agencies and 
organizations involved. We are using different bookkeeping 
methods. How are we going to specify the 10 percent and make 
sure that it is fairly administered? The two questions, how do 
you do it and how do you administer it fairly? Secondly, what 
impact is that likely to have on the other research programs 
out there?
    Mr. Kvamme. Well, let me try the second one first. That is 
part of the reason I inserted the graph that I did in my 
written statement which lists the 13 agencies that do EHS 
research against the five different question areas that the 
NEHI Report outlined as the questions. It seems to me what 
would have to happen, and I am no authority on governmental 
processes or appropriations or those kinds of things. That is 
not where I come from. But it seems like what you would then 
have to do is go down the 13 agencies and essentially say, 
okay, NIH, you have got to spend 6.7 percent, and NIST, you 
have got to spend X percent and EPA, you have got to spend 18.7 
percent, et cetera. You would have to do something because they 
set the goals. Somebody would have to then sum the total and 
say, we are at 9.6 percent, we need 0.4 percent and twist NSF's 
arm to increase their thing a bit or something like that. I 
don't understand that process. That is not what I am saying. So 
I think that is the practical issue that I see from our 
analysis because you have to understand, these organizations 
voluntarily joined the NNI. And in the early days of our first 
report, we were twisting arms to get people to become part of 
the program to start with. And by the way, are still twisting a 
couple of arms which we think are important to join, so the 
Department of Education will come along.
    So I think that is an issue relative to how you would do 
it, but that is in your hands. I just point that out as the 
practical thing.
    Now, obviously the other issue that you have is the $1.5 
billion supports a lot of buildings, a lot of instrumentation, 
a lot of other kinds of things. If you actually talk about 
dollars and cents going to researchers, the numbers, the $76 
million that is talked about now is probably pretty close to a 
high single-digit number. I can't say a specific number because 
I don't have that breakout at my hands, but it would obviously 
mean that the other research would be .9 of what it has been.
    But the other point that I would make that I think is very, 
very important to realize is that the applications research 
embodies EHS research in a number of areas. For example, at 
NIH, with our discussions with them, they have to worry about 
the health implications. The example I like to use is in 
isolation, nobody would agree to chemotherapy. It is not good 
for you. The plus is that it does good stuff. It eliminates 
cancer cells. And so you have to have that balance. Now, if you 
are working on a chemotherapy drug, are you working on EHS 
issues or are you working on cancer cures? That is a tough 
question to answer. And how many dollars are you allocating to 
the EHS piece of what you are doing versus the application 
piece. The way the numbers are done now, and I am sure the way 
Andrew came up with $13 million he says zero, I would suspect, 
for the EHS piece in that research. I don't happen to agree 
with that assessment, and I think the $68 million in 2006 is 
accurate.
    Mr. Ehlers. Thank you. A good example, your cancer case. I 
don't know if you saw the 60 Minutes program Sunday evening 
where they were injecting gold nanoparticles into patients, 
which are selectively absorbed by the cancer cells, then using 
radio waves to heat them up and destroying the cells.
    Mr. Kvamme. Amazing stuff.
    Mr. Ehlers. It is a classic example of exactly what you 
were talking about. No one knew what the impact would be, and 
it will take considerable time to find out.
    I appreciate your comments on that. Dr. Maynard, in a 
similar vein, you said you are not sure how these decisions are 
made, who decides? Dr. Maynard, you said you need leadership 
from the top. What do you mean by the top?
    Dr. Maynard. Somewhere above the federal agencies 
themselves, probably within OSTP. And I say that in going back 
to your question of how could you make this 10 percent work? 
You can see ways you could make it work if you actually had 
somebody at the top level who was working with the agencies to 
ensure that that 10 percent funding was actually being 
correctly allocated across the agencies. So you have got a 
partnership there. But that partnership would only occur and 
only succeed if you had coordination and leadership from the 
highest possible level within government. So that is what I was 
thinking about in terms of leadership. It is actually making 
sure that somebody is pulling the process forward rather than 
it being pushed forward from the bottom up, in which case you 
have got--it is pretty much lost whether you are going to do 
the right thing or the wrong thing there. At least with 
leadership you are sure you are heading in something 
approximating to the right dimension.
    I would also, if you will allow me, like to address the 
issue of what research is being done in the area of EHS issues 
and also whether that will impact on looking at the development 
of applications research and basic research.
    This is a critical issue because there is no point in 
funding basic research and applications research if we get the 
risk side of things wrong. We just will not see any of that 
translate into viable products. So we have got to put a 
realistic amount of our investment, our research investment, 
into understanding the risks. Now, the way we do that has got 
to be fairly sophisticated, and Mr. Kvamme was right. My $13 
million is specifically looking at questions that ask things 
like if you have this titanium dioxide, how am I going to use 
it safely. That is a question you won't find answered by 
looking at cancer research. It is a question you would only 
answer by asking very specific questions. But you have got to 
be more sophisticated than that. You have also got to look at 
how other areas of research can be applied to understanding 
environmental, safety, and health. And if you look at our 
written testimony, we actually delve into that level of 
sophistication. But the first and foremost thing we need to do 
is ask the obvious questions. How can you ensure the 
nanotechnologies being developed now are as safe as possible? 
We will not do that by trying to tag along to applications-
based research. We have got to ask those specific questions, 
and that is what is not being done at the moment.
    Mr. Ehlers. Dr. Krajcik, I just wanted to make a brief 
comment. Since I have spent so much of my life trying to 
improve math and science education, I agree with your comments. 
This is another example of an area where we desperately need 
education. I can see all kinds of horror stories getting 
propagated through the media about nanotechnology based on some 
incidents that might happen in the future, and the public just 
doesn't have the capability to decide. So education certainly 
has to be an important part of this.
    One last question. Dr. David, in your testimony, you 
commented, we need to, you had a whole list of things we need 
to do. My question is, who is going to pay for it? Would you 
expect industry to carry this out? Do you think that we should 
appropriate money to do all those different things?
    Dr. David. I think it has to be a coalition. I think that 
it has to be a coalition of industry, of government-sponsored 
programs that support academia, or support programs within the 
various federal agencies. The task can be so enormous and some 
of the development of technology can be so daunting that I 
think it will require that kind of coalition in order to get 
the answers that we need to do, at least in a timely fashion.
    Mr. Ehlers. Thank you all for your responses, your 
testimony. I was fascinated with this topic because it has such 
enormous potential, and it can change our lives in ways we 
can't imagine. And yet, I don't think we quite have a handle on 
how we are going to use it, what we are likely to find, and 
above all, what the dangers are. I am not one of these people 
who cries wolf at every corner, but I am afraid, given the 
history of what has happened with pesticides and other things, 
that the public and especially the public service agencies or 
entities will be waiting to jump on the first incident and try 
to create a Three Mile Island out of it. So we face a very 
ticklish job here together, and I appreciate your willingness 
to come here and help us understand it better.
    Thank you.
    Chairman Gordon. Ms. Hooley is recognized.
    Ms. Hooley. Thank you, Mr. Chair. I, too, am very concerned 
about the educational piece. There are a lot of things that I 
am concerned about in nanotechnology. I think it also has 
enormous potential for the future, and I appreciate all of you 
being here to testify today.
    When we had a hearing on this last fall, several witnesses 
spoke of the importance of early nanotechnology education for 
generating awareness and excitement about nanotechnology, 
particularly for young students and in fact the general public. 
Do you feel like this legislation accomplishes those two goals, 
how the general public views nanotechnology? Do you think 
people understand what nanotechnology is? What kind of a job do 
you thin we are doing with nanotechnology in our schools? 
Anyone on the panel that would like to answer? Don't be 
bashful.
    Dr. Krajcik. I think we have a long ways to go. I think 
some of the fundamental ideas that underlie nanotechnology our 
society is pretty naive about. Most people don't even 
understand where the nano-range lies. They have a hard time 
distinguishing--once something gets smaller than a cell or a 
hair, it is undistinguishable. It is not there. So most of our 
children, most of our adult population, does not understand 
even the scale that we are talking about, let alone some of the 
important underlying concepts. The wonderful thing about 
nanotechnology is it actually brought new ideas to us. Dr. 
Maynard raised some of these. We now know that when you get 
down to the nano level, materials now get new properties.
    Ms. Hooley. Right.
    Dr. Krajcik. Those ideas aren't even in our science 
textbooks. We have science textbooks out there that don't have 
those ideas in them. Kids are learning that, you know, 
properties are always the same. They don't learn the idea that 
as you change scale, properties change. We have a long way to 
go. Our country is in serious, serious trouble when it comes to 
educating our children and the population with respect to 
nanotechnology. We have some efforts, you know. I know that the 
NISE network, informal science education group, is trying to do 
something through the museums, the Nanoscale Center for 
Engineering and Science is doing things, but we have a lot more 
that we have to be able to do because it is not pervasive in 
our schools, it certainly does not appear in any of our 
standards, and unless it gets into our standards, unless we 
start testing for it, we are not going to see it in schools. So 
we have a long ways to go if we are really going to make a 
difference.
    If you want to speak about safety, our kids can't decide--
you know, no one knows--you mentioned sunscreen. We don't know 
when you put this--you know, we don't see the white stuff on 
our face anymore. That is good, we look nice when we are at the 
beach and it keeps away the ultraviolet light, but we don't 
know if it is harmful to us, and we don't have the resources. 
People generally don't have the resources to make that 
decision. They don't even know, should I be worried about it? 
That's a problem. You know, we can make the decision that, 
okay, I am going to put this on, and it might penetrate my 
skin, and it might do something bad to me 30 years down the 
line. But people should be able to make that decision, and 
right now they don't have the intellectual resources to even 
make those kind of decisions. So I think we have a lot of work 
that we have to do to educate our country so we are more 
informed citizens.
    Ms. Hooley. What is the one thing that we should do to in 
fact make the public more aware, make sure that our students 
are more aware of nanotechnology, of what is possible in 
nanotechnology, as well as what are some of the problems with 
nanotechnologies?
    Dr. Krajcik. I wish I could say it was one thing. It isn't. 
It is a big complex system, right?
    Ms. Hooley. You can give me two or three things, yeah.
    Dr. Krajcik. So that is what I tried to outline very 
clearly. I think we really have to do sustained professional 
development. I think we have to change our national science 
education standards. They did our country good, but they are 
old, and they need to get revamped with new, emerging ideas in 
science. We have to have new instructional materials. We have 
to provide resources for our classrooms and we have to change 
our undergraduate programs, both science courses but also our 
teacher preparation programs. Unless we do all these things, we 
are always going to be in this mess that we are in this 
country. We will never see ourselves back in the forefront with 
respect to science.
    Ms. Hooley. For any of the panelists, how involved do you 
think businesses need to be in helping us reach the public in 
general and our educational institutions. Dr. Maynard?
    Dr. Maynard. Very involved, but I think this is something 
that both business and government have got to be involved with 
simply because you have got the two sides of education. You 
have got to side of education where you are enthusing people so 
that they really understand and invest time and effort into 
nanotechnology to become the next generation of 
nanotechnologists. But also, you have got the side of 
empowering people to make informed decisions and actually 
engage in the process of nanotechnology and science in a 
broader sense. That cannot all be done by industry. Some of it 
has got to be done in partnership with other organizations 
including the government.
    Ms. Hooley. I am just curious again----
    Chairman Gordon. Ms. Hooley, if you don't mind, I am sorry. 
We are going to have to be a little stricter on our five 
minutes. We are going to have votes in 10 or 15 minutes----
    Ms. Hooley. Thank you, Mr. Chair. I can take----
    Chairman Gordon. And we will get back to you if we----
    Ms. Hooley. I would love to just--want to have a dialogue.
    Chairman Gordon. Oh, this is very important. Hopefully, 
this will be the start of an ongoing dialogue, both formal and 
informal.
    Ms. Biggert, you are recognized for a crisp five minutes.
    Ms. Biggert. Thank you, Mr. Chairman. Mr. Murdock, I have 
been amazed at the rapid growth of nanotech startups in my 
district, many of which I think you are familiar with. Many of 
these startups are commercializing nanotechnologies developed 
from basic nano research at places like Northwestern or the 
Center for Nano Materials at Argon. Do these start-ups face the 
same challenges that other small start-ups do, or are the 
challenges different because they are trying to build business 
around nanotechnology?
    Mr. Murdock. Thank you very much. I believe that some of 
the challenges are the same, and some are, I'll call it more 
acute. These start-ups are different than software information 
technology based start-ups. They require more capital, and they 
require a much longer involvement cycles. You know, this isn't 
a business model that, you know when I was at Kellogg, friends 
could leave and start a company and scale something out in a 
couple years on a couple million dollars. It takes a lot 
longer, and it takes a lot more investment to make it go. And 
so we often talk about the Valley of Death, the period between, 
you know, the formation of the company when you start to 
generate revenues and cash flows, and many of these 
technologies that come off, whether they be argon federal 
laboratories where the start-ups are platform-oriented 
technologies. And there is a fair amount of research and 
development to make it robust, repeatable, scalable, and all 
those wonderful things before you can actually manufacture a 
product on it and create revenues. And that is where, you know, 
programs like DSBR, STTR, and the TIPR are very----
    Ms. Biggert. So do you think that the tech transfer 
provisions in the draft bill will address these unique 
challenges?
    Mr. Murdock. I think that they will be helpful. I think 
there are other--you know, I understand the SBIR 
reauthorization is coming up and there are some changes in that 
program that will also be helpful. So they certainly moved the 
needle in the right directly and will help the efforts to 
commercialize these technologies.
    Ms. Biggert. Dr. Doering, do you think that the bill will 
help these challenges?
    Dr. Doering. One of the aspects that hasn't been mentioned 
yet with regard to that is the role of the states which is 
encouraged by the bill. The states obviously have a lot of 
interest in creating jobs locally and new business locally. And 
as I mentioned in my testimony, we have had some success 
through our consortia in working with the states, and I believe 
that role we need to continue to encourage.
    Ms. Biggert. Again, Mr. Murdock, Dr. Doering, there has 
been a lot of talk today about what the government can and 
should be doing and to what degree, 10 percent more or less, to 
address EHS issue. What role can business play, and what role 
should business play to address EHS issue and help American 
consumers better understand the health and safety implications 
of nanotech technology and nano products themselves?
    Mr. Murdock. If I could respond to that briefly, obviously 
businesses are responsible and accountable to make sure their 
products are safe. That is true for nanotechnology, that is 
true with everything. And you know, the member companies--it is 
important to understand that most of these companies are 
ultimately in the research phase. They are helping a prototype. 
Most of these technologies are not yet to the market, but they 
need to do the safety testing and they do based upon what is 
known and to ensure that those are safe.
    The government, you know, we have talked about needs to 
develop the standards and the characterization protocols if you 
will to characterize these materials and the test methods to 
continue to evolve those based on the stated science to having 
our best understanding of what is in fact safe. And then 
industry needs to apply that.
    As just a little segue, members of the NanoBusiness 
Alliance have invited NIOSH to their facilities, to monitor, to 
take measurements on the site of the air quality, to test for 
nanoparticulate matter in the air. Members are participating in 
the EPA's voluntary nanomaterials stewardship program. And so 
there are businesses engaging in those ways and trying to help 
provide the information to improve our state of knowledge.
    Ms. Biggert. Dr. Doering, do you have anything to add?
    Dr. Doering. Yes. Speaking for the semiconductor industry, 
as I had mentioned earlier, we take ES&H very seriously. Most 
of us have very large ES&H departments within our companies 
that work closely with the parts of the Federal Government that 
help control new materials generally, whether or not they are 
classified as nanotechnology. As new nanomaterial come along, 
we take a very hard look at each one before incorporating them. 
We are also interested in the educational aspects on this. We 
primarily do that in collaboration with each other through our 
trade association, the Semiconductor Industry Association which 
has sponsored some studies in this area. And we would be glad 
to work through them, and the Federal Government, in any 
further education a program.
    Ms. Biggert. I guess we have gotten over the Michael 
Creighton book, Prey. Thank you very much. I yield back.
    Chairman Gordon. Thank you, Ms. Biggert. Thank you. Ms. 
Woolsey is recognized.
    Ms. Woolsey. Thank you, Mr. Chairman. I actually sit here 
today as an example of the benefits of nanotechnology. On March 
5th I had huge back surgery. Here I am, back at work, have been 
for the last three weeks, and I have some of the brilliance of 
your industry implanted in my back. So thank you very much.
    I agree with what you are saying. Luckily we have three 
Members on this committee, myself, Congressman Ehlers, and 
Congresswoman Biggert who are also on the Education and Labor 
Committees, and we will be reauthorizing, fixing, making 
better, No Child Left Behind. Therefore, I was looking out 
here, you are a beautiful man, you are great, but you are all 
white, you are all within 10- or 15-year span there. We have 
got to get every kid and every young person involved in the 
future of this country which is the new technologies, the 
nanotechnologies, the green technologies, that we are going to 
be able to keep in this country hopefully, not come up with all 
the good ideas in science and then give it away to the rest of 
the world. We have to do that.
    So, I am going to tie this right back now to education and 
labor and No Child Left Behind. I would like to know from you 
what has your association, or what have you done yourselves in 
order to give us feedback on what is missing in this picture? 
We have got to hear it from you. Have you been participants?
    Mr. Kvamme. If I could make a couple of comments, the first 
thing is open up. We live in a society--my parents were 
carpenters. Yours were farmers, the Chairman indicated. You 
could know what your parent did for a living. That is no longer 
true for many people today. I had a unique experience some 
years ago which I will never forget. We had our company picnic 
where 1,000 usually came of our 9,000 employees. We decided, 
hold it in the plant, have an open house, and 23,000 people 
showed up. People want to know what Mom and Dad do for a 
living, and we don't do that very well in our industries, and 
we don't do it because of legal concerns, insurance concerns, 
et cetera. We have got to change that. We have got to open up, 
and if there is any way legislation can do that, I highly 
encourage it. I am no expert in legislation, but open up our 
companies so people don't drive down some rows of buildings and 
haven't a clue what is going on in those buildings.
    The second thing I would say is that when you are talking 
about education, you have got to be careful. This is the point 
I tried to make in my testimony relative to nanotechnology and 
technology. What we have found is people don't go into 
technology, they go into curing cancer, they go into doing 
better energy research. They go into----
    Ms. Woolsey. Fixing my back.
    Mr. Kvamme.--going to the Moon. They go into application 
kinds of things, and nanotechnology is a tool to that end. What 
we have learned at the University of California-Berkeley where 
I serve on the engineering advisory board is that this center 
for information technology in the interest of society, CITRIS, 
is drawing students right and left because they see end 
applications for getting that double-E degree, that ME degree, 
whatever degree it is. They want to see societal things. I 
think as you introduce that to youngsters at an early age, kids 
are fascinated by this stuff, but they want to see, so what.
    Ms. Woolsey. Right, they want the end result.
    Mr. Kvamme. What do we got to do? So what?
    Mr. Murdock. If I could build on that for a second, the 
question was asked earlier about business's role in educating 
the general public, and I think we are just starting to move 
into the second wave of nanotechnology commercialization where 
you're really seeing some of these, you know, very exciting, 
transformational applications like solar energy. There is a 
portfolio of companies that are really changing the cost 
structure of solar energy so that we are going to see, you 
know, meaningful new penetration of that technology. Obviously, 
the 60 Minutes episode was just referenced in terms of 
addressing cancer. And so as more and more of these compelling 
applications come to market, I think it will inspire. There is 
an old saying, success is one percent inspiration, 99 percent 
perspiration. Having said that, if you don't have the 
inspiration first, you don't undertake the perspiration to 
follow. And so I think we will see more of that.
    The other thing that we have said in our previous testimony 
on this issue is that we think it's important that people also 
think about education from the student's view, and not just the 
teacher. We absolutely agree with all of the investments that 
need to be made, right, in terms of teacher capability 
standards and all of that but to also adopt a student-centric 
view of the world, engage in more self-directed learning and 
inquiry-driven learning that is applied and helps people relate 
as they are educated to adult benefits in the applications 
associated with it.
    Chairman Gordon. Thank you, Mr. Murdock, and thank you, Ms. 
Woolsey and we are glad that you are our example.
    Ms. Woolsey. You like my back. Yeah, I am a good example.
    Chairman Gordon. And now the temporary but not ostracized 
Ranking Member, Mr. Rohrabacher, is recognized for five 
minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I have 
a little cold today. By the way, in the future, do you think 
nanotechnology is going to help me with my cold? Is that 
possible? Eating up those little bacterias or whatever that I 
caught from my children?
    Let me say something, and you tell me if there is anybody 
who disagrees with this. From what I am hearing today, that 
everybody on the panel believes that nanotechnology has such a 
great, significant promise for our society, that it should be a 
priority for the government and society to work to develop it 
and to prepare for it. Would you all agree with that, it should 
be a priority for us? Let me tell you, the biggest impediment 
that I have seen to progress is that people who believe things 
that should be a priority for our society are unwilling to 
prioritize, and I will tell you that we don't need people to 
come here and tell us simply to spend more money on something. 
Everybody will tell us to spend more money on something. What I 
need from you gentleman is for you to tell me exactly how 
important it is compared to something else that you would like 
us to get the funding from, because I am open to that idea. For 
example, fusion was a great dream. I mean, ever since I was a 
kid, I saw little films on fusion was going to come along. We 
spent billions of dollars on fusion research, and it continues 
today. I have asked people, you know, what is the potential of 
that, and they say, we will know if you just spend another 
billion dollars we will know what the potential is. Well, you 
guys seem to know what the potential of nanotechnology is. Do 
you think we should--is it fusion or somewhere else you can 
point to where we are spending a lot of money in research that 
this should have a priority over? Anybody on the panel is fine.
    Dr. Krajcik. You know what? I will say that for every penny 
we spend on nanotechnology, we also have to spend money on 
education and the reason why----
    Mr. Rohrabacher. All right. Let me get to that.
    Dr. Krajcik.--is that we cannot raise a public----
    Mr. Rohrabacher. Let me get to that. I want a priority 
here. I want where you are going to tell me where not to. I 
don't want you to go on another education speech.
    Dr. Krajcik. I am not going to go on an education speech.
    Mr. Rohrabacher. Where is something that you want to de-
fund? Nothing. Now, let me tell you something. You can come 
before this panel----
    Mr. Kvamme. I would be happy to give you a suggestion.
    Mr. Rohrabacher. So what is it? What have you got for me?
    Dr. Krajcik. Fusion. You can de-fund fusion.
    Mr. Kvamme. By one count that we did, I think there are 220 
different federal programs of some $10 million apiece for tech 
education K-12. There is no way that is an efficient spending 
of money.
    Mr. Rohrabacher. There is no way what, now?
    Mr. Kvamme. There is no way that is efficient spending. You 
can't have 210 or 220 programs and be efficient. I would look 
at those and try to figure out a way how to spend half the 
money but do it more efficiently.
    Mr. Rohrabacher. Okay. So you don't want to de-fund, you 
want us to make it more efficient. Isn't there anybody that 
ever----
    Mr. Kvamme. I will cut it in half.
    Mr. Rohrabacher. Well, can someone come here and tell me 
what area of research is now wasted as compared to the money 
that you want to spend on this? No? Okay. Well, let me tell you 
something. People in the scientific community should not come 
to Congress and tell us that they are willing to say how 
important something is unless they are willing to compare it to 
what something is less important because that doesn't mean 
anything. We have a limited budget. We want to do what is right 
by that budget. I personally would think that nanotechnology 
should receive a large portion of the money that we should 
spend or that we will save by eliminating fusion energy 
research because it hasn't panned out.
    Back to education, to my friend who was about to talk about 
education, one of the problems that we have found on this 
committee is that sociology teachers and history teachers and 
English literature teachers and physical education teachers and 
basket weaving teachers in high school are demanding that they 
receive the same pay level as mathematics teachers and science 
teachers. Do you support a differential in pay that would 
permit schools to pay more money in education to mathematics 
and science teachers?
    Dr. Krajcik. I think we have to have high quality math and 
science teachers.
    Mr. Rohrabacher. But you are not willing to say spend more? 
There is the other thing. There are these heavy interest groups 
in our society. We know the teachers unions are not going to 
support somebody else getting more money because it happens to 
be important for our society.
    Dr. Krajcik. Well, if it takes getting good science 
teachers, and we need good science teachers, if it takes paying 
them more money, then we should pay them more money.
    Mr. Rohrabacher. Pay them more money than the other 
teachers?
    Dr. Krajcik. The way we can attract our best graduates to 
go onto science teaching?
    Mr. Rohrabacher. Yeah.
    Dr. Krajcik. Then I would say let us give them more money.
    Mr. Rohrabacher. It is the only way we are going to do it 
and it is----
    Dr. Krajcik. If that is the case, then I think we should do 
it because we have a lot of really smart people, and we really 
need them in education.
    Mr. Rohrabacher. And we can sing their accolades all day 
long, but the bottom line is we want more young people to get 
involved, we want higher quality math and science teachers, we 
have got to pay them more money, and we have got to pay more 
money to our engineers and our scientists, rather than having 
them tied to sociologists and political scientists, whatever 
that word is.
    Chairman Gordon. Thank you, Mr. Rohrabacher, and we hope 
you feel better. Now, Mr. Honda, we are glad that you joined us 
today, and you are recognized.
    Mr. Honda. Thank you, Mr. Chairman, and I think I share Mr. 
Rohrabacher's frustration about the constant barrage of 
criticism about we need to do more in education. I don't think 
that comes when Woolsey's question was answered. She asked what 
is it that you have done, rather than telling us what you think 
are some of the factors. And I am sure that Dr. Krajcik is a 
professor of education and he has spoken about the kinds of 
things that need to be done in the area of teacher preparation 
and curricula and those kinds of things. And if you are 
suggesting there are over 200 programs that could be cut that 
is in education, I would like to know how diverse those 
programs are before they are consolidated or cut because the 
last eight years, my friend, you know that education and 
everything else has been cut, including ATP and other things 
that require innovated people to be funded to--along.
    So I think the idea of participating and following through 
with some of the ideas you do have about how to improve 
education would be of great help, but being a teacher myself, I 
want to take this moment, Mr. Chairman, if I could and I will 
just tell you that all those programs and all the subject 
matters are important for the development of a good citizen and 
for development of a society that can reach its highest point. 
Music, performing arts, they are all embedded with science, and 
like nano, you know, once we understand nano, we understand 
that everything that functions in this world is at a nanoscale, 
it is just that we are just getting there. You can't take nano 
away from technology and expect that things are going to be the 
same. We suspect that with nano, you know, messing around in 
that whole area, would push Moore's Law another 150 years old 
and probably more.
    And so I don't disagree that we should be putting money 
into basic research. I don't disagree that we should be putting 
money from the feds to partner with industry and--research to 
get beyond the gap or the value of this so they can get to 
commercialization. But I think that terminology or rhetoric 
that is so broad without detail rings hollow to me, and I 
appreciate this dialogue. I think the dialogue is needed to be 
said, and when we concern about ourselves with other countries 
and say they are doing better than we are, I think we better be 
prepared to have the details there because, you know, when 
people say China has 300,000 engineers, you better be prepared 
to say, of those how many are the kinds of engineers and 
technologists that we have that think new things rather than--
be it civil engineers or other kinds of engineers that they 
need for their own development of their infrastructure in their 
own country.
    So I think that if you can be precise, then our terminology 
needs to be precise, so we can solve the kinds of problems we 
face as a country together and then move forward without the 
fear of fear and invest in our own children in the proper way. 
And that challenge will have to go right down to how we plan 
our cities, how we look at the issue of equity because the way 
we do things with education is not equity, it is parity. Unless 
we are willing to change our whole assessment of what a 
neighborhood is, what a school is, and how we fund our 
children, then we are not prepared to move forward in 
education. And just like nanotechnology, it is an eye-opener. 
Things change when we get to that point. And I appreciate your 
work, all of your work, in the area of nano because I will have 
a better fishing pole as a result.
    Thank you, Mr. Chairman, for letting me wax on.
    Chairman Gordon. Thank you, Mr. Honda.
    Mr. Murdock. If I could make just one quick comment? In 
terms of what we are doing, the nanotech companies are 
relatively small in the grand scheme of things, but we are 
starting the process of addressing this education. Several 
member companies that are in the instrumentation business have 
done R&D to create lower cost machinery so that we can get 
something that is viable to get into the community colleges and 
the classrooms so that people can have those hands-on learning 
experiences, one. Two, the Alliance itself is working with 
companies to try to set up an internship program in some of 
these pioneering nanotech companies so that folks can 
experience firsthand some of the transformational work that is 
taking place to lead that inspiration. It is not going to solve 
things, and it is not going to do it overnight by any stretch 
of the imagination, but it is a start and you got to start 
somewhere.
    Chairman Gordon. Mr. Honda, let me just--I shouldn't have 
to remind everyone but I will once again that last year this 
committee passed out on a bipartisan basis, the President 
signed last August the America COMPETES Act. The America 
COMPETES Act does a variety of things. It doubles our 
investment over a seven-year period in the National Science 
Foundation, in NIST, in the Office of Science within the 
Department of Energy. It also goes to the issue of our students 
in the math and science area, recognizing that it all starts 
with the teacher and that we certainly are as bright as any 
other country around, but you have to have teachers that not 
only know how to teach but also have a core knowledge within 
that subject area.
    Just very quickly, one of the things we discovered was that 
63 percent of the middle school math teachers had neither a 
major nor a certification to teach math. Ninety-three percent 
of the physical science teachers had neither a major nor 
certification. So no matter how good you might be in terms of 
your ability, you have to have a core knowledge; and that is 
why within the National Science Foundation, there is a program 
called the Noyce Scholarship Program that we scaled out that 
will provide scholarships for those students that want to go 
into math or science and education and agree to teach for five 
years. It will also bring back those good teachers that need 
more course work, a stipend for them to come in the summer. 
They will then be able to get their AP course, their master's, 
certification, whatever it might be. There will be scholarships 
for those folks that want to go into pure research. We really 
don't have to argue about this much longer. I mean, we have a 
plan. When Norm Augustine brought in his group that reported 
back on the Rising Above the Gathering Storm, I told him that 
they didn't bring us anything we didn't know. They just put it 
in a good package. We said we don't need to study it anymore, 
we just need to do it and that means funding it. And I have a 
letter here that I think it was 225 of the major industries 
have signed recommending that, as I say, Mr. Ehlers in a 
bipartisan effort and Ms. Biggert, who is not here now, are 
trying to do.
    So hopefully we are going to be able to see that funding 
and from that we are going to see the realization of what we 
have all been talking about. Mr. Lipinski, a beneficiary of 
that math and science education is here and, before we hear the 
bells ring, is recognized.
    Mr. Lipinski. Thank you, Mr. Chairman. I have stated many 
times before, I have drunk the Kool Aid on nanotechnology, but 
I don't want anyone to think that because I walked in here with 
a camera I was that excited in coming to take your pictures 
here. I just came from the White House with seeing the Pope 
there, so I just wanted to make sure I got back here as soon as 
I could because I wanted to--I know how important this is. I 
believe it is critical that we really do have an investment on 
behalf of the Federal Government in nanotechnology. It is 
really critical for our future.
    In one area that I wanted to ask about, let me throw this 
out to whomever wants to pick up on this, I want to ask about 
nanoelectronics. It is certainly an important field, and I am 
just curious to hear a little more about what is going on in 
nanoelectronics, what research is being conducted, what are 
really the key things that the research is focusing on right 
now.
    Dr. Doering. I guess I will take that one. Nanoelectronics 
research right now is really focused on how do we replace this 
incumbent technology that we call CMOS for short. It is just an 
acronym. I won't go into the details. But it is a technology 
that we have used for over 30 years now. It is the workhorse of 
all electronics, big and small, that you see throughout the 
world today, and we have been miniaturizing it, or scaling it 
we like to say in the industry, for these 30 years and it is 
reaching some pretty fundamental limits in terms of what it 
costs per function, to try to make it smaller, what its energy 
efficiency is, what its speed can be, how much density of 
storage of information you can get with it. And so the really 
big, grand challenge that the industry is looking at right now 
in nanoelectronics is how can we find a new component, 
basically a new transistor which is the guts of CMOS that can 
take us to the next level in cost and energy efficiency and 
just pure performance. And so this is basically the challenge 
that nanoelectronics research initiative has taken up 
partnering so far within NSF and NIST and the Federal 
Government and with a number of states across the country, and 
we are hoping that before we have a situation where CMOS 
completely runs out of gas that we definitely have a new switch 
that can replace today's transistor.
    Mr. Lipinski. Anyone else?
    Mr. Kvamme. May I could comment. You specifically said 
electronics, but as you probably know, there are an awful lot 
of things going on in photonics where photons are replacing 
electrons to do certain functions, particularly in the 
communications sector. And today, you know, we are able now to 
put 80 simultaneous TV channels under a single fiber. That is 
largely due to what is happening from the standpoint of the 
constant miniaturization of what is going on in the photonics 
world as well, so that is another example.
    Sean mentioned, and I am familiar with a company that is 
using nanomaterials from the standpoint of depositing solar 
cells, so they lower the cost dramatically. Again, not 
electronics, that is material science, but it is still nano and 
it is going to affect electronics, because it creates electrons 
in that particular case. So there are two other examples, 
photonics and energy----
    Mr. Lipinski. Well, I am going to jump in there. You 
mentioned about solar. What else is going on in terms of nano 
research and development in regard to energy? What kind of 
projects are going on right now?
    Mr. Murdock. I think there is tremendous activity and yet 
opportunity for more with respect to nanotechnology and energy. 
I think there is clear recognition now of the immense potential 
impact of using nanomaterials for solar energy to absorb more 
of the energy spectrum and to use different processes. The way 
we make most conventional solar cells right now is a lot like 
the way a Pentium chip is made, you know, polycrystalline 
silicon and an expensive fab, et cetera. The new approaches are 
using nanomaterials and doing them in more roll-to-roll 
processes which is more analogous to the way a newspaper is 
printed. So that is one big area. Another is in battery 
technologies. There is a lot of work with improving lithium 
batteries, charge rates, and that but not just that. 
Fireflights, an Illinois company, has figured out how to 
essentially get the lead out of lead acid batteries and give 
new life to that technology which then becomes an important 
part of an integrated solar energy system. Fuel cells, I think 
if you look down almost every aspect of energy, the frontier of 
what is being explored, nanoscience will improve the efficiency 
and effectiveness of those technologies.
    Chairman Gordon. Thank you, Mr. Lipinski, for blessing this 
hearing and now we will yield five minutes to Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman. Actually I am kind 
of proud to be here because I am from the home state of 
California, and in California, the California Nanosystems 
Institute was founded back in 2002; and two UC campuses who 
have been very engaged in that process was both UCLA and UC-
Santa Barbara which I attended both of them. So this subject 
matter is of great interest to me as well.
    I just wanted to ask one quick question, and I think it is 
to Dr. Maynard's office and some of the work that you have 
done. What can we learn from the European Union's approach to 
nanotechnology risk research?
    Dr. Maynard. I don't think anybody has really got this 
fixed yet, but if you look at what Europe is doing, they are 
taking a formal strategic and systematic approach to risk-based 
research. So they are currently in their seventh framework 
research program where they are investing a lot of research 
across the board in nanotechnology. But they have specifically 
focused a number of very targeted research programs asking very 
specific questions, like what is the toxicity of certain 
nanomaterials, how do you measure exposure to nanomaterials, 
and half-a-dozen other projects. What they are doing is they 
are starting out by asking what do we need to know if we are 
going to make this technology succeed, and then they are asking 
groups of researchers to address those very specific questions. 
And they are putting a lot of money into it as well. But they 
are also doing something else which really isn't occurring in 
the States, and that is they are partnering between government 
and industry. And so every European research project that comes 
out also has its industrial partners, and that means not only 
are you leveraging money from within government and industry 
but you are also using the expertise that you have within those 
industrial partners who are developing the applications and the 
technologies which we hopefully are going to see being used. So 
that is a big difference there. And of course, I show even back 
as far as 2006, if you look at research which is primarily 
focused on understanding risks of these very, very specific 
questions, they are actually investing or were investing more 
in Europe than we were in the United States.
    Ms. Richardson. Thank you, Mr. Chairman.
    Chairman Gordon. Thank you, Ms. Richardson. And before we 
close, let me also give my thanks to Ranking Member Hall for 
being a part of the bipartisan group that is signing the letter 
to the appropriators and the President asking for additional 
funding and supplemental for our math and science education and 
for the COMPETES bill. Let me also say that I think this is a 
good work, although this is a work in process, that we have a 
good draft here. We welcome the good advice we have, we want to 
get additional advice, we want to get the best bipartisan bill 
that we can put together on this very important subject. And so 
I thank our witnesses for being a part of that today. We will 
leave the record open for additional Members that have 
questions, and with that, the witnesses are excused and the 
meeting is adjourned.
    [Whereupon, at 11:52 a.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions
Responses by E. Floyd Kvamme, Co-Chair, President's Council of Advisors 
        on Science and Technology

Questions submitted by Chairman Bart Gordon

Q1.  Is the President's Council of Advisors on Science and Technology 
(PCAST) satisfied that the NNI is adequately coordinating 
environmental, health and safety research internationally so as to 
avoid unnecessary overlap and to gain maximum benefit from the overall 
international research investment?

A1. Yes. As noted in PCAST's second review of the NNI: ``The [National 
Nanotechnology Advisory Panel] NNAP has paid particular attention to 
EHS funding and current research efforts in this review. The panel 
finds that from a scientific point of view, while there is still plenty 
to learn, the research being funded is leading to an ever-increasing 
body of knowledge about EHS issues. Budgetary support for EHS has been 
growing at a rate well above that of the entire NNI program and, as 
such, the panel believes it is of the right order of magnitude to 
continue building knowledge of EHS issues as knowledge of the science 
increases. The panel does note that if expenditures of other countries 
in the global economy were as significant in the EHS field as those in 
the United States, and with ongoing, appropriately multinational 
communication efforts, the entire field would benefit greatly.'' \1\
---------------------------------------------------------------------------
    \1\ See http://www.ostp.gov/galleries/PCAST/
PCAST<INF>-</INF>NNAP<INF>-</INF>NNI<INF>-</INF>Assessment<INF>-</INF>20
08.pdf
---------------------------------------------------------------------------
    The NNI maintains a leading role in coordinating EHS activities 
internationally, particularly within the Organization for Economic 
Cooperation and Development (OECD) and the International 
Standardization Organization (ISO). The U.S. (EPA) chairs the OECD 
Working Party on Manufactured Nanomaterials (WPMN), which is the body 
that is leading efforts to share EHS information and coordinate the 
collaborative development of information that is needed by governments 
and industries worldwide. The WPMN also interfaces with the broader 
strategic policy coordination under the Working Party on 
Nanotechnology, which is also chaired by the U.S. (Department of 
State). Also, Clayton Teague, director of the National Nanotechnology 
Coordinating Office (NNCO), chairs the U.S. ANSI-accredited Technical 
Advisory Group and heads the U.S. delegation to the ISO technical 
committee on nanotechnologies, which is working to develop standards 
for instrumentation, reference materials, test methods, and EHS 
practices. ISO standards often are adopted widely. PCAST endorses the 
NNI's continued participation and leadership in these activities, which 
it called for in its first report as the National Nanotechnology 
Advisory Panel (NNAP).

Q2.  The NNTI Advisory Panel in its recent assessment of the program 
encourages investment in infrastructure and instrumentation under the 
NNI.

        <bullet>  Does the Advisory Panel believe the current 
        allocation of resources is adequate to maintain the existing 
        facilities and provide for upgrades as needed to keep them at 
        the leading edge of technology?

        <bullet>  Did the Advisory Panel assess whether the 
        capabilities of the current facilities are meeting the needs of 
        the research community in terms of accessibility and 
        capabilities of the available instrumentation and equipment?

A2. The NNAP assessment of the NNI is conducted at a high-level in 
terms of the performance of the NNI program as a whole. The panel 
believes that resource allocation for facility maintenance and 
accessibility is generally adequate and appropriate and needs to be 
sustained. As noted in the report, the infrastructure and 
instrumentation developed through the NNI is a preeminent feature of 
U.S. leadership in nanotechnology and constitutes a lasting legacy of 
the initiative. As instrumentation and methodologies for nanotechnology 
research continue to be developed, this structure of centers, networks, 
and user facilities serves to incorporate the state of the science and 
make it available to the maximum number of researchers in academia and 
industry, primarily for pre-competitive, non-proprietary research but 
also with an eye towards technology transfer and commercialization, as 
appropriate. For example, in the DOE Nanoscale Science Research 
Centers, user access is allocated via merit-based peer review of 
proposals from qualified researchers. Use of the facilities and staff 
assistance are provided to users free of charge, provided that the 
results of the research are published in the open literature. 
Proprietary research of merit can also be conducted at an NSRC on a 
full cost recovery basis. Beyond the user facilities, most NNI-funded 
research centers are open to collaboration with industry, and in some 
cases industry participation is a requirement for successful proposals 
(for example, NSF and NCI centers).
    To date much of the investment of the NNI has been to build and 
resource the research facilities that now make up the 81 centers, 
networks, and user facilities that constitute the backbone of the NNI. 
In the coming years, NNI funding will shift from building to 
maintenance and increased support of the research these facilities were 
designed to carry out. Current budget levels should be adequate to 
support this next phase of the program.

Questions submitted by Representative Ralph M. Hall

Q1.  What are the successes of the NNI over the past five years? Does 
the draft before us preserve the elements that led to these successes? 
What parts of the NNI have failed? Are there elements the Committee 
should consider terminating?

A1. The recent PCAST report on the NNI lists examples and case studies 
in a variety of areas of the progress towards real-world applications 
resulting from the NNI. But the overarching success of the NNI has been 
the leadership and competitive edge that it has afforded the U.S. in 
the development and expansion of this novel area of technology 
development. Given the fact that spending in nanotechnology in Europe 
and Asia are approximately the same as U.S. spending, it is a credit to 
the NNI that America is still considered the leader across the many 
areas nanotechnology impacts. Thus, given the significant implications 
that nanotechnology development holds for nearly every industry, the 
additional attention and support that the NNI has brought to bear has 
been and remains critical for the U.S. to lead the world in 
capitalizing on the economic and societal benefits.
    I believe the draft reauthorization presents an opportunity to 
support the NNI by maintaining the high-profile of nanotechnology and 
stressing the importance of ongoing interagency, cross-sector and 
international coordination. However, the current draft does appear to 
add unnecessary administrative burdens tending towards micro-management 
and that could have the unintended effect of inhibiting rather than 
strengthening coordination among the agencies. While there have been no 
systemic failures in the NNI to date, I am concerned that the onerous 
reporting requirements for example with nanomanufacturing and 
nanotechnology EHS research projects will be counterproductive and 
could lead to less effective collaboration. No other area of federal 
R&D receives such detailed scrutiny as is being proposed, and frankly 
the benefit of such granularity versus the cost is not clear to me. 
Funding that would be necessary to carry out these reporting functions 
could better be spent increasing public communication and education 
about nanotechnology as proposed in our report.

Q2.  How would you address the concerns of those who might perceive 
Congress as picking winners and losers by specifically naming areas of 
national importance in the legislation?

A2. I don't feel this is a necessary addition to the legislation. The 
NNI previously organized its investments around ``grand challenges'' 
that included some of the proposed areas of ``national importance.'' 
Programmatically, however, the organization of the NNI around Program 
Component Areas has been far more effective for managing and 
coordinating the program. Calling out particular areas of focus as 
``winners'' by definition lowers the priority of other areas of equal 
(if perhaps less urgent) importance, such as fundamental basic 
research, which is absolutely critical to the ongoing success of our 
system of innovation. Furthermore adding such crosscuts over and above 
the PCAs may compromise the purpose of that structure for managing and 
coordinating the NNI.

Questions submitted by Representative Daniel Lipinski

Q1.  As we know, many companies who have taken advantage of the 
benefits of nanotechnology choose not to advertise this fact in their 
products, for fear of public backlash. I understand their concerns, as 
I do not believe the general public has a solid understanding of 
nanotechnology. Does the legislation do enough to enhance public 
awareness and education in the held of nanotechnology? Is additional 
international cooperation needed to assist the United States in 
educating our citizens? Can you give us some examples of what other 
countries are doing to inform and educate their people?

A1. Yes. Strengthening our public outreach and communication efforts is 
essential to avoid the drawbacks of hyping both anticipated benefits 
and feared risks by grounding the public dialogue in actual science and 
fact. As noted in our report, PCAST remains concerned that the economic 
and societal benefits of nanotechnology are being overlooked or 
minimized by the emphasis on uncertainties and speculation that is 
unconstrained by actual, realistic exposure and hazard assessment.
    I'm not positioned to speak in anything other than broad terms with 
respect to the outreach and public engagement efforts of other 
countries on nanotechnology, but it certainly will serve our efforts 
for the NNI to continue engaging with other countries, as it has with 
the Working Party on Nanotechnology of the OECD, in international 
workshops and programs aimed at improving communication and broad 
stakeholder engagement by exchanging best practices and evaluating 
various policies in societal context.

Q2.  Nanoelectronics is an area within the field of nanotechnology that 
is certainly important, and I am curious to hear a little more about 
its current status. Could you give me a better sense of the work being 
conducted in this specific area, and what has resulted thus far from 
this research? Approximately how much funding is currently devoted to 
nanoelectronics? And is this funding adequate for what is needed to 
tackle the challenges of nanoelectronics and the work needed to smooth 
the transfer of the research into commercial products?

A2. The industrial sector has historically taken the lead in 
collaborative, pre-competitive work on developing the fundamental 
technologies that are fundamental to electronics, including circuit 
component and chip design that looks beyond the current state-of-the-
art. NNI continues to facilitate this work through its industrial 
liaison working group which is working with the semiconductor industry 
and through funding of collaborative, cross-sector programs like the 
model Nanoelectronics Research Initiative (NRI; nri.src.org). NSF and 
NIST have formed public-private partnerships with the NRI to support 
ground-breaking nanoelectronics R&D. Both agencies and the industry 
members of the NRI each provide funding to support research towards 
that target, conducted through university-based centers.
    The NNI tracks annual funding by Program Component Area rather than 
application area, but a rough estimate by the National Nanotechnology 
Coordinating Office of funding for nanoelectronics (including 
nanomagnetics and nanophotonics for processing, storage, and/or 
communications devices, which are difficult to separate out) across the 
NNI is approximately $100 million. PCAST did not formally assess the 
adequacy of funding for particular application areas within the NNI, 
but its broader assessment of technology transfer and commercialization 
through the NNI was positive, noting that the NNI plays a key role in 
surmounting the barriers to nanotechnology innovation and commercial 
application by supporting both basic and targeted research, developing 
and maintaining critical infrastructure, and training researchers with 
interdisciplinary capabilities to capture the revolutionary potential 
of nanotechnology.
                   Answers to Post-Hearing Questions
Responses by Sean Murdock, Executive Director, NanoBusiness Alliance

Questions submitted by Chairman Bart Gordon

Q1.  Is there a need to expand the availability of nanotechnology user 
facilities that would be relevant to industry's needs? If so, would the 
NSF Industry-University Research Centers model be a viable mechanism 
for expanding the number and diversity of nanotechnology user 
facilities? Under such a model, federal funding would support the 
initial start-up costs, administration, and staffing needs of the user 
facility, while industry would provide the bulk of funding through user 
fees for use of the facilities.

A1. There is a need to expand the availability of nanotechnology user 
facilities that are relevant to industry's needs, and the National 
Nanotechnology Initiative Amendments Act of 2008 will help address that 
need. The NSF Industry-University Research Centers model is a viable 
mechanism, provided that nanotechnology companies are made aware of its 
availability and that administrative requirements (and IP policies) are 
not onerous for companies seeking to participate. Furthermore, it is 
critical that the user fees are based upon the marginal cost of 
provisioning services (plus a markup) so that general university (as 
opposed to true facility) overheads are not built into the user fees. 
Otherwise, overhead costs often become significant and create a 
disincentive for industry use.

Q2.  To what extent are nanotechnology businesses engaged in 
educational outreach activities with high school students or post-
secondary students? Do your companies sponsor activities at informal 
science institutions?

A2. Nanotechnology businesses are in many cases engaged in educational 
outreach activities with high school and post-secondary students. 
Although most nanotechnology businesses are small businesses that lack 
the resources to support substantial programs, a number of companies 
have established internships for high school or college students. The 
NanoBusiness Alliance itself has an internship program that places 
talented students with leading nanotechnology companies. In addition, 
nanotechnology tools manufacturers are designing relatively 
inexpensive, user-friendly tools for classroom use.

Questions submitted by Representative Ralph M. Hall

Q1.  What are the successes of the NNI over the past five years? Does 
the draft before us preserve the elements that led to these successes? 
What parts of the NNI have failed? Are there elements the Committee 
should consider terminating?

A1. The NNI has been extraordinarily successful over the past five 
years in accomplishing its central task of coordinating and 
accelerating federal nanotechnology research and development. The 
National Nanotechnology Initiative Amendments Act of 2008 preserves the 
elements of the NNI's structure that led to those successes. The NNI 
has been less successful at the admittedly difficult task of setting 
and environmental, health, and safety (EHS) research agenda, and the 
bill takes steps to address that issue. The Alliance does not recommend 
terminating any portion of the NNI at this point.

Q2.  How would you address the concerns of those who might perceive 
Congress as picking winners and losers by specifically naming areas of 
national importance in the legislation?

A2. The Alliance believes it is important that the Federal Government 
not pick winners and losers in the marketplace. Foreign countries are 
focusing their investments and supporting companies directly to help 
establish nanotechnology and to compete with the United States. The 
Alliance argued for the inclusion of support for translational 
nanotechnology research in areas on national importance to level the 
playing field, but has recommended keeping these areas broad so as to 
avoid picking winners and losers. Furthermore, funding in these areas 
of national importance will take place on a competitive basis, so the 
actual winners and losers will depend upon market competitiveness.

Questions submitted by Representative Daniel Lipinski

Q1.  Sean, you mentioned in your testimony that we should focus our 
efforts on goal-oriented research in areas of national importance. It 
seems to me that the Nation's Centers on Nanotechnology are critical to 
solving the grand challenges of our time, such as those we face on the 
environment and energy. Can you give us some examples of the products 
that have resulted from the research being conducted at these Centers? 
And in what other areas do you suggest we focus our efforts?

A1. There are important products beginning to emerge from these 
centers. A case study that may be of particular interest to Congressman 
Lipinski because of its proximity to his district is Northwestern 
University's Nanoscale Science and Engineering Center (NSEC). 
Nanosphere, which is based in Northbrook, Illinois has recently 
received approval for a molecular diagnostic test for susceptibility to 
warfarin, a blood thinner used for stroke victims in emergency room 
situations. Because the test will provide information on genetic 
susceptibility in real time, it will save lives. NanoInk is 
commercializing NanoEncryptionTM Technology based upon dip pen 
nanolithography developed by Chad Mirkin at Northwestern. The 
technology makes it possible to secure the Nation's pharmaceutical drug 
supply by encoding a nanoscale mark on each pill that is manufactured, 
which technology will protect patient safety and reduce the opportunity 
for criminals and terrorists to sell counterfeit pharmaceuticals. Many 
more products are on the way from Northwestern's center and others 
throughout the Nation. We are just beginning to see the return on our 
nation's investment in nanoscience centers of excellence.
    The Alliance supports the areas of national importance listed in 
the bill. In general, we believe that the United States has comparative 
advantages in most of the areas that make nanotechnology a benefit from 
an EHS perspective: cleaner energy, better health care, improved water 
and air quality, and so on--as well as nanoelectronics.

Q2.  As we know, many companies who have taken advantage of the 
benefits of nanotechnology choose not to advertise this fact in their 
products, for fear of public backlash. I understand their concerns, as 
I do not believe the general public has a solid understanding of 
nanotechnology. Does the legislation do enough to enhance public 
awareness and education in the field of nanotechnology? Is additional 
international cooperation needed to assist the United States in 
educating our citizens? Can you give us some examples of what other 
countries are doing to inform and educate their people?

A2. The general public still does not have a solid understanding of 
nanotechnology, despite the best efforts of the Alliance, its members, 
and countless educational institutions throughout the country. The bill 
takes some steps to help address this situation, which is important 
because the public's lack of a clear understanding of nanotechnology is 
one of the greatest risks that the nanobusiness community faces. 
International cooperation is critically important, especially in the 
area of standards development--but when it comes to educating the 
public, I believe that we need to be educating Europe rather than 
asking for their help to educate us. It seems that not a month goes by 
without an over-hyped scare story from Europe, or another argument for 
the precautionary principle in the EU. Coverage of and education about 
nanotechnology in the United States is much more balanced and takes 
into account the very real benefits of nanotechnology even as it 
speculates about risks.

Q3.  Nanoelectronics is an area within the field of nanotechnology that 
is certainly important, and I am curious to hear a little more about 
its current status. Could you give me a better sense of the work being 
conducted in this specific area, and what has resulted thus far from 
this research? Approximately how much funding is currently devoted to 
nanoelectronics? And is this funding adequate for what is needed to 
tackle the challenges of nanoelectronics and the work needed to smooth 
the transfer of the research into commercial products?

A3. Nanoelectronics research provides a great example of the leverage 
we as a nation can get when we focus on goal oriented research. The 
Semiconductor Industry Association has established a Nanoelectronics 
Research Initiative which has teamed with National Science Foundation 
and NIST to help shape and provide industry funding for critical beyond 
CMOS nanoelectronics research.
                   Answers to Post-Hearing Questions
Responses by Joseph S. Krajcik, Professor of Science Education; 
        Associate Dean of Research, University of Michigan

Questions submitted by Representative Ralph M. Hall

Q1.  What are the successes of the NNI over the past five years? Does 
the draft before us preserve the elements that led to these successes? 
What parts of the NNI have failed? Are there elements the Committee 
should consider terminating?

A1. I will limit my responses to my area of expertise: science 
education. Two bright areas resulted from the NNI over the past five 
years: The Nanoscale Informal Science Education (NISE) Network and the 
National Center for Teaching and Learning Nanoscale Science and 
Engineering (NCLT). (Note: I am a co-principal investigator of NCLT and 
this relationship needs to be taken into consideration when reading my 
remarks.)
    NISE, funded through the National Science Foundation, 2005, is 
designed to bring the education and research communities together in an 
effort to inform the public about nanoscience. In particular the NISE 
Network:

        <bullet>  creates new methods and approaches to communicate the 
        work of nanoscale scientists and engineers to the public;

        <bullet>  informs the public about the advances in the 
        scientific research; and

        <bullet>  captures the imagination of youth who may choose 
        careers in nanoscale science and engineering.

    NISE has done much to bring nanoscale science to the public and I 
would encourage continual funding of the effort. Through a new web 
site, the NISE Network Resource Center (http://www.nisenet.org), 
teachers and the public can access a vast collection of educational 
resources and join in this creative community effort. For teachers, 
students, or anyone interested in nanoscience and the many potential 
nanotechnology applications, the web site's content includes study 
materials, academic approaches, collections of graphics, a newsletter, 
links to other institutions working in the field, and much more. To 
learn more about the NISE network see: http://www.nisenet.org/project/
what.html.
    NCLT, funded by the National Science Foundation in 2004, was 
established to build national capacity in nanoscale science and 
engineering education as well as explore how to how to improve the 
teaching and learning of nanoscience in grades seven through college. 
Housed at Northwestern University, NCLT collaborates with scientists 
and educators at the following research institutions: University of 
Michigan, Purdue University, University of Illinois at Chicago, 
University of Illinois at Urbana-Champaign, Argonne National 
Laboratory, Alabama A&M University, Fisk University, Hampton 
University, Morehouse College, and University of Texas at El Paso. 
Through the educational research produced by NCLT researchers, 
important ideas related to the teaching and learning of nanoscience are 
being uncovered.
    Through its web portal NCLT, http://nclt.us/, offers a variety of 
educational resources to help teachers and science educators with 
nanotechnology-related concepts, simulations, and activities for the 
classroom that include:

        <bullet>  Educational materials for science teachers and 
        students in grades 7-12, college and university students and 
        faculty, researchers, and post-doc students, covering 
        information on Nano Courses & Units in engineering, physics, 
        materials science, chemistry, and education.

        <bullet>  Seminars to advance education initiatives.

        <bullet>  Learning Research and Methods, a collection of 
        papers, presentations and resources to promote the best 
        teaching practices and methodologies.

        <bullet>  Nanoconcepts and Applications, instructional 
        materials focusing on the key ideas in nanoscale science and 
        engineering.

        <bullet>  NSEE Resources and Calendar of Events for nanoscale 
        science and engineering education.

        <bullet>  NSEE News and Network and a Glossary.

    Both NISE and NCLT have done much to advance learning of 
nanoscience in formal and informal settings. As such, I would encourage 
that these aspects of The National Nanotechnology Initiative Amendments 
Act of 2008 be preserved. As in science, progress in education will 
only be made if continual support is provided for projects and centers 
that focus on important national goals and that have proven track 
records of collaborative partnerships that improve the teaching and 
learning of nanoscience. As stated in my written testimony, advances in 
nanoscience require a commensurate response from the educational 
community to prepare our youth.
    The NNI also supports various national nanotechnology centers such 
as the Materials Research Science and Engineers Centers and the 
National Nanotechnology Infrastructure Network that have an educational 
outreach component within them. Although I know more about the 
activities NNIN education activities that go on at the University of 
Michigan, I know little about other NNIM and MRSEC education 
activities. I know that the NNIN education activities bring new 
emerging activities to students such as ``nanocamps'' that allow 6th-
12th grade students opportunities to explore clean rooms. Such 
activities have very high interest to many learners. As such, I would 
encourage continual funding of these efforts. However, I would also 
encourage that such centers partner with experts in science education 
and learning science so that the engaging activities can be better 
incorporated into the structure of the school curriculum. Building such 
connections between motivating activities and classroom curriculum is 
critical to promote learning.

Q2.  How would you address the concerns of those who might perceive 
Congress as picking winners and losers by specifically naming areas of 
national importance in the legislation?

A2. There is no argument that STEM education in this country is in a 
crisis. U.S. schools are failing to prepare students to live in a 
technological advanced society. This is particularly true in our large 
urban districts. If we can turn this crisis around, and we must, then 
we all win. Our economy will improve and perhaps more importantly our 
children will have the standard of living and the quality of life that 
we achieved. However, unless we can focus on improving education, our 
children and their children will not have the quality of life that we 
find valuable. Congress has to provide the direction of our national 
priorities.
    I would also argue that advances in science and technology are 
blurring the lines between the individual scientific disciplines that 
allow for advances in science and technology. As science becomes more 
interdisciplinary, we can no longer rely on the traditional ways of 
teaching science as a set of well-understood, clearly depicted, stand-
alone disciplines. If we do so, we are not preparing our students for 
the scientific enterprise they will experience in the work force. Yet, 
both at the K-12 level and 13-16 level, we continue to teach in non-
interdisciplinary fashion and without stressing how important ideas cut 
across disciplinary boundaries.

Q3.  You state in your testimony that ``Unfortunately, the current 
education system is failing to produce a populace scientifically 
literate enough to understand the scientific advances of nanoscience.'' 
Couldn't the same be said for biology, physics, chemistry, computer 
science, or many other scientific disciplines? If current science 
curricula concentrates on covering too much content, as you argue, and 
yet you also recommend that all students need to know more about 
nanoscience, then what content do you propose replacing?

A3. I agree that the U.S. educational system is failing to produce a 
populace that is scientifically literate to understand the advances in 
all fields of science and not just nanoscience. What we are failing to 
do as a Nation is help students understand the ``core'' or ``big'' 
ideas of science that are essential in helping all learners understand 
advances across fields.
    The U.S. science curriculum concentrates on covering too much 
content without focusing on developing deep, meaningful understanding 
that learners will need to grasp the central ideas of science and new 
areas or that they will need to make personal and professional 
decisions in their lives. Research has shown that students lack 
fundamental understanding of science in such areas as the structure of 
matter, forces, and properties of matter. These fundamental ideas are 
essential to understanding a number of areas of science.
    As I tried to argue in my written testimony, a path to improve the 
U.S. educational system requires the development of new standards. New 
standards that focus on the big ideas of science and cut across 
disciplines, and other knowledge essential for the 21st century need to 
be developed and adapted by schools. Important ideas in nanoscience are 
not currently incorporated or stressed in the national standards. 
Nanoscience education introduces students to emerging ideas of science 
and supports understanding of the interconnections between the 
traditional scientific domains by providing compelling, real-world 
interdisciplinary examples of science in action.
    The national science education standards need renovation because 
there are too many standards. We will need to make some tough choices 
in that all content cannot be covered. We know from successes in other 
countries and from research studies, that attempting to cover too many 
ideas lead students to develop superficial knowledge that they cannot 
use to solve problems, make decisions, and understand phenomena. Hence, 
our national science education standards need reworking, updating and 
consolidating.
    Rather than focusing on covering too many ideas, our nation needs a 
long-term developmental approach to learning science that focuses on 
the big ideas of science we most care about and takes into 
consideration learners' prior knowledge and how ideas build upon each 
other. Big ideas provide a framework for thinking about the long-term 
development of student understanding and they facilitate learners to 
understand a variety of different phenomena within and across science 
disciplines. If we have a developmental approach starting in 
kindergarten through 12th grade, learners will come away with a level 
of understanding that will allow them to pursue STEM careers, see the 
importance of science in their lives, and use science to make 
decisions. If our nation takes a developmental approach to the 
standards that emphasize how ideas build upon each other, it will allow 
curriculum designers to develop coherent curriculum materials.
    Let me provide just one short example. The atomic and kinetic 
theories are the foundation for understanding the structure, properties 
and behavior of matter. Together, they can explain an enormous number 
of phenomena across a variety of disciplines. At the same time, 
understanding of these ideas is essential for building an understanding 
about the structure, properties and behavior of matter at the 
nanoscale. A development approach focusing on how these ideas build 
over time will allow students to build the rich understanding that is 
needed to understand the science of today and tomorrow and will 
facilitate the interdisciplinary connections that students need to 
understand nanoscience and other emerging science (Stevens, Sutherland, 
Shank & Krajcik, 2008). I encourage the Committee to read Steven, 
Sutherland, Shank and Krajcik for more in-depth ideas in this area. I 
also encourage the Committee to read Taking Science to School, by 
Duschl, Schweinger, and Shouse (2007).

Questions submitted by Representative Daniel Lipinski

Q1.  As we know, many companies who have taken advantage of the 
benefits of nanotechnology choose not to advertise this fact in their 
products, for fear of public backlash. I understand their concerns, as 
I do not believe the general public has a solid understanding of 
nanotechnology. Does the legislation do enough to enhance public 
awareness and education in the field of nanotechnology? Is additional 
international cooperation needed to assist the United States in 
educating our citizens? Can you give some examples of what other 
countries are doing to inform and educate their people?

A1. An informed citizenship is critical in a democratic society. I am 
appalled by the notion that information is being kept from the public 
because of fear of public backlash. To be a free, democratic and 
competitive country, our goal, as a nation, must be to provide a solid 
education for ALL so that information is freely available to the public 
and that they requisite skills to interpret and apply the information 
to their lives. Given that nanoscience impacts virtually every sector 
of our economy and our daily lives by enabling promising new materials 
and applications across many fields, I would argue that the legislation 
does not go far enough to enhance public awareness and education in the 
field nanotechnology.
    There are some bright spots in nanoeducation in this country. Two 
of them I have discussed above--the NISE Network and the NCLT. NISE 
focuses primarily on informal education and NCLT on formal education. 
Information regarding NISE is available at http://www.nisenet.org and 
for NCLT at http://www.nclt.us/. That said, I believe the U.S. formal 
and informal education systems could learn through international 
cooperation with other countries that are working to inform the public 
regarding nanoscience. The NCLT web site has information on what other 
countries are doing.
    Below I will summarize some of the information about what other 
countries are doing. See http://www.nclt.us/nclthome/
major<INF>-</INF>nano<INF>-</INF>initiatives.html for further 
information.

        a.  Taiwan is an international leader in nanotechnology 
        education, with formal and informal education initiatives for 
        all levels and an especially strong K-12 program. The National 
        Science Council, Taiwan, R.O.C., established a nanotechnology 
        program for K-12 teachers in order to provide educational 
        opportunities on the cutting edge of advanced technology.

        b.  NanoForum, established with funding from the European 
        Commission, serves as the ``European Nanotechnology Gateway,'' 
        providing articles, events, funding information, research 
        databases, and other services to support nanotechnology 
        research, development, and education.

        c.  Nanotechnology Researchers Network Center of Japan 
        (NanoNet), launched in 2007, introduces various information on 
        top nanotechnology through its web site and an e-mail 
        newsletter. The web site has a major section that is tailored 
        to children and includes games that can help children learn 
        about nanoscience.

Q2.  Nanoelectronics is an area within the field of nanotechnology that 
is certainly important and I am curious to hear a little more about its 
current status. Could you give me a better sense of the work being 
conducted in this specific area, and what has resulted this far from 
this research? Approximately how much funding is currently devoted to 
nanoelectronics? And is this funding adequate for what is needed to 
tackle the challenges of nanoelectronics and the work needed to smooth 
the transfer of the research into commercial products?

A2. This is not my area of research, so I do not feel qualified to 
respond.

References:

Duschl, R.A., Schweingruber, H.A., Shouse, A. (2007). Taking science to 
        school: Learning and teaching science in grades K-8. 
        Washington, D.C.: National Academies Press.

Stevens, S. Sutherland, L., Shank, P., Krajcik, J. (2008). Big Ideas in 
        NanoScience. http://www.hice.org/projects/nano/index.html.
                   Answers to Post-Hearing Questions
Responses by Andrew D. Maynard, Chief Science Advisor, Project on 
        Emerging Nanotechnologies, Woodrow Wilson International Center 
        for Scholars

Questions submitted by Representative Ralph M. Hall

Q1.  What are the successes of the NNI over the past five years? Does 
the draft before us preserve the elements that led to these successes? 
What parts of the NNI have failed? Are there elements the Committee 
should consider terminating?

A1. Over the past five years, the NNI has stimulated innovative 
research enabling the United States to lead the world in nanotech 
research and development. It is a testament to this success that other 
countries are emulating the U.S. model. The NNI has also effectively 
fostered a high degree of coordination across a large number of 
agencies and departments, resulting in multi-disciplinary research that 
is essential for supporting and sustaining successful nanotechnologies.
    In my opinion, it is clear that the NNI has led to greater cross-
government coordination for science and technology than with any 
previous initiative, and for this, its instigators, supporters and 
implementers should be congratulated. But this does not mean that there 
is cause for complacency. While the achievements of the NNI are 
apparent, there are areas that are in desperate need of improvement:

        <bullet>  The lack of a robust environmental, health and safety 
        (EHS) research strategy has led to insufficient funding and 
        leadership to effectively study and combat-possible EHS issues 
        associated with nanotechnologies. From my assessment of what is 
        needed to underpin the long-term success of emerging 
        nanotechnologies and provide industry with the confidence to 
        invest in this area, a minimum 10 percent of the NNI budget 
        should be directed towards EHS research. But this funding must 
        be directed within a top-down strategy with clearly defined 
        goals, and a plan for achieving them. At an absolute minimum, 
        steps are needed to ensure sufficient funds are available to 
        regulatory and research agencies in support of strategic 
        activities constituting the Environmental, Health, and Safety 
        program component area, or any successor program component 
        area.

        <bullet>  Full and transparent stakeholder involvement in the 
        NNI is lacking. This is most apparent in the development of the 
        EHS R&D strategy. While there are some interactions between the 
        NNI and stakeholders representing industry, labor, academia, 
        citizens and the international community, more is needed to 
        ensure that government-funded research and development remains 
        relevant. For instance, the recent NNI EHS R&D strategy 
        involved limited stakeholder input at the review stage, but not 
        as it was being developed. Had a wider community been engaged 
        at an earlier stage, it is likely that the strategy would be 
        more focused on addressing real priority needs, rather than 
        justifying past actions.

        <bullet>  The NNI has struggled to support the translation of 
        research into viable commercial products. In many ways, this is 
        understandable, as the initial phase of the NNI was focused on 
        expanding the nanotechnology knowledge base through research. 
        But as nanotechnology commercialization becomes an increasingly 
        pressing challenge, a change of emphasis and mode of action is 
        needed.

        <bullet>  The NNI has failed to educate and engage citizens 
        effectively. This is critical on three counts: First, as new 
        nanotechnology-based products enter the market in increasing 
        numbers, consumers need the ability and information to make 
        informed decisions on these products. Second, the future of 
        nanotechnology will depend on people in all walks of life being 
        enthused and inspired by the technology and what it can do--
        leading to the next generation of nano-scientists and nano-
        engineers. And thirdly, I believe successful science and 
        technology in the twenty first century--including 
        nanotechnology--will depend on all citizens having an 
        opportunity to contribute to the direction and use of future 
        research. This will require education (both formal and 
        informal) to help people assess the value and challenges of new 
        science and technology, and mechanisms for giving people a 
        voice as new science directions are explored and new 
        technologies are developed. According to public research polls 
        conducted by the Project on Emerging Nanotechnologies (PEN),\1\ 
        the public still knows very little about nanotechnology.
---------------------------------------------------------------------------
    \1\ Awareness of and Attitudes Toward Nanotechnology and Federal 
Regulatory Agencies (2007), Peter D. Hart Research Associates for The 
Project on Emerging Nanotechnologies. www.nanotechproject.org/process/
assets/files/5888/
hart<INF>-</INF>presentation<INF>-</INF>2007analysis.pdf

Q2.  How would you address the concerns of those who might perceive 
Congress as picking winners and losers by specifically naming areas of 
---------------------------------------------------------------------------
national importance in the legislation?

A2. Addressing major challenges facing society needs leadership from 
the top. Nanotechnology is an enabling technology and will provide the 
tools to solve many of society's pressing problems--including global 
climate change, pollution and disease. When resources are limited, 
strategic direction from the top is essential to ensure progress is 
made towards safe and successful technological solutions. This is not 
choosing winners and losers; but rather foreseeing innovations and 
technologies that the United States can lead the world in. Without 
Congress leading the way, we risk jeopardizing nanotechnology 
innovation in the U.S. and lessening the chance of nanotechnology R&D 
stimulating the economy, creating jobs, solving major environmental 
challenges and improving quality of life. Other economies around the 
world are unlikely to hold back on strategic R&D leadership where there 
are clear social and economic advantages, and for the U.S. to do so 
would place the country at a disadvantage.

Questions submitted by Representative Daniel Lipinski

Q1.  As we know, many companies who have taken advantage of the 
benefits of nanotechnology choose not to advertise this fact in their 
products, for fear of public backlash. I understand their concerns, as 
I do not believe the general public has a solid understanding of 
nanotechnology. Does the legislation do enough to enhance public 
awareness and education in the field of nanotechnology? Is additional 
international cooperation needed to assist the United States in 
educating our citizens? Can you give us some examples of what countries 
are doing to inform and educate their people?

A1. There is currently not enough being done to inform and educate 
members of the public on how nanotechnology will impact their lives, or 
to engage them in how future technologies are developed and used. And 
while the draft National Nanotechnology Initiative Amendment Act of 
2008 addresses K though 12 and college education, it is lacking when it 
comes to supporting broader educational issues. Formal education in 
terms of training future scientists is getting better and will improve 
further through various Science, Technology, Engineering and 
Mathematics Education initiatives. But empowering everyday people to 
make informed decisions about the technologies that affect their lives 
is critically lacking.
    Transparency is vital to the success of nanotechnology; not only 
regarding government investment, actions and plans, but also in 
providing people with information on how nanotechnology is being used 
in products and processes that affect their daily lives. Opinion 
polls--including those conducted by the Project on Emerging 
Nanotechnologies\2\--show that people want to be informed, and a 
perception of being kept in the dark seriously undermines confidence in 
new technologies and their promoters.
---------------------------------------------------------------------------
    \2\ Kahan, D., Slovic, P. Braman, D., Gastil, J., Cohen, G. 2007. 
Nanotechnology Risk Perceptions: The Influence of Affect and Values. 
Conducted by the Cultural Cognition Project at Yale Law School for the 
Project on Emerging Nanotechnologies. Available at: http://
www.nanotechproject.org/mint/pepper/tillkruess/downloads/
tracker.php?uri=http%3A//www.nanotechproject.org/process/assets/files/
2710/164<INF>-</INF>nanotechriskperceptions<INF>-</INF>dankahan.pdf. 
Also see: Awareness of and Attitudes Toward Nanotechnology and Federal 
Regulatory Agencies (2007), Peter D. Hart Research Associates for The 
Project on Emerging Nanotechnologies. Available at: 
www.nanotechproject.org/process/assets/files/5888/
hart<INF>-</INF>presentation<INF>-</INF>2007analysis.pdf
---------------------------------------------------------------------------
    Yet to be useful, transparency must be linked to an ability to 
understand and use information effectively. And this places a bright 
spotlight on education--especially informal education, which takes 
place outside the classroom.
    Effective nanotechnology education means meeting people where they 
are at--whether through popular culture, the media or museums and 
exhibits. Government and industry need to invest much more in informal 
education if an awareness and understanding of nanotechnology is to 
diffuse through society. And this needs to be an investment in 
education, rather than academic studies of how to educate.
    But beyond education comes engagement--you cannot give people the 
tools to understand new technologies, but then deny them a voice in the 
decision-making process. Effective engagement efforts are currently 
lacking in the NNI, and in the draft bill.
    In contrast to the U.S., the European Union has clear goals for 
educating and engaging citizens. In its policy for Nanosciences and 
Nanotechnologies,\3\ the European Union recognizes ``the need to devote 
due attention to the societal aspects of nanotechnology'' and sets 
forth the following:
---------------------------------------------------------------------------
    \3\ EU Policy for Nanosciences and Nanotechnologies. 2004. European 
Commission. http://ec.europa.eu/nanotechnology/pdf/
eu<INF>-</INF>nano<INF>-</INF>policy<INF>-</INF>2004-07.pdf

        a.  calls upon the Member States to pursue an open and 
        proactive approach to governance in nanotechnology R&D to 
---------------------------------------------------------------------------
        ensure public awareness and confidence;

        b.  encourages a dialogue with EU citizens/consumers to promote 
        informed judgment on nanotechnology R&D based on impartial 
        information and the exchange of ideas;

        c.  reaffirms its commitment to ethical principals in order to 
        ensure that R&D in nanotechnology is carried out in a 
        responsible and transparent manner.

Q2.  Nanoelectronics is an area within the field of nanotechnology that 
is certainly important, and I am curious to hear a little more about 
its current status. Could you give me a better sense of the work being 
conducted in this specific area, and what has resulted thus far from 
this research? Approximately how much funding is currently devoted to 
nanoelectronics? And is this funding adequate for what is needed to 
tackle the challenges of nanoelectronics and the work needed to smooth 
the transfer of the research into commercial products?

A2. This is not my primary area of expertise, and I would defer to my 
fellow panel member, Dr. Robert Doering, for a detailed answer to the 
question. But I would like to make a couple of observations:

    Complementary Metal Oxide Semiconductor technology--commonly 
referred to as CMOS--is the foundation of modern electronics. Yet while 
the processing power of semiconductor chips continues to double almost 
every two years, it will soon hit a brick wall--the point where 
physical laws prevent conventional CMOS-based electronics getting any 
smaller or faster. Nanotechnology is a key technology for overcoming 
this barrier; enabling existing technologies to be used in innovative 
ways; generating new electronics technologies to replace CMOS, and even 
discovering alternatives to using electrons--such as photons, in the 
area of photonics.
    The timescale between innovation and implementation is long in the 
electronics business however, and it is the research of today that will 
provide technological solutions of the next decade. As a result, there 
is an urgent need for extensive research now into new nanotechnology-
based ``electronics'' or ``nanoelectronics'' if we want to continue the 
current trend of faster, smaller, more efficient processors. Industry 
is acutely aware of this challenge, and is investing considerable 
resources in supporting innovative research. But support from 
government is also needed, if America is to remain at the forefront of 
the nanoelectronics revolution.

Question submitted by Representative Adrian Smith

Q1.  At the University of Nebraska Medical Center (UNMC), researchers 
are studying nanomedicine, which merges engineering science with 
pharmaceutical and medical sciences, to translate advances in 
nanotechnology research into clinical practice. UNMC researchers have 
been recognized nationally and internationally for developing tiny 
particles, called nanomaterials, which are put in the body to deliver 
drugs precisely to diseased cells, to treat conditions such as cancer, 
Parkinson's and Alzheimer's diseases, and others. This unique 
nanotechnology delivers drugs directly to diseased areas or tumors, 
which maximizes clinical benefits, while limiting negative side 
effects. The use of nanoscale technologies to design drug delivery 
systems is a rapidly developing area of biomedical research that 
promises breakthrough advances in therapeutics and diagnostics. It is 
clear from the medical research in Nebraska that the development of 
medical nanotechnology is moving quickly toward human clinical trials. 
At the October hearing on this subject, according to the briefing 
document, ``there were concern that the interagency planning for and 
implementation of the environment, health and safety research component 
of NNI was not moving with the urgency it deserved.'' Development of 
nanotechnology is breakthrough technology with the ability to 
profoundly improve the treatment and cure of disease. This legislation 
intends to strengthen the planning and implementation of the 
environment, health and safety component and increase the emphasis on 
commercialization of nanotechnology research results. To accomplish 
that, guidelines will be necessary. What progress is being made to 
establish safety guidelines for the use of nanotechnology to deliver 
medication when it is ready for the marketplace and adopted as standard 
of care by health care professionals?

A1. New nanotechnology-enabled drugs push the boundaries of our 
understanding and abilities. They penetrate to places in the body and 
interact with cells and tissues in new ways, because of their nanoscale 
size and structure. They can be designed to carry out many functions; 
detecting and diagnosing disease, as well as treating it. And they 
often blur the boundaries between distinct regulatory classes of 
products. These characteristics offer the promise of innovative new 
medical treatments. But they also raise new concerns over possible 
health implications.
    Some progress is being made to address the challenge of developing 
safe and beneficial nanotechnology-based drugs. For instance, the FDA, 
in partnership with National Cancer Institute and the National 
Institute for Standards and Technology, has set up the Nanoparticle 
Characterization Laboratory to help evaluate the safety of 
developmental nano-drugs. But the pace of development and the 
increasingly sophisticated nature of these medications are stretching 
the ability of researchers and regulators to apply conventional 
understanding to these unconventional products.
    The United States cannot afford to not develop drugs enhanced with 
nanotechnology. They promise to be more effective treatments with fewer 
side effects; and have the ability to treat previously untreatable 
diseases. But if we lose focus and don't get the environment, health 
and safety aspects of these products of nanotechnology right, those 
benefits will be lost. This is why adequate funding, along with strong 
leadership and a robust risk research strategy, are essential to 
ensuring nanotech-enabled drugs don't lead to unanticipated harm. This 
is a small price to pay in order to reap the enormous benefits 
nanotechnology could provide.
                   Answers to Post-Hearing Questions
Responses by Raymond David, Manager of Toxicology for Industrial 
        Chemicals, BASF Corporation

Questions submitted by Chairman Bart Gordon

Q1.  Is there a need to expand the availability of nanotechnology user 
facilities that would be relevant to industry's needs? If so, would the 
NNI Industry-University Research Centers model be a viable mechanism 
for expanding the number and diversity of nanotechnology user 
facilities? Under such a model, federal funding would support the 
initial start-up costs, administration, and staffing needs of the user 
facility, while industry would provide the bulk of funding through user 
fees for use of the facilities.

A1. The Panel believes that there may be a lack of awareness of user 
facilities available to the nanotechnology community, which may lead to 
their under-utilization by industry. Furthermore, some of the centers 
have very focused missions, which do not allow for projects outside of 
their scope. For example, the Nanomaterials Characterization Laboratory 
focuses on medical applications of nanomaterials and the laboratory 
will not accept a project outside of that scope. A partnership approach 
similar to the NSF Industry-University Research Centers may be a more 
viable model, and would certainly be more flexible. It would also allow 
SME nanotechnology companies to obtain the services they need without 
the extensive capital investment needed for instrumentation.

Q2.  To what extent are nanotechnology businesses engaged in 
educational outreach activities with high school students or post-
secondary students? Do your companies sponsor activities at informal 
science institutions?

A2. Panel members experience indicates that outreach programs are most 
successful through large associations or scientific societies. For 
example, the Society of Toxicology has an outreach program to 
elementary and secondary schools called ``Paracelsus goes to school.'' 
It is well organized and successful in educating students about 
toxicology, dose-response, and specific hazards to avoid. The NNI could 
establish a similarly structured program. The companies of the ACC 
Nanotechnology Panel also sponsor informational events for targeted 
audiences, maintain a web page that provides information to the public, 
and engage in extensive outreach to various constituencies to provide 
information pertinent to the safe and responsible development of 
nanotechnology. Panel member companies would welcome the opportunity to 
provide input and experts for informal scientific sessions with 
students of all ages.

Questions submitted by Representative Ralph M. Hall

Q1.  It is our understanding that responsible manufacturers and users 
of nanomaterials, including presumably some ACC members, are generating 
information about their properties that could be relevant to 
understanding their biological and environmental behavior. How can that 
information be shared so that risk assessment and risk management in 
general can be improved and so that developers can design more benign 
materials and avoid pitfalls?

A1. Scientists from industry, academia, and government research 
facilities are engaged in developing data on the hazards of 
nanomaterials, and the physical/chemical properties that are associated 
with those hazards. Once these data are published in scientific 
journals, there are several public databases that capture and catalogue 
the information for others to use in assessing the risks of exposure. 
Unfortunately, the Nanotechnology Panel believes that some of the 
published data fail to accurately characterize the properties of the 
particles tested. International efforts within the OECD, ISO and 
private efforts to heighten awareness for the need for accurate 
characterization will help sort these issues out. In addition, EPA's 
Nanoscale Materials Stewardship Program (NMSP) is designed to collect 
information for EPA's use to develop risk assessment and management 
profiles. Additional information will facilitate EPA's ability to 
characterize nanoscale materials accurately. The Panel members will be 
participating in this program.

Q2.  What are the successes of the NNl over the past five years? Does 
the draft before us preserve the elements that led to these successes? 
What parts of the NNI have failed? Are there elements the Committee 
should consider terminating?

A2. A key NNI success has been providing a mechanism for information 
exchange between government agencies regarding nanotechnology. It 
appears that the enthusiasm for this is high as indicated by the broad 
participation of agencies. Participating agencies include those 
conducting research as well as regulatory bodies showing an awareness 
of the linkage between these normally separate approaches. The main 
function of the NNI is to promote the development of nanotechnology and 
this appears to have been a great success. A perceived weakness, 
however, has been an incommensurate level of commitment of NNI agency 
resources to issues regarding society and safety. Many view government 
agencies as an ``honest broker'' thus they have a unique role and 
contribution to make to help ensure that nanotechnology undergoes 
responsible development. A commitment of the NNI for a significant 
increase in member agency funding over present levels to address EHS 
issues will greatly contribute to its future success. A target of 8-15 
percent of overall NNI spending should be considered to fund EHS 
activities and is consistent with Goal 4 of the NNI Strategic Plan.

Q3.  How would you address the concerns of those who might perceive 
Congress as picking winners and losers by specifically naming areas of 
national importance in the legislation?

A3. Neither Congress nor the NNl agencies should be viewed as picking 
winners or losers. The breadth of activities and interests of the 
member agencies are sufficient to encompass many of the activities for 
which funding will be sought. However, it is appropriate for Congress 
to identify and focus attention on areas that it believes will have 
particularly beneficial impacts.

Questions submitted by Representative Daniel Lipinski

Q1.  As we know, many companies who have taken advantage of the 
benefits of nanotechnology choose not to advertise this fact in their 
products, for fear of public backlash. I understand their concerns, as 
I do not believe the general public has a solid understanding of 
nanotechnology. Does the legislation do enough to enhance public 
awareness and education in the field of nanotechnology? Is additional 
international cooperation needed to assist the United States in 
educating our citizens? Can you give us some examples of what other 
countries are doing to inform and educate their people?

A1. The NNI amendments do not specifically address education of the 
general public. This could be addressed in any number of ways not the 
least of which are targeted informational programs through the Public 
Broadcasting Service, Public Service Announcements, or other media. The 
NNI amendments do provide for the education of secondary teachers and 
students, which in turn will lead to better educating the general 
public. The concern expressed in the question may be a symptom of an 
overall lack of public understanding about the many positive 
contributions to society and safety made through the use of science and 
engineering. The Act does provide for funding to be available for 
projects in subcategories of education in formal (e.g., schools, 
colleges, universities) and informal settings (e.g., museums and 
exhibits) as well as for public outreach and societal issues. The 
Department of Education is a new NNI agency and this could be an area 
where DOEd can make strong contributions to the success of the NNI 
since education is its primary mission. In addition, the NNI amendments 
could include scholarship funding for graduate level courses to further 
train scientists in the various disciplines associated with 
nanotechnology.

Q2.  Nanoelectronics is an area within the field of nanotechnology that 
is certainly important, and I am curious to hear a little more about 
its current status. Could you give me a better sense of the work being 
conducted in this specific area, and what has resulted thus far from 
this research? Approximately how much funding is devoted to 
nanoelectronics? And is this funding adequate for what is needed to 
tackle the challenges of nanoelectronics and the work needed to smooth 
the transfer of the research into commercial products?

A2. The chemical industry is a key supplier of materials to the 
electronics industry. While the specific question is best directed to 
those who are in the nanoelectronics industry we are pleased to make 
essential contributions to their success. SEMI represents the 
semiconductor producers and may be able to provide additional 
information.
                   Answers to Post-Hearing Questions
Responses by Robert R. Doering, Senior Fellow and Research Strategy 
        Manager, Texas Instruments

Questions submitted by Chairman Bart Gordon

Q1.  Is there a need to expand the availability of nanotechnology user 
facilities that would be relevant to industry's needs? If so, would the 
NSF Industry-University Research Centers model be a viable mechanism 
for expanding the number and diversity of nanotechnology user 
facilities? Under such a model, federal funding would support the 
initial start-up costs, administration, and staffing needs of the user 
facility, while industry would provide the bulk of funding through user 
fees for use of the facilities.

A1. In terms of infrastructure, many U.S. universities and some federal 
labs have excellent facilities for doing micro-electronics research, 
but nanoelectronics may require more specialized tools for fabricating 
and characterizing these structures to move beyond the initial single 
device lab demonstrations. SIA estimates this will require an order of 
magnitude above current National Nanotechnology Infrastructure Network 
(NNIN) investments, which are roughly $15M. We are pleased to see the 
revised bill includes an assessment of equipment/infrastructure needs 
in the areas of national importance.
    The Industry-University Research Centers model may be instructive, 
but given the modest investment of NSF through this program, it would 
not be adequate for addressing the needs in nanoelectronics, 
particularly once the technology demonstration phase begins. With its 
investment in equipment and facilities at a range of universities, 
expanding the infrastructure created by NNIN may be a more appropriate 
model for the semiconductor industry. The NSECs also provide an 
excellent resource for industry to work collaboratively with 
universities, such as through the co-funding of proposals that NSF has 
undertaken with the Nanoelectronics Research Initiative (NRI).
    In addition, the modeling capabilities NSF has funded through the 
Network for Computational Nanotechnology (NCN, Purdue University) have 
been extremely helpful for industry in experimental/test and 
theoretical simulations of various options under NRI. NCN is an 
excellent model of a university-based facility which is easily 
accessible and frequently used by industry.

Q2.  To what extent are nanotechnology businesses engaged in 
educational outreach activities with high school students or post-
secondary students? Do your companies sponsor activities at informal 
science institutions?

A2. At Texas Instruments, education is the highest priority for 
corporate philanthropy. Each year, TI makes financial contributions 
totaling millions of dollars in grants and other gifts to schools, 
colleges and educational programs. TI supports a number of programs 
focused on fostering student interest and achievement in science, 
technology, engineering and math.
    TI and Southern Methodist University co-developed the Infinity 
Project, which uses MP3 players and cell phones to teach engineering 
and science concepts to high school students in 275 schools in 37 
states.
    Since the early 1990s, TI engineers have been helping high school 
students in the Texas BEST (Boosting Engineering, Science and 
Technology) competition that challenges students to build remote-
controlled robots, attracting nearly 700 middle and high schools and 
more than 8,000 students across several states each fall.
    At the university level, TI was a leader in establishing and 
funding the Texas Engineering and Technical Consortium (TETC). TETC 
supports recruitment and retention of electrical engineering and 
computer science majors at 34 universities in Texas. From 2001 to 2006, 
electrical engineering graduates at TETC funded institutions increased 
by 49 percent compared to a 10 percent increase by other state and 
national institutions. Computer science graduates have declined across 
the U.S. The number of graduates at TETC institutions have only 
declined by six percent compared to the national decline of 24 percent.
    For details on TI educational activities, visit: http://www.ti.com/
corp/docs/company/citizen/factsheets/cte.shtml

Questions submitted by Representative Ralph M. Hall

Q1.  What are the successes of the NNI over the past five years? Does 
the draft before us preserve the elements that led to these successes? 
What parts of the NNI have failed? Are there elements the Committee 
should consider terminating?

A1. Over the past five years, the National Nanotechnology Coordinating 
Office (NNCO) has advanced U.S. nanotechnology research by providing a 
focal point for federal activities in nanotechnology, leading to the 
development of strategic plans that identified program component areas, 
and brought together key stakeholders for workshops on major 
nanotechnology topics.
    The NRI is certainly a model partnership under the NNI, leveraging 
nanotechnology-focused federal investments such as the NSF's activities 
at NSECs and the NNIN, and NIST's expertise in metrology at the 
nanoscale.
    To quote the most recent NNI strategic plan profile of the NRI, 
``these government-industry-academic partnerships blend the discovery 
mission of NSF, the technology innovation mission of NIST, the 
practical perspective of industry, and the technical expertise of U.S. 
universities to address a nanotechnology research and development 
priority. It is one example of the creative methods the NNI uses to 
accelerate research that contributes to the Nation's economic 
competitiveness.''
    A major shortcoming of the NNI currently is that it does not have a 
mechanism to prioritize interagency activity and resources around 
nanotechnology research that addresses the most critical challenges 
facing our country. The bill's identification of areas of national 
importance is essential to ensuring that this occurs.
    Further, the NNI would benefit from clearer metrics and time frames 
for both near- and long-term objectives, including plans for technology 
transition with industry and the states. The bill's call for this to be 
addressed in the strategic plan allows better measurement of progress 
towards NNI goals. The explicit funding mechanism for the NNCO and 
authorization of travel expenditures are also positive proposals for 
improving the way the NNI is planned and implemented.

Q2.  How would you address the concerns of those who might perceive 
Congress as picking winners and losers by specifically naming areas of 
national importance in the legislation?

A2. It is important that the bill recognizes that projects in these 
areas will be selected on a competitive and merit basis. It is 
appropriate for the legislation to identify some examples of areas of 
national importance, and call for the Advisory Panel to identify 
additional areas. This will allow NNI to prioritize resources around 
national challenges that would benefit from breakthroughs in 
nanotechnology and where the Federal Government has a unique role in 
funding exploratory research.

Q3.  In your testimony you advocate for the inclusion of security as a 
major area of national importance. Currently, the Department of Defense 
accounts for more spending under NNI than any other agency. However, 
the Department of Homeland Security invests just one million dollars, 
less than all agencies except the Department of Transportation. Are 
there specific areas where nanotechnology can uniquely benefit homeland 
security that are being ignored currently?

A3. Security is an important national challenge that will benefit from 
nanotechnology research. Even if not addressed in the legislation, this 
topic should certainly be prominent in the interagency context. For 
example, nanoelectronics benefits national security in very many ways, 
including even smarter weapons, better and quicker situational 
awareness, lightweight and low-power communication devices, and a broad 
range of small sensors such as single-chip chemical and biological 
detection and analysis platforms. Nanomaterials will allow lighter and 
stronger vehicles, equipment, and armor for military and first 
responders.
    As noted, the Department of Defense invests more in nanotechnology 
research than any other agency in NNI, and much of this research will 
have security applications. DHS should leverage promising 
nanotechnology research through NNI by providing its expertise and 
agency funding, where appropriate, for specific applications related to 
its mission.

Q4.  What difference can you identify between the Nanoelectronics 
Research Initiative (NRI) and the partnerships described in Section 5 
of the draft legislation? In your opinion, what effect will these 
differences have on the success of further partnerships?

A4. The NRI in its current form is a model of the partnerships 
envisioned in Section 5, involving an industry consortium, 
universities, and two federal agencies. The NRI also leverages state 
investment, which was not an element in the initial draft of Section 5, 
and we are pleased to see this aspect recognized in the revised text.
    The major difference between the NRI and the partnerships 
envisioned in Section 5 is that currently under NNI, there is no 
designation as an area of national importance and such partnerships are 
not explicitly recognized. The legislation as drafted will encourage 
such beneficial partnerships.
    As NRI moves forward, its model may evolve to include technology 
demonstration projects of promising concepts. This was not envisioned 
for partnerships in the original Section 5, but we are pleased to see 
the bill as introduced recognizes this need.

Questions submitted by Representative Daniel Lipinski

Q1.  As we know, many companies who have taken advantage of the 
benefits of nanotechnology choose not to advertise this facet in their 
products, for fear of public backlash. I understand their concerns as I 
do not believe the general public has a solid understanding of 
nanotechnology. Does the legislation do enough to enhance public 
awareness and education in the field of nanotechnology? Is additional 
international cooperation needed to assist the United States in 
educating our citizens? Can you give us some examples of what other 
countries are doing to inform and educate their people?

A1. Certainly improved public awareness of the benefits of 
nanotechnology and research around EHS issues will assist consumers in 
making informed decisions and reducing fears around nanotechnology.
    ESH issues are important, but should not eclipse the vast potential 
benefits of nanotechnology. The semiconductor industry is committed to 
ensuring that its leadership in ESH continues as semiconductor 
technology advances.
    To help meet the ESH challenges of the industry, the Semiconductor 
Research Corporation and SEMATECH, two industry consortia, sponsor the 
SRC/SEMATECH Engineering Research Center for Environmentally Benign 
Semiconductor Manufacturing, headquartered at the University of 
Arizona, and including researchers at 10 other leading universities.
    The industry has an International Technology Roadmap for 
Semiconductors (ITRS) that is developed by over 1000 scientists and 
engineers worldwide. The roadmap includes an extensive section of ESH 
that provides direction to research centers, suppliers, and chip makers 
to focus on the both short-term (2005-2013) and long-term (2014-2020) 
challenges in chemical assessment and reduction, energy and water 
conservation, and sustainability and product stewardship. Specifically 
there is recognition of how the industry's ESH controls should be 
studied and adjusted as needed for nanomaterials.
    From an education standpoint, nanotechnology provides an excellent 
opportunity to capture young imaginations to science--a nanometer is so 
small it could fit 50,000 times on the width of a typical human hair. 
The bill's education provisions, particularly the Nanotechnology 
Education Partnerships at the NSF, provide appropriate mechanisms to 
generate teacher and student enthusiasm and undergraduate interest in 
this area.
    SIA has been involved in the International Nanotechnology 
Conference on Communications and Coordination, which brings together 
industry, academia, and government officials working in nanotechnology. 
In addition to research topics, programs have included discussions on 
various approaches to societal and educational dimensions of 
nanotechnology.

Q2.  Nanoelectronics is an area within the field of nanotechnology that 
is certainly important, and I am curious to hear a little more about 
its current status. Could you give me a better sense of the work being 
conducted in this specific area, and what has resulted thus far from 
this research? Approximately how much funding is currently devoted to 
nanoelectronics? And is this funding adequate for what is needed to 
tackle the challenges of nanoelectronics and the work needed to smooth 
the transfer of the research into commercial products?

A2. Nanoelectronics research is focused on finding the new ``switch'' 
to replace today's transistor. The new switch must be extremely 
reliable, fast, low power, functionally dense, and capable of being 
manufactured in commercial volumes at low cost. There are a number of 
candidates for the new nanoelectronics switch, including devices based 
on spin or other quantum state variables rather than classical bulk 
electric charge. The NRI has identified several promising new phenomena 
that have potential to become advanced switches, such as 
pseudospintronics, ballistic anisotropic magneto-resistance, spin 
waves, molecular conformational changes, electron wave interference, 
nanomagnet interactions, and excitons in both molecules and carbon 
nanotubes and graphene. In particular, there is a large amount of 
research going into graphene, which is showing great promise as a new 
material to support a number of new device technologies.
    However, despite this long list of promising initial concepts, it 
should be emphasized that we have a long way to go. Our understanding 
of many of these new phenomena is in its infancy, and we will 
undoubtedly find many challenges and showstoppers which will limit the 
ultimate potential of most of the candidates--this is the nature of 
such far-out research. It also underlines the urgency for investing 
heavily now in many different areas.
    Commercialization of devices based on these phenomena into a new 
class of integrated circuits may very well require an entirely new 
nanomanufacturing paradigm. Technology demonstration projects, as 
identified in the revised bill, will be required to advance to the next 
phase and determine the viability of the various technologies.
    Current direct NRI funding from all sources (federal, industry, and 
State) totals about $25M annually, of which NIST funds about $3M per 
year, and NSF funds $2M.
    However, an aggregate figure for all federal agency investments in 
nanoelectronics is currently extremely difficult to obtain--programs 
are disaggregated across agencies, and often not reported at such a 
detailed level. There are a number of activities relevant to 
nanoelectronics outside of the formal NRI partnerships with NSF and 
NIST. For example, the Department of Defense, largely through DARPA, is 
a major investor in nanoelectronics research. The Department of Energy 
laboratories conduct activities and have capabilities relevant to 
nanoelectronics as well.
    The 2009 National Science Foundation budget request was the first 
time the agency included a $20M initiative for research addressing 
``Science and Engineering Beyond Moore's Law,'' thus establishing a 
centralized figure for the agency's activity on this topic.
    The revision to Section 5 to track investments in the areas of 
national interest, at the same level of detail as is currently done for 
the Program Component Areas will be extremely valuable to have federal 
investment for these areas available in a central location and to 
monitor trends.

Q3.  States obviously play an important role in commercialization and 
translation of promising research into innovation, which in turn 
enhances regional economic growth. Does the legislation sufficiently 
address the role of the states in nanotechnology?

A3. TI and SIA agree that State governments can play an important role. 
Section 4 of the draft legislation highlights technology transfer and 
explicitly identifies the importance of State leverage through 
research, development, and technology transfer initiatives. We were 
pleased that the bill as introduced revised Section 5 to recognize that 
projects in areas of national importance should leverage State funding 
where possible.
    For example, Texas created a $200M Emerging Technology Fund to 
invest in public-private endeavors around emerging scientific or 
technology fields tied to competitiveness; match federal and other 
sponsored investment in science; and attract and enhance research 
talent superiority in Texas. Several other states have similar 
mechanisms. Of course, State governments are also critical in 
supporting public research universities from an overall budget 
perspective.
    States have provided leveraged funding to NRI worth at least $15M 
annually in funding, equipment, and faculty endowments. In addition, 
several states have invested in expansion or construction of new 
buildings related to nanotechnology. The City of South Bend, with the 
new Midwest Academy of Nanoelectronics and Architectures (MANA) NRI 
center, will open an ``Innovation Park'' adjacent to the campus 
designed to foster commercialization.

Questions submitted by Representative Michael T. McCaul

Q1.  The NRI SWAN center based at the University of Texas Austin 
includes significant resources from the State of Texas, the University 
of Texas System, and Texas industry. Specifically, how does this 
provide leverage to the federal investment in NRI research and benefit 
universities outside of the University of Texas System?

A1. While Texas and other states have provided resources to the four 
regional NRI centers, it is important to note that these regional 
centers are ``virtual'' and involve researchers from several 
universities outside these states. Collaborative research occurs on a 
national level at all 35 participating universities. In addition to UT-
Austin, SWAN involves researchers at UT-Dallas, Texas A&M, Rice, 
Arizona State, Notre Dame, Maryland, NC State, and Univ. of Illinois-C.
    The SWAN $30M in matching funds is focused on attracting and 
supporting top academic researchers in nanoelectronics. Specifically, 
this is a three-way match, with the State of Texas contributing $10M 
from the Emerging Technology Fund, the University of Texas System 
matching with $10M, and the remaining $10M contributed by Texas 
industry for endowed chairs, including $5M from TI. Like similar 
investments in other states, these funds are restricted to support 
faculty at public institutions in the state. However, such state 
investments indirectly benefit other universities participating in the 
various centers by enabling research capacity and infrastructure that 
otherwise would not be funded. The NRI's State and local investments 
leverage the federal and industry contributions to further advance 
nanoelectronics research.

                                   

</pre></body></html>
